<html>
<title> - WEST COAST GROUNDFISH AND DUNGENESS CRAB CONSERVATION</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
         WEST COAST GROUNDFISH AND DUNGENESS CRAB CONSERVATION

=======================================================================

                                HEARINGS

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

                         WEST COAST GROUNDFISH

                                  and

                               H.R. 3498

           THE DUNGENESS CRAB CONSERVATION AND MANAGEMENT ACT

                               __________

                        APRIL 30 AND MAY 7, 1998

                               __________

                           Serial No. 105-99

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources


                      U.S. GOVERNMENT PRINTING OFFICE
 48-663 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       FRANK PALLONE, Jr., New Jersey
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
WALTER B. JONES, Jr., North          SOLOMON P. ORTIZ, Texas
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    David Whaley, Legislative Staff
               Jean Flemma, Democratic Legislative Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 30, 1998...................................     1

Statement of Members:
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
    Wyden, Hon. Ron, a Senator in Congress from the State of 
      Oregon.....................................................     9
        Prepared statement of....................................    10
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, prepared statement of...........................     1

Statement of Witnesses:
    Anderson, Philip, Pacific Fishery Management Council.........     6
        Prepared statement of....................................    61
    Garrison, Karen, Natural Resources Defense Council,..........    24
        Prepared statement of....................................    80
    Gunnari, Gerald, Coos Bay Trawlers Association...............    22
        Prepared statement of....................................    78
    Moore, Rod, Executive Director, West Coast Seafood Processors 
      Association................................................    26
        Prepared statement of....................................    92
    Sampson, David, Oregon State University......................    20
        Prepared statement of....................................    85
    Schmitten, Rolland, Assistant Administrator for Fisheries, 
      U.S. Department of Commerce; accompanied by Richard D. 
      Method, Jr., Division Director, National Marine Fisheries 
      Service; William Robinson, Assistant Regional Administrator 
      for Sustainable Fisheries, Northwest Region, National 
      Marine Fisheries Service...................................     2
        Prepared statement of....................................    69

Communications submitted:
    Blackburn, Chris, Director, Alaska Groundfish Data Bank, 
      prepared statement of......................................    82
    Lund's Fisheries, Inc., Cape May, New Jersey, prepared 
      statement of...............................................   103

Hearing held on May 7, 1998......................................    35

Statement of Members:
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................    35
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................    36
        Prepared statement of....................................    36
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, prepared statement of...........................    56

Statement of Witnesses:
    Anderson, Philip, Pacific Fishery Management Council.........    39
        Prepared statement of....................................    74
    Evans, David, Deputy Assistant Administrator for Fisheries, 
      National Marine Fisheries Service; accompanied by William 
      Robinson, Assistant Regional Administrator for Sustainable 
      Fisheries, National Marine Fisheries Service Northwest 
      Region.....................................................    37
        Prepared statement of Mr. Evans..........................    58
    Fisher, Randy, Executive Director, Pacific States Marine 
      Fisheries Commission.......................................    40
        Prepared statement of....................................    61
    Furman, Nick, Executive Director, Oregon Dungeness Crab 
      Commission.................................................    45
        Prepared statement of....................................    63
    Moore, Rod, Executive Director, West Coast Seafood Processors 
      Association................................................    51
        Prepared statement of....................................    67
    Parravano, Pietro, President, Pacific Coast Federation of 
      Fishermen's Associations...................................    49
        Prepared statement of....................................    65
    Thevik, Larry, Washington Dungeness Crab Fishermen's 
      Association/Columbia River Crab Fishermen's Association....    47
        Prepared statement of....................................    64

Communications submitted:
    Beasley, Dale, Commissioner, Columbia River Crab Fisherman's 
      Association, prepared statement of.........................   102



               OVERSIGHT HEARING ON WEST COAST GROUNDFISH

                              ----------                              


                        THURSDAY, APRIL 30, 1998

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:11 a.m., in 
room 1324, Longworth House Office Building, Hon. Jim Saxton 
(chairman of the Subcommittee) presiding.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. The Subcommittee on Fisheries Conservation, 
Wildlife and Oceans is meeting today to conduct an oversight 
hearing on the West Coast groundfish. The main thrust of the 
hearing is to explore the methodology used by the National 
Marine Fisheries Service to place new restrictions on 
harvesting of certain species of groundfish on the West Coast.
    As with most issues associated with groundfish, this issue 
is complicated. Many of these groundfish, which are long-lived 
species with slow growth rates and a very low ratio of 
production to biomass, are important to both commercial and 
recreational sectors. Therefore, it is very important that 
stock assessments be accurate and timely.
    A number of stock assessment methods have been used by the 
National Marine Fisheries Service to determine the status of 
specific stocks of groundfish. Historically, the National 
Marine Fisheries Service has gathered stock assessment data 
through several methods, including slope surveys, shelf 
surveys, pot surveys, and long-line surveys. I look forward to 
hearing from our witnesses about the relative benefits and 
disadvantages of each survey method, as well as other comments 
on the fishery.
    Now, I will move to the first panel for their opening 
statements. Mr. Schmitten, why don't you begin, and we 
appreciate very much your being here this morning, and that 
goes for the whole panel, of course.
    [The prepared statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    Mr. Chairman, thank you for scheduling this hearing on west 
coast groundfish.
    As you are well aware, in December of last year, the 
National Marine Fisheries Service announced the 1998 harvest 
levels for 13 species (or species groups) of groundfish that 
are managed by the Pacific Fishery Management Council. The har-

vest levels for eight of the thirteen species were drastically 
cut from the 1997 levels--some as much as 60 percent.
    While I have always advocated harvest levels that ensure a 
sustainable harvest, I am concerned by such a drastic 
reduction. If the stocks were in such bad shape that a harvest 
reduction was in order, why was it not predicted earlier? Was 
there a sudden change in ocean conditions that caused a huge 
decrease in the population in one year's time? If not, then 
what caused such a sudden, drastic cut in the acceptable 
harvest level?
    This is yet another example of the fishery managers not 
having enough information on the health and status of the 
fishery resources to make timely, informed decisions. If we are 
to maintain sustainable populations of fishery resources, and 
if we are to maintain a viable fishing industry, we need to 
provide the fishery managers with adequate information.
    We cannot continue to manage from one crisis to another. It 
certainly doesn't help the fishery resources to have widely 
varying harvest levels that allow high harvest levels one year 
and put the fishery in danger of collapsing the next year. It 
also certainly doesn't help the fishing industry who think they 
are harvesting at an acceptable level and suddenly find 
themselves on the beach and looking to the Federal Government 
for help.
    One of the problems with assessing the abundance of west 
coast groundfish has been that the trawl survey is only done 
once every three years. It is very difficult for fishery 
managers to predict trends in the populations without up-to-
date information. Two or three year old information may not be 
adequate.
    This Committee, and the Merchant Marine and Fisheries 
Committee before it, have been asking NOAA to develop a plan 
for fishery research for at least 7 years. After years of 
inaction, NOAA finally developed a plan for new fishery 
research vessels and asked this Congress to appropriate money 
for design work in fiscal year 1998. We responded positively to 
that request. Now, however, I find that the Administration's 
fiscal year 1999 budget submission contains no funds for these 
essential vessels. This is remarkable and incredibly 
disappointing.
    The problem of inadequate fishery data is not unique to the 
west coast or the groundfish fishery. This is a problem in 
almost all of our fisheries. In fact, NOAA admitted how little 
data they have in the report to Congress on the status of 
fisheries of the United States. According to this report, we do 
not know the status of almost two-thirds of the species managed 
by the Federal Government. How can fishery managers make 
informed decisions without information?
    We need to do something about this. I hope we will hear 
testimony today that will give NOAA officials some ideas for 
developing research plans which will give fishery managers 
better information so that better, more consistent management 
measures can be implemented.
    Thank you, Mr. Chairman.

  STATEMENT OF ROLLAND SCHMITTEN, ASSISTANT ADMINISTRATOR FOR 
FISHERIES, U.S. DEPARTMENT OF COMMERCE; ACCOMPANIED BY RICHARD 
 D. METHOT, JR., DIVISION DIRECTOR, NATIONAL MARINE FISHERIES 
SERVICE; WILLIAM L. ROBINSON, ASSISTANT REGIONAL ADMINISTRATOR 
 FOR SUSTAINABLE FISHERIES, NORTHWEST REGION, NATIONAL MARINE 
                       FISHERIES SERVICE

    Mr. Schmitten. Well, thank you very much, and good morning, 
Mr. Chairman. I'd like to thank you for inviting us to testify 
on the issue of West Coast groundfish. Just for the record, I 
am Rollie Schmitten. I'm NOAA's Assistant Administrator of 
Fisheries, and, as requested by the Committee, I'm accompanied 
by Mr. William L. Robinson, the Assistant Regional 
Administrator for Sustainable Fisheries in our Northwest Region 
and Dr. Richard Methot, the Director of Fisheries Resources, 
Analysis and Monitoring Division of the Northwest Fisheries 
Science Center. Mr. Chairman, these will be your experts today, 
and I will introduce--although I'm sure he will introduce 
himself--from the Pacific Fishery Management Council, Mr. Phil 
Anderson, a representative from the State of Washington.
    You have our complete testimony, so let me just summarize 
that very briefly for you. I'd like to begin with my conclusion 
and recommendation to you and the Subcommittee. Mr. Chairman, 
my concern for West Coast groundfish comes from the 14 years 
that I was a State and a West Coast regional fisheries manager. 
During that time, I had the pleasure to serve on both the 
Pacific Fisheries Management Council and the North Pacific 
Management Council, so I have some knowledge of the issues of 
groundfish on our West Coast, and also the process that was 
used to manage those fisheries.
    Let me note, though, that although the Committee's focus is 
on West Coast groundfish, my concern from groundfish in the 
west extends from California to Alaska, and that the major part 
of the solution remains the same, whether it's for California, 
Oregon, Washington, or Alaska. That is, given the fact that 
most of these fisheries are overcapitalized, that the 
competition for each fish has become very aggressive, that 
technology often outpaces management and scientific knowledge, 
that abnormal ocean environmental conditions have existed the 
past decade, therefore, the accuracy and timeliness of fishery 
data is imperative to maintain both healthy fisheries and fish 
stocks.
    So the solution is simple. We must move from a triennial to 
an annual survey basis. And the need for annual surveys applies 
to Alaska as well as to the lower, or the southern part of the 
West Coast, so as to assure that the largest and most valuable 
fisheries in the Nation remain robust and that increased 
knowledge through the annual surveys in the lower West Coast 
help restore the confidence in the system.
    Mr. Chairman, just for a moment, I'll focus on the process 
of managing West Coast fisheries. First of all, the term 
groundfish is an oversimplification for what these people work 
with. In fact, the Pacific Council's fisheries management plan 
for groundfish includes 83 diverse species. Currently, the best 
available information now indicates that some of the stocks are 
only at 10 to 20 percent of their unfished levels, and that 
reductions in catch were necessary to allow the rebuilding to 
safer, more productive levels to occur.
    I think the Subcommittee is aware, but, pursuant to 
Magnuson, NOAA fisheries is responsible for providing the 
scientific information on which the Councils base their 
management decisions, and we work very closely with the Council 
on doing that. What is unusual on the West Coast is that the 
agency's northwest, southwest, and Alaska science centers all 
conduct the research that provides the scientific basis for the 
Council's recommendations on harvest levels.
    Mr. Chairman, just to conclude, let me summarize what we've 
achieved in the past four years, and you can track that by the 
document, that I believe each Member has.
    [The information referred follows:]

    [GRAPHIC] [TIFF OMITTED] T8663.001
    
    Mr. Schmitten. While I was still in Northwest, we began to 
witness major declines in certain Northwest groundfish stocks. 
Upon becoming the Director of National Marine Fisheries Service 
in 1994, I promulgated the need to establish a separate 
groundfish unit in the Northwest science center, and to no 
longer rely on the Alaska science center to do the data 
analysis working up to the stock assessments. It wasn't saying 
that they couldn't do, and weren't doing, a good job. It was 
saying that we wanted to establish a separate unit in the West 
Coast for the West Coast.
    In January, 1995, we initiated the Northwest Fisheries 
Science Center groundfish program at the Newport lab in Oregon, 
and they began to provide a coordinated stock assessment 
program which focused on the important and valuable deep-water 
species in that area. We initiated that program with a one-and-
a-half million dollar dedication of funds and a staff of seven 
people that same year. To make sure of what was needed, we 
conducted an external review of West Coast groundfish stock 
assessments, and they identified that the number one weakness 
was the lack of survey data as a main cause of the problem. 
That links back to my solution, that we have to get away from 
relying on three years before we go back in a survey, and move 
to an annual survey basis.
    Many other things have occurred, including providing the 
funds--$400,000--to take care of the triennial survey, because 
the NOAA research vessel was about to go into drydock. That was 
the number one request of industry. Also this year, we added 
$750,000 in permanent base funding to the Northwest region for 
the West Coast groundfish management and research, and that was 
the number two request of the industry. An unusual feature that 
Congress asked us to consider the Magnuson-Stevens Act, was the 
use of fish under a new fish-for-research provision, and that 
will be embraced for the first time in the Nation on the West 
Coast.
    To just close, I want to comment on an issue that we've 
been working on closely with Senator Wyden. And I want to 
stress my admiration for his strong support for the West Coast 
fisheries industry, and to indicate that the National Marine 
Fisheries Service supports the utilization of trip-limit 
overages for science, as proposed by Senator Wyden. Not only 
would it reduce the unnecessary waste, it would also add 
science that would help provide a better accounting for the 
overall groundfish quota. And after extensive talks with the 
industry, with the State, with the Councils, we will propose 
such a pilot program to the Pacific Fisheries Management 
Council in June. To further help facilitate such a proposal, 
I've agreed with Senator Wyden that a way of closely involving 
the affected industry is that our agency will sponsor a 
workshop, under the auspices of the Council, to develop a draft 
pilot program.
    Mr. Chairman, I think that shows you that in a short four 
years, we've developed a program, we've nurtured it, and it now 
is a first-class science program. It's not without problems yet 
before it, but I think we've come a long way, and I appreciate 
this opportunity.
    [The prepared statement of Mr. Schmitten may be found at 
end of hearing.]
    Mr. Saxton. Phil Anderson, go to it. Thank you very much.

   STATEMENT OF PHILIP ANDERSON, PACIFIC FISHERY MANAGEMENT 
                            COUNCIL

    Mr. Anderson. Thank you, Mr. Chairman, and good morning, 
and good morning members of the Committee. My name is Phil 
Anderson. I represent the Washington Department of Fish and 
Wildlife on the Pacific Fishery Management Council, and I'm 
here today to testify on behalf of the Pacific Council. The 
Council appreciates this opportunity that you've provided us to 
provide testimony on the management and research needs of the 
West Coast groundfish fishery.
    The Council and the National Marine Fisheries Service 
manage the groundfish fishery consistent with the Pacific Coast 
groundfish fishery management plan, which was developed in 
1982. The fishery is comprised of three primary sectors, the 
commercial fishing sector, processing sector, and the 
recreational fishing sector.
    The commercial fishery harvests primarily Dover sole, sable 
fish, Pacific whiting, and a variety of species of rock fish. 
The majority of the commercial fisheries to extend landings 
throughout the year by setting cumulative trip limits per 
vessel, and adjusting them in season as necessary. The 
recreational fishery harvests a relatively small portion of the 
total harvest; however, groundfish does represent an important 
species for that industry.
    Annual management specifications for major species are 
established each year and are derived from stock assessment. 
Stock assessments are generally conducted with models which 
allow the utilization of information obtained from a number of 
different fishery and resource survey sources. In addition, 
beginning in 1995, National Marine Fisheries Service has made 
very significant efforts to improve survey technique. However, 
given the limited amount of funding available, and the 
technological difficulties of estimating the biomass of 
groundfish, survey and assessment results are accompanied by 
substantial uncertainty and imprecision.
    The Council recently implemented a new stock assessment 
process designed to, first, improve public participation, and 
increase the level of scientific peer review and to provide 
greater separation between the science and management. Based on 
the 1997 stock assessment, the Council recommended very 
significant reductions in the allowable harvest of a number of 
the major species that contribute to the commercial fishery for 
1998.
    The total ex-vessel, or landed value, of the species that 
were reduced are projected to decline from a level of 59.8 
million in 1996 to 41.4 million in 1998. This substantial 
reduction in revenue will further aggravate the depressed 
economic conditions in both the fishing and processing sectors, 
in addition to the overall economies of the coastal communities 
where they are based. Reasons for the dramatic reductions in 
biomass from previous assessments are unclear. The results of 
the 1997 assessments raise a number of questions about the 
adequacy of the science used to manage the fishery. The 
industry has been harvesting at levels adopted by the Council, 
yet significant declines appear to have occurred in many 
species.
    To increase the accuracy of stock assessments, improve 
management, and provide for a stable fishery, the Council 
believes the following steps should be taken.
    First, National Marine Fisheries Service should increase 
the frequency and coverage of trawl surveys. The Council also 
supports cooperative agency and industry research projects, a 
tool that was recently made available through the 
reauthorization of the Magnuson-Stevens Fisheries Conservation 
Fisheries Management Act. In particular, we--I'm sorry, it has 
the potential to collect needed information at less cost, while 
providing support to the industry.
    Second, we must take a precautionary approach, because even 
with improved assessments, there will continue to be a wide 
confidence interval in the biomass estimates. The Council is 
examining a more conservative harvest policy. Exploitation 
rates would be reduced as biomass levels decline to address 
management uncertainty. If approved, this management approach 
should provide more stable and abundant populations for the 
future.
    Third, we must improve estimates of total fishing 
mortality. Assume levels of discard are based upon limited and 
outdated studies. A comprehensive observer program, and 
alternative ways of collecting this information are being 
considered by the Council.
    Finally, we must reduce the existing harvest capacity. In 
1994, the Council, through National Marine Fisheries Service, 
implemented a license limitation program in an effort to curb 
the growth in the fishing fleet. However, the capacity still 
far exceeds the resource available for harvest. Additional 
measures are necessary to achieve a stable and economically 
healthy industry. An industry developed and funded trawl permit 
buy-back program is currently being considered by the Council. 
Individual quotas are another method of addressing excessive 
capacity; unfortunately, this tool is not presently available 
to the Council.
    The Council looks forward to working with the fishing and 
processing sectors, and National Marine Fisheries Service to 
meet the resource management challenges that lie ahead.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Anderson may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much. Let me just ask a couple 
of questions, and then go ahead and turn the rest of the 
questions over to the other members.
    Why have some stock assessment methods been abandoned, such 
as pot surveys in favor of some others, and are there any types 
of surveys that are particularly useful to fisheries managers 
that should be continued or increased? Dr. Methot?
    Mr. Schmitten. Dr. Methot?
    Dr. Methot. Thank you, Mr. Chairman. The survey methods 
that are used on the West Coast have included a number of 
different techniques. The discontinuation of the pot survey 
that had been done for sablefish through 1991 was partly based 
upon the number of resources available to conduct overall 
surveys, and also due to some technical limitations of 
conducting that particular pot survey.
    The emphasis since then has been on a multi-species trawl 
survey. The multi-species aspect of the trawl survey provides 
us information not just on the sablefish, but also the 
thornyhead species which are growing in importance, and Dover 
sole as well. The opportunity to expand our survey efforts to 
once again include a sur-

vey that would be targeted on sablefish, such as a pot survey 
or a long-line survey, is an opportunity that we are very 
interested in exploring, as we have greater opportunity to 
expand our resource survey capabilities.
    Mr. Saxton. You mentioned the trawl survey, which my 
understanding, you have historically done that every three 
years. Is that correct?
    Dr. Methot. There are two trawl surveys that are conducted 
upon the West Coast, and they're independent efforts. One is a 
triennial survey, every third year, beginning in 1977. And it's 
a survey that has been targeted upon primarily the rock fish 
and other species that are upon on to the shallower waters of 
the continental shelf. Again, that survey's gone on every third 
year, since 1977, again in 1998.
    The other survey has been conducted annually since 1988, 
and it's a survey that's directed more to the deep-water 
species. It uses a slightly different trawl, and it's a survey 
that's been conducted by the NOAA vessel MILLER FREEMAN, 
whereas the triennial survey has been conducted aboard two 
chartered trawl fishing vessels, as well as university vessels.
    So these two surveys, together, give us some coverage of 
the diversity of groundfish species, but even these two trawl 
surveys do not cover all of the various species of groundfish 
that we have under our jurisdiction.
    Mr. Saxton. Let me just ask, with regard to the trawl 
survey, understand that the NMFS vessel that conducts, or that 
you use to do the trawl surveys, is going to be taken out of 
service, at least temporarily. Is that correct?
    Mr. Schmitten. Mr. Chairman, this is one that I've been 
very directly involved in. Yes, for the leg of the triennial 
survey that it was going to conduct, it will be laid up in the 
drydock. I think this vessel is 32 years old. Industry was 
extremely concerned, because that could mean, instead of a 3-
year, there could be a 5-year lapse. They sought for some 
funding relief. I have guaranteed that the $400,000 that is 
necessary to conduct that survey is committed, and that we will 
contract with the private sector to get the job done. That was 
their number-one request of us.
    Mr. Saxton. Will the methodology and the results of the 
methodology done by NMFS that you will do through private 
contracts be compatible with the results of the surveys that 
you did?
    Mr. Schmitten. It certainly is our intent, and that was 
part of the reason that we contracted with the University of 
Washington to develop the protocols for allowing and working 
closer with the private sector to conduct some of the survey 
work. I ultimately envision both the private sector doing up to 
40 percent of the surveys, and NOAA conducting the balance, but 
in partnership. And I think by doing that, you gain much more 
believability and reliance, or support of industry.
    Mr. Saxton. I wonder if you would all mind if I do 
something unusual. Senator Wyden has come in, and he was to be 
our first panelist. Senator Wyden, we're going to go vote, and 
I don't want to make you wait until we get back, so maybe if--
Rollie, would you mind letting the Senator take your seat?
    Mr. Schmitten. Yes, sir.
    Mr. Saxton. And we'll hear Senator Wyden's testimony, and 
then we'll come back to you as soon as the vote has been 
completed.
    You may proceed. We're going to leave here in approximately 
10 minutes for our vote, so take your time, but if you could 
finish up within 10 minutes.

  STATEMENT OF HON. RON WYDEN, A SENATOR IN CONGRESS FROM THE 
                        STATE OF OREGON

    Senator Wyden. Mr. Chairman, thank you very much for your 
thoughtfulness, and going back to the days when I was a member 
of this body, I've enjoyed working with you, and I want to 
thank you for your graciousness again. And I see old friends 
Congressman Farr, and Wayne, and really appreciate your coming. 
I would ask unanimous consent that my full statement could be 
made a part of the record, and perhaps just touch for a minute 
or two on a couple of key points.
    Mr. Saxton. Without objection.
    Senator Wyden. Thank you, Mr. Chairman. And I just come 
today to say that I think the National Marine Fisheries Service 
has worked in a very positive and constructive way with those 
of us in Oregon who are trying to deal with this groundfish 
crisis. And it is truly, you know, a crisis.
    Terry Garcia came at my request to the south coast, met 
with fishing families, met with a cross-section of industry 
leaders, and they are just devastated with these reductions in 
the allowable catch. And he vowed then to say that he was going 
to be able to come back and show that we're making some 
changes. And in fact, he has brought with the proposal that Mr. 
Schmitten's talking about today something that I think is very, 
very constructive. In effect, what they are proposing to do is 
to use the next few months to work with fishing families, with 
the fishing communities, to devise a new approach that would 
allow for the first time overage, you know, fishing in excess 
of the allowable limits to be sold when it gets to shore, used 
and overseen by a public entity, to start looking at ways to 
avoid this problem in the first place, and so that we can get 
better stock assessments. Perhaps hire some of those fishers 
that are out of work as observers. Look at issues relating to 
gear and how it's used.
    And what they envisage is essentially what we have been 
talking to them about over the last few months, since Terry 
Garcia came to the Oregon coast. And the most appealing part of 
it to me is something Congressman Gilchrest and I always used 
to talk about when we'd talk about these kinds of issues. It is 
that this would not be a top-down, run-from-Washington, DC 
exercise. We've decided that this would be something that would 
be voluntarily. Fishing families could choose to be part of 
this if they wanted to, and in the next few months, essentially 
you would, through some workshops and other sessions on the 
coast, allow for fishing families to essentially design this 
over the next few months, use it through our regional 
organization.
    So I'm very hopeful that we can go forward on this. The 
industry is in support of this. We've talked to a lot of people 
in the commu-

nities; they're for it. Conservationists like the idea of using 
this as a chance to test out some new approaches.
    My view is, Mr. Chairman, and I'll really wrap up with this 
last point, that this could be a national model. This could be 
a national model where we could really study how to deal with 
this overage question, how to make sure that we make better use 
of the resource, and the most appealing part of it is, it 
wouldn't be run from the Beltway. It'd be run from the region, 
we'd involve the families, come back with good data on the kind 
of key elements so you and others could take a look at it, and 
perhaps be duplicated elsewhere.
    So, I really appreciate the chance to come, particularly to 
go out of order. I remember so well having to chase across the 
street and make a vote, so I really appreciate the chance to 
give just a couple of minutes of input this way.
    Mr. Saxton. Well, Senator, thank you very much. Your 
testimony is very articulate and we appreciate very much 
hearing from you on this issue. I can tell from your testimony 
how closely you're working with the local folks, as well as 
with the regulators, Rollie and others. And so we really 
appreciate the degree of enthusiasm with which you have 
approached this issue.
    Mr. Farr, do you have any questions at this? But I'd just 
like to thank you for being here. Mr. Farr, do you have any 
questions?
    Mr. Farr. I'll save my questions till after we get back 
from the vote, but I do want to thank the Senator for coming 
over here. It's nice to see you here, we miss you in this 
House, we appreciate your leadership in the Senate, and we hope 
the Senate will be as user-friendly for our requests as we are 
for yours.
    Senator Wyden. You have reciprocity under all 
circumstances, and suffice it to say this Committee, you all 
are really the experts on this issue. I've learned a lot about 
groundfish in the last few months, and we're going to be 
working real closely with you.
    Mr. Saxton. Mr. Gilchrest.
    Mr. Gilchrest. I just want to say, Ron, it's good to have 
you back here. We really look forward to working with you on 
this and many other issues, especially how we, the human 
species, are trying to figure out the complexity of the 
fluctuations in other species, especially this groundfish 
problem. But working with the community to set up and 
anticipate problems so they're not so dramatic or drastic is a 
wise idea. Good to see you again, Ron.
    Senator Wyden. You're being too logical, as always, and 
that's the heart of it, it's preventive strategy.
    Mr. Saxton. Well, thank you very much, Senator. And we're 
going to take a little break here now so that we can run across 
the street, as the Senator said, and vote, and when we come 
back, it will be Mr. Farr's turn to question, and Mr. 
Schmitten, you can resume your seat there when we get back. 
Thank you very much.
    Senator Wyden. Thank you, Mr. Chairman.
    [The prepared statement of Hon. Wyden follows:]

 Statement of Hon. Ron Wyden, a Senator in Congress from the State of 
                                 Oregon

    Mr. Chairman, if ever there was an issue which called for 
innovation and new ideas, fishery management is it. Everyone 
agrees that something needs to be done to keep fish stocks from 
disappearing and keep our fishing communities vital, but 
nothing has ever seemed to work.
    All along my state's magnificent coastline, from Newport to 
Astoria, fishing communities are at a moment of serious peril. 
The groundfish stocks on which they depend may have shrunk to 
dangerously low levels. And the government, in trying to 
protect that resource, has placed limits on allowable 
groundfish catch which jeopardize livelihoods and threaten 
entire communities. At the end of last year the Pacific Fishery 
Management Council approved harvest guidelines which called for 
a huge cut in the 1998 allowable catch of many groundfish 
species. The cuts were made based on scientific stock 
assessments, but the data underlying those assessments are 
extremely limited. The Council said it had no choice under the 
law but to reduce fishing.
    Oregonians want to manage the groundfish resource wisely. 
The fishing industry is an integral part of the culture of 
Oregon's coastal communities as well as a major contributor to 
the economy. In Lincoln County, for example, the fishing 
industry provides around $61 million each year to the local 
economy and 20 percent of the total wages earned.
    Unfortunately, the measures being taken to protect fish 
stocks have had a devastating effect on Oregon's seafood 
community. The reduction in allowable catch, which for some 
species is as high as 65 percent, will result in a 23 percent 
decrease in all groundfish-derived contributions to Oregon's 
economy. This translates into a $14 million loss of personal 
income or the equivalent of about 678 jobs in Oregon. The cuts 
will have a disastrous economic ripple effect in coastal 
communities--from boat crew members and processing plant 
workers, to boat and plant owners, to marine hardware 
suppliers, to port businesses.
    Most disturbing to me is the fact that the severely reduced 
harvest guidelines are based on inadequate data. As you know, 
harvest guidelines are determined by stock assessments, which, 
in turn, are dependent on the data collected in surveys. Data 
used to make stock assessments on the West Coast are considered 
to be inadequate by scientists, fishermen, fishery managers, 
and environmentalists. Without better data and analysis, stock 
assessments and harvest guidelines will be subject to 
skepticism--especially during these times of low harvest 
levels.
    Some of your witnesses may suggest ways to improve the 
collection and analysis of data. I would like to highlight two 
ideas: chartered surveys and retention of overages.
    It is crucial that the National Marine Fisheries Service 
(NMFS) perform annual surveys of grouch stocks so that fishery 
management decisions are based on the best data. The Northwest 
does not have a dedicated research vessel to perform this 
important work, so surveys have traditionally been performed 
only every three years. In place of a dedicated research 
vessel, NMFS is starting to follow the industry's suggestion to 
charter private vessels to collect data. NMFS should expand the 
use of these collaborative surveys--the more experience the 
agency has in conducting these surveys, the more effective the 
resulting data.
    Chartered surveys can be paid for by ``fish for 
research''--a concept that allows fishermen to keep the fish 
caught during chartered surveys as a means of partial payment 
for the survey. I am encouraged by NMFS's indication that they 
will be trying out ``fish for research'' this year. This 
program can potentially create a mechanism to finance the 
collection of data giving NMFS more data at less cost to the 
taxpayer.
    The other program I would like to highlight is a 
``retention of overages'' plan, which would utilize some of the 
fish that fishermen are forced by regulations to discard. This 
idea has been raised by the industry several times in the past. 
The objectives of a retention of overages plan are to reduce 
the waste of fish and to increase and improve groundfish data.
    Overages are marketable fish caught in excess of trip 
limits. Fishermen are fined if they bring overages to port, so 
they throw the fish overboard. Most of these fish die. This is 
a terrible waste, especially considering the current crisis. 
Fishermen have told me that they are angry they are forced to 
throw ``beautiful'' fish overboard to die. I suggest that we 
utilize these fish and work towards increasing our 
understanding of the fishery so that we can better manage it.
    A retention plan would allow fishermen to keep their 
overages without being fined. A fisherman would bring his catch 
to port and sell the amount of his trip limit. The overages 
would be surrendered to a public entity. The entity would sell 
the fish to the local processor, take the funds and grant them 
for specific purposes, such as scientific research or community 
assistance.
    I suggest this idea be implemented as pilot project for the 
remainder of this year. A working group made up of NMFS and 
industry folks could meet to discuss implementation procedures 
as well as come up with innovative ideas for using the funds. 
If this group is established quickly, it could report to the 
Pacific Fishery Management Council at the Council's next 
meeting this summer.
    At the end of the year, the working group could reconvene 
to evaluate the effects and make recommendations on the 
possibility of a year-long plan for 1999. The objective of a 
more extensive plan should be to provide the data needed to 
eventually reduce overages and discards in general. Currently, 
fishery managers estimate the level of discards and these 
estimates play a role in determining harvest guidelines. A more 
extensive retention plan could even help fund an observer 
program to provide accurate data regarding total catch thereby 
reducing the level of uncertainty involved in setting harvest 
levels.
    I'd like to be clear in saying that I don't think a 
retention of overages plan should be permanent. I don't want a 
plan to legitimize or institutionalize overages and discards. 
Rather, I'd like the plan to provide the scientific basis from 
which fishery managers can work to effectively reduce discards.
    What I'm advocating here today is implementation of a pilot 
plan for only this year, so that we can get an idea of how well 
this idea will work. Afterwards, if appropriate, we can discuss 
a longer term plan.
    I realize that many people have strong feelings regarding 
the management of groundfish. But we are in a crisis situation. 
We need to get past the finger pointing stage and start working 
on solutions. I have been working closely with Terry Garcia, 
the Deputy Administrator of NOAA, on West Coast fisheries 
issues. Terry is a breath of fresh air. Recently, he traveled 
with me to the Oregon Coast to attend two public meetings to 
discuss groundfish issues. We both left those meetings deeply 
impressed by the urgent needs of the fishing community. There 
are critical needs which must be addressed on the West Coast 
and I think Terry understands them. My suggestions are the 
result of our meetings on the Oregon Coast.
    In closing, I would like to say that as we discuss 
groundfish management practices, we should remember that the 
livelihoods of people are directly linked to management 
decisions. Let's not forget the fishermen, the processors, and 
all the other people linked to the seafood industry.
    Mr. Chairman, I thank you for calling attention to an issue 
of such importance to Oregonians and to all citizens of the 
West Coast. I would ask that my prepared statement be printed 
in the hearing record.

    [Recess.]
    Mr. Saxton. If the witnesses would be so kind as to get in 
their places and take their seats. When we left, we had just 
concluded with Senator Wyden, and thank you very much for 
understanding and for permitting the Senator to intervene in 
this panel. And we were just about to move to Mr. Farr for his 
questions.
    Mr. Farr. Well, thank you, Mr. Chairman. I really 
appreciate you having this hearing. As you recall, Congressman 
Miller and myself asked you, an East Coaster, to hold a hearing 
on the Pacific Coast fisheries, and I really appreciate it. And 
it's also good to have you back from last week when you were 
ill, when we were doing a mark-up of the Oceans Act.
    Let me just paraphrase some of my concerns. I'm sort of 
frustrated. I'm a public official. I'm elected, and I'm 
appointed to this Committee. The Committee is the Resources 
Committee. And we essentially have--the major responsibilities 
are our mining Subcommittee, and those are all the mining 
resources, oil and gas, and other mineral deposits. We have a 
water Subcommittee which is just meeting down the hall. They 
essentially have the whole issue of water and, you know, how 
much is it and where is it going to go, and so much so that we 
have a lot of money invested in futures of water and saline-
making water contracts and so on. And we have a fisheries 
Committee. And it seems that it would mean that, of all the 
resources that we have out there, this is the one that we know 
the least about.
    Why--and as a public official, I mean, I'm sitting here 
thinking, is this going to be--is fisheries sort of an S and L 
scandal, that it's where the regulators aren't really 
regulating very well. Is it that we don't know where we're 
headed, or is this something where we're overreacting and we're 
having people sit at home on shore, where there really isn't a 
problem? And see, we're caught between the two. Because we 
represent the constituents who are the commercial fishermen, 
and we represent the public who owns the resources, all the 
fish stock out there. And I don't want to lose it.
    I represent an area where I grew up with a catastrophic 
loss of the fishery, and a lot of people don't realize what 
happened. They know more about the northeast fisheries than 
they recall of Monterey, which used to be the largest sardine 
port in the world and we lost the sardines. And the entire 
place closed. And it was just one city and, you know, there 
wasn't the kind of programs that we have now on disaster relief 
and so on. So here's the city of Monterey, just for almost 20 
years, the Cannery Row just sat there. And now it's obviously a 
thriving tourist venture, but what was lost in that 20 years 
was just incredible productivity of people and lives.
    So, here we are. We're sitting here talking about what we 
know is to be a problem on the Pacific Coast. We have created a 
management Council. But why--and the management Council is, I 
think, it's a good--it's a combination of private and public 
sector and science. Why are we so weak on the science? Why 
don't we know more about this, and what we know, why aren't we 
better regulating it? Why are we here worried about depleting a 
fishery?
    Mr. Schmitten. Mr. Farr, let me start with that. First, let 
me personally thank you for your interest, even if it's concern 
I know it's honest concern for the resource, and for asking for 
this hearing.
    Why we know so little, frankly, it goes to my solution, and 
that is I think we need to move from triennial surveys, which 
at one time was thought adequate. We do have a data base that 
goes back into the mid-1970's, but for today's demands on these 
resources, the uncertainties with the environment, the issues 
that I raised with the overcapitalization, we can't afford to 
rely on what was good for the 1970's and 1980's. We need annual 
information. We need it every year if we're going to have 
support of the industry for our data.
    Mr. Farr. Well, why haven't we had that? That's the 
question--I mean, is there anything broken in the law that 
doesn't allow you to do your job?
    Mr. Schmitten. Oh, absolutely not. Why we haven't had it is 
we haven't been able to afford it.
    Mr. Farr. So we haven't had enough money?
    Mr. Schmitten. Let me just tell you. Last year, we lost 
five million dollars out of the resource information line which 
supports annual stock assessments. A portion, in fact a big 
portion, of that was going to go to the West Coast. We have 
identified now, since I have been here, the needs on the West 
Coast. I have taken money away from all parts of the Nation to 
continue to fund and buildup this program, and we've done that 
to the tune now of about three million dollars. But we do need 
help.
    Mr. Farr. Well, have we--this is a very frank discussion 
here--have we done what we need to do to really understand how 
much money we're going to need to solve the problem? I mean, if 
we put this on a crisis level, if it is a crisis, Congress 
loves to respond to crises. That's what we do, in fact, we 
usually don't respond until it gets there. And if there's a 
crisis in this, and it's just a matter of inadequate resources, 
with a concentrated effort and leadership by the 
administration, we can do that. I mean, you've asked for 
$750,000 to supplement the inadequate research funds available 
for ground fisheries for this year. Is that going to be a 
request next year and the year after, and the year after that?
    Mr. Schmitten. Yes. That's in permanent funds that will be 
in perpetuity. I think we know what we need to do, and thanks 
to the industry, thanks to the Council, we have developed a 
plan. We need to go to annual surveys. We need to use the 
industry in conducting a lot of those surveys. This will 
provide the data that we need, and we're preparing for that. 
And that's forecasted in future budgets.
    Mr. Farr. But if we don't have enough, OK, it's money for 
scientific data. But the annual surveys, that's a money issue, 
not a legal issue.
    Mr. Schmitten. Yes.
    Mr. Farr. In the meantime, when something's threatened, are 
you really using enough of your authorized controls, 
enforcement--is the enforcement adequate?
    Mr. Schmitten. First, are we using authorized resources, 
including enforcement and dollars. I've pledged the $400,000 
that the industry asked to do the survey. I've pledged the 
$750,000, taken it from all parts of the country, to continue 
the stock assessments in perpetuity. We've engaged in the 
enforcement side of this. We're willing to use fish for 
research, as well as support Senator Wyden's concept of 
avoiding waste in trip overages.
    We're trying to be just as aggressive and proactive as we 
possibly can.
    Mr. Farr. There's one ingredient here that's affected this 
fishery, which is technology. The fisherman have available to 
them some of the same technology that our military has in being 
able to discover why the biomass is with the temperature of 
satellite data and biomass. I mean, they used to go in search 
of fisheries. Now they don't leave the port until they know 
where they are and they sell the fish, you know, before the 
nets are even dropped in the water because they know they're 
going to catch them. And they catch more than they've ever 
caught.
    So you have fewer boats, but they're catching a hell of a 
lot more fish. That's all technology that they have, and a lot 
of that's public given technology, satellite information and so 
on. Knowing that they're capable of doing that, do you think 
that you're doing enough in the enforcement area?
    Mr. Schmitten. We're at the point where I should turn over 
to the experts in the field.
    Mr. Robinson. Congressman, I think one of the situations 
that we find ourselves in is the level of certainty that we get 
from what the science is telling us. At one time, when the fish 
stocks were not under environmental stress, when the biomasses 
were larger and when the capitalization and technology were not 
so great, the level of uncertainty in the scientific answers 
was tolerable.
    Times have changed. We have had an environment for the last 
decade that there's some indication that it is telling us that 
what we thought were sustainable levels of harvest a decade ago 
are probably not sustainable levels of harvest. They're 
probably something less than that, given the environment.
    Mr. Farr. And have you taken appropriate adjustments in 
enforcement?
    Mr. Robinson. Yes, the appropriate adjustments are taken 
through a precautionary approach, a conservative approach that 
the Council must take in setting the harvest quotas. When you 
don't have these stress factors, you can live with the 
uncertainty and you can live with setting quotas that are in a 
less cautious environment. When you have all of these factors 
combining to put both biological stress and technological 
stress and overcapitalization stress, the need for precision is 
much greater than it has been in the past. That's what we're 
struggling with. How to make the science more precise so that 
we know that when the Council chooses a harvest quota, that in 
fact it is a safe quota. That is the charge of the Council in 
terms of exercising its stewardship.
    What we're struggling with is improving the precision. The 
program that we began in 1995 at the Newport lab, and the 
additional supplementation of that program in 1998 is designed 
to reduce the uncertainty, so that the Council can be assured 
that the decisions that it makes are truly precautionary and 
truly conservative, and result in sustainable harvest levels 
for the future.
    Mr. Farr. Mr. Chairman, if I may, I know that there's only 
the two of us so, the other question I have, and I know Mr. 
Anderson wanted to respond, but just explain to me why your 
Council does not manage the squid fishery.
    Mr. Anderson. We are in the process of developing a coastal 
pelagic species management plan. Primarily, the squid fishery 
is taking place off the coast of California and has been 
managed by California Department of Fish and Game.
    Mr. Farr. So it hasn't been managed? There's no regulation, 
no season, there's no--there's hours of fishing, but not limits 
to fishing. Not days or----
    Mr. Anderson. Once again, we are just in the process of 
developing a coastal pelagic species management plan, and one 
of the species that would be managed under that plan is squid.
    Mr. Farr. What's it take to get a fishery under the 
management Council?
    Mr. Anderson. We have to develop a management plan that 
complies with the requirements under Magnuson, and we have been 
developing the fishery management plan in this case for coastal 
pelagics. Actually, it's been in development since 1990, and so 
it's been a very long and difficult process. We had a coastal 
pelagic species management plan developed and actually 
submitted to National Marine Fisheries Service, I believe, in 
1994. And it was not approved by National Marine Fisheries 
Service, and so we've gone back to the drawing table 
essentially and have developed another plan, and we are in the 
final stages of development of that plan, and will be 
submitting it to National Marine Fisheries Service later this 
year.
    Mr. Farr. Are we coordinating as much as we should be with 
the States? My frustration, coming from the State legislature, 
all I heard about in the State legislature were fisheries that 
the State managed, which mostly was salmon and swordfish. And 
then we got into a problem with taking of sea urchins and 
mussels, and sort of the bivalves--abalone. And then I came 
here to Congress and I understand that we manage a whole--
they're all in the same place, so why do we have two different 
governments managing them? Why don't we meld together what 
States are trying to do and the feds are trying to do, and have 
less duplication and more collaboration?
    Mr. Anderson. I think we've tried very hard to avoid 
duplication, frankly. I think in the case--the Council has been 
selective in the species complexes that it's developed 
management plans for, and we've prioritized those that have 
migratory ranges to cross State borders. We've prioritized 
species that predominantly reside outside three miles, in the 
Federal waters, and have relied principally on the States to 
manage fisheries which are located primarily in State waters.
    Mr. Farr. Let me ask this question: What was the basis for 
the Council's decision to ignore the recommended quota cuts for 
sable fish and short spine thornyheads?
    Mr. Anderson. Relative to sable fish, I do not believe that 
we ignored the scientific information that we received. On 
sable fish, the stock assessment models that were used to bring 
the information forward ranged in a recommendation for a 
harvest guideline from approximately 2,500 tons up to 7,500 
tons. There were five different pieces of information that were 
utilized in those models, and depending on what combination of 
those five pieces of information, you got a different result 
and a different recommendation for a harvest guideline. And I 
believe in our decision on sable fish, we used the best 
information that we received from the scientific community in 
recommending the 5,200 metric tons for a harvest guideline and 
allowable biological catch for this year.
    Mr. Farr. And what happens if that's not adequate? I mean, 
you've already heard that they're approaching overfished 
condition last year, so now you have this new harvest 
guideline, and you'll have new information. What will you do 
then if they're still approaching being overfished?
    Mr. Anderson. First of all, I don't believe the number that 
the Council recommended to National Marine Fisheries on sable 
fish approached the overfishing definition. I believe that the 
model, and the parameters of the model, that we utilized in 
setting the ABC was consistent with an F-35 approach to 
managing sable fish.
    The short spine thornyhead issue is a different issue, and 
it was a different set of circumstances. And, with your 
permission, I'd like to ask Mr. Robinson to speak to that 
issue. And I would also ask that you allow me to come back and 
respond to some of your earlier comments if I could, please.
    Mr. Farr. Certainly. It's the chairman's charge.
    Mr. Robinson. Congressman, just to elaborate on Mr. 
Anderson's answer a small bit. The Council was faced with 
taking a precautionary approach to setting the harvest quotas 
in the face of substantial uncertainty, which the scientific 
side of the Council was really unable to advise the Council on 
in terms of how to best evaluate that uncertainty. There was a 
lack of risk-assessment information that left the Council 
trying to figure out essentially what the best conservative 
approach was. The Council's response was to reduce the 
sablefish quota by almost half. It took what I believe to be a 
fairly big cut out of the quota, and a fairly conservative 
approach.
    I guess one of the reasons we're here today--and the 
outcome of what we're talking about--will tell us whether that 
was a big enough cut or not, and where we need to go in the 
future. Fortunately, the harvest rates that we apply to these 
stocks are not so great that we're going to put them in any 
short-term danger. That's not going to happen. Most likely, 
with additional surveys, with additional stock assessments, we 
will gain more confidence in the numbers and more confident 
that we're taking an appropriately conservative approach upon 
the species. But we're not going to know for sure whether we're 
conservative enough, or not conservative enough, until we get 
more surveys and better information.
    Mr. Farr. OK. I don't think any of us----
    Mr. Saxton. Last question.
    Mr. Farr. In this room--thank you, Mr. Chairman--any of us 
in this room want, on our watch, to lose a fish stock. I mean, 
that's total failure in a modern society with the information 
we have. So whatever resources you need, the public wouldn't 
tolerate this if it was in so many other areas. You know, the 
ocean we still don't know enough about. But we stand ready. I'm 
here to help you. But I think you've got to use us more, us in 
Congress. Mr. Chairman.
    Mr. Saxton. Thank you very much, Mr. Farr. Let me just ask 
a couple of questions and make a few comments, if I may. With 
regard to the funds that you need for research, in particular 
research vessels, my memory tells me that in fiscal year 1998, 
we authorized and appropriated, I think it was two-and-a-half 
million dollars for the design of six new research vessels. And 
I believe we did so with the understanding that we would then 
move forward with the administration's request in 1999 and see 
their request for money for construction of those vessels. We 
gave you the two-and-a-half million in 1998, and when your 
request came through for NOAA funding in 1999, there was no 
request for construction. Can you tell us why that is?
    Mr. Schmitten. Mr. Chairman, since I've been the director, 
I've been encouraging and supporting the need for replacement 
vessels, even though we would reduce the overall number of nine 
down to six, and augment with more industry involvement. This 
is a good news/bad news story. Finally, the administration has 
agreed, and they've indicated that starting in 2000--I wanted 
1999, and certainly supported that, but starting in 2000--they 
put approximately $160 million for vessels to be constructed in 
2000, 2001, 2002, out to 20003. The very first research vessel 
constructed in this Nation will go to the West Coast.
    Mr. Saxton. What?
    [Laughter.]
    Mr. Schmitten. Yes, sir. It will be dedicated to this 
problem, and it will solve both Alaska and the West Coast 
issues, in that it will provide annual surveys in the entire 
West Coast. The East Coast enjoys those, Mr. Chairman, for the 
most part. That's why I say we should start where the problem 
is. That first vessel will go to the West Coast.
    Mr. Saxton. Now, if you request funding for these vessels 
beginning in the year 2000, when will Mr. Farr be able to see 
this vessel steaming off shore and doing research off the 
California coast?
    Mr. Schmitten. I believe it's a two-year construction, so 
in two to three years he will have his vessel. In between 
there, we will continue to augment the needed surveys between 
that period of time so we don't get behind on gathering the 
data.
    Mr. Saxton. OK. In regard to Mr. Farr's general question 
about why we know so little about fisheries, I've had those 
thoughts myself. In fact, last night, Mr. Farr and I shared a 
podium before a conservation group, and I think we both 
addressed that question without knowing the other was going to, 
and I'm not sure that we have an answer. But this situation is 
a good example of more evidence that we really don't know much 
about, or enough about, what we're doing.
    In 1997, for example, you came here and indicated that you 
thought the groundfish fishery that we're dealing with today 
was healthy. And in 1998, you indicated through the process 
that there ought to be a 60 percent reduction in the take in 
the fishery. How do you explain what you thought in 1997 was so 
incorrect as related to your position in 1998?
    Dr. Methot. The situation we have with groundfish is mixed, 
because of the great diversity of species we're dealing with. 
We certainly have some healthy species in the groundfish 
complex, and we have some that now appear to be at much lower 
levels than we would desire them to be. The combination of this 
mix of species, as we accumulate more information to better 
track the exact status of species, has begun to tip us more 
into the realization that there are a number of species that 
have declined to a greater degree than we had anticipated might 
occur. And the combination of these species over the last few 
years has begun to make us realize that we need to pay greater 
attention to the entire groundfish complex to be certain that 
we do have a good fix on just where they're at, and what is the 
long-term potential for these resources. This situation of 
unanticipated declines has grown on us over the last four to 
five years, as we look more closely at a number of species.
    Mr. Anderson. Mr. Chairman? May also say something to that 
question?
    Mr. Saxton. Sure, please.
    Mr. Anderson. Thank you. I'd urge us not to underestimate 
the difficulty of assessing the biomass and the populations of 
these species. We're talking about 83 species that live 
anywhere from 300 to 2,000-plus feet below the surface of the 
water, that we never see. And most of them are intermixed with 
one another. Some of them are transboundary in nature--
yellowtail rockfish, ling cod, Pacific whiting--migrate north 
into Canadian waters and are harvested there.
    This is a very, very complex problem of assessing 
precisely, with any degree of accuracy, the total numbers of 
fish, and thereby extrapolating an acceptable amount that may 
be removed through harvest. It's in its infancy, in my opinion. 
Remember, we've been doing surveys every three years, and we 
started in 1977. Haven't been working at this very long, and as 
I indicated in my testimony, National Marine Fisheries Service 
has taken some extraordinary efforts in recent years to improve 
their survey techniques. And I think that's going to pay 
dividends to us as we move through the next years, and we go to 
an annual survey.
    But this is a very difficult group of fish to manage, and 
assess the total abundance, and determine what--they're long-
lived. They sometimes go decades between years when you have 
good recruitment of new fish into a population. You've got some 
extraordinary exception--I hope they're exceptional--ocean 
conditions on the West Coast in terms of low productivity, low 
upwellings, warm water, exceptionally warm water, much more 
frequently in the last decade than in previous decades.
    And so all of those dynamics play into the difficulty of 
coming up with biomass estimates to determine annual harvest 
levels that are acceptable and that will maintain healthy 
populations into the future. Believe me, we are as frustrated 
as you are.
    Relative to sable fish, we had been managing along at about 
a 7,800-ton level for seven or eight years. And then, all of a 
sudden, we get an assessment that tells us that's it's 
somewhere between 2,500 and 7,800 tons. We go, what's going on 
here? This kind of change simply couldn't have happened in this 
short a period of time. And that was the difficulty in 
struggling with setting a sable fish allocation that took a 
precautionary approach in making sure that we didn't 
overharvest that particular species.
    Mr. Saxton. Let me try to make something clear, and I think 
I can speak for Mr. Farr and I both with regard to this, and if 
I don't, Mr. Farr can break in and correct me. But we 
oftentimes, I fear, give the impression that we don't trust 
what you, as individuals, are doing. And that is a notion that 
we don't mean to convey. Our queries are more in trying to find 
out what it is that the system needs that it doesn't have, both 
in terms of resources and process. And I think that we would 
both, from our observations, come to the conclusion that 
resources are not sufficient, and that process may need some 
fine-tuning, or maybe some big changes.
    I've had this conversation with Rollie Schmitten on 
numerous occasions. Sometimes we've been quiet about it, and 
sometimes we've been rather noisy about it. But it is 
frustrating, and I know the people that serve on the New 
England Council, I know the people that serve on the Mid-
Atlantic Council. I know that Mr. Young knows the people that 
serve on your Council. I deal with the people in NMFS all the 
time, and I don't think I can identify a person who's not there 
for all the right reasons.
    And yet, the situation that we're hear discussing today, 
unfortunately, is more common than it is unusual. And so we are 
hopeful that our well-intended efforts can somehow dovetail 
with your well-intended efforts to get the proper funding to do 
the kind of research that we need to do, and to improve the 
process. That's what we're striving to do. And I thank Rollie, 
who was in my office last week, I guess it was, and we were 
talking about making some changes in process that sprung from 
my urging and his creative thinking. And hopefully we'll be 
able to move forward with some of those, which may or may not 
require legislative changes. Hopefully not, because it's a lot 
easier on everybody if we don't have to do it that way.
    So, anyway, I just wanted to say that in conclusion, Mr. 
Farr, unless you have something that can take a minute or two, 
I think we'll move on to the next panel.
    Mr. Farr. Yes, go on to the next panel. You know, it's 
interesting, in the offshore oil and gas, we require the oil 
companies to tell us where the oil and gas deposits are, and 
then they file with us interest in offshore oil development. 
And then we tell them where they can drill, what the conditions 
are that they can drill, and for how long they can drill. I 
mean, that's a public resource owned by the Federal Government 
offshore. Why don't we do the same thing for fisheries? It's 
essentially a question of putting the burden on the private 
sector, and saying you tell us how much fishery is out there 
and we'll tell you how much you can take. Rather than putting 
the burden on the public sector to say, we'll tell you--you 
just keep fishing until we tell you when to stop.
    Mr. Schmitten. Mr. Chairman, I've often raised the very 
same issue. It's the only natural resource that I can think 
of--water, you require fees; grazing rights, you require fees; 
and timber permits, you require fees. The fees usually go into 
the management of those resources. This is the one anomaly. 
Why, it's constructed in the tenets of Magnuson-Stevens, and I 
think that we should allow fees to help with the management. 
The Administration actually proposed that this year, and hasn't 
gotten very far. I agree, part of the problem there is that we 
need to work it out with the industry. Ultimately I view that 
someday there will be fees that help support the management, 
and allow the permits.
    Mr. Saxton. Thank you very much for your comments, and the 
information you have brought to us this morning, and for the 
time and forbearance that you have demonstrated in being here 
with us this morning. Thank you.
    I'd now like to introduce our second panel. We have Dr. 
David Sampson of Oregon State University; Mr. Gerald Gunnari of 
the Coos Bay Trawlers Association; Ms. Karen Garrison of the 
Natural Rsources Defense Council, and Rod Moore, an old friend, 
executive director of the West Coast Seafood Processors. I'd 
like to remind the witnesses about the 5-minute rule. Your 
written testimony will be included in the record in its 
entirety, and when you are in place and ready, Dr. Sampson, we 
will begin with your 5-minute testimony.

      STATEMENT OF DAVID SAMPSON, OREGON STATE UNIVERSITY

    Dr. Sampson. Mr. Chairman, Congressmen, ladies and 
gentlemen, thank you very much for inviting me to testify to 
you today. My name is David Sampson. I am an Associate 
Professor of Fisheries at Oregon State University. I'm also a 
member of the Scientific and Statistical Committee of the 
Pacific Fishery Management Council.
    I'll try to describe for you briefly some of the aspects of 
stock assessment and some of the problems associated with 
managing West Coast groundfish. Our groundfish stocks are 
managed on the basis of catch quotas that are primarily 
determined from estimates of exploitable biomass and estimates 
of the target harvest rate. These are the two fundamental 
problems that a stock assessment tries to address. Both of 
these problems are beset with uncertainties, and that's one of 
the things I'd like to illustrate for you.
    The process, as it works on the West Coast, involves State 
agencies collecting information from the fishermen. Landings of 
fish that are brought to the docks are sampled for catch-at-
age, maturity, things of that nature. And, in addition, we've 
heard from the National Marine Fisheries Service of their 
triennial trawl surveys that are measuring the abundance.
    Together, those sources of information are fed into 
something called a catch-at-age analysis, which tries to 
reconstruct the size of the stock over time and where we 
currently stand. This is one of the fundamental problems of 
stock assessment. The information's also fed into what's known 
as yield-per-recruit analysis, or spawning-biomass-per-recruit 
analysis, which attempt to figure out an appropriate rate of 
harvest. Those are the two fundamental problems of stock 
assessment. Together, those two pieces of information are 
brought forward to the managers in the form of recommendations 
for catch quotas and the likely consequences of different types 
of harvest policies.
    We heard a little bit from the others with regard to 
uncertainty associated with our stock assessments. Here's an 
example with our deep-water sablefish resource. It's assessed 
primarily to coincide with the triennial surveys. In 1994, 
there was an assessment which basically put the spawning stock 
at roughly one-third of the unexploited virgin level. And in 
1994, we had reasonable catch quotas based on that assessment. 
Three years later, we had a new assessment based on a few 
additional years of catch history, and one additional survey. 
All of a sudden, we have a very different picture of the 
resource, one that, from the pessimistic view, shows the stock 
brought to almost as low as 10 percent of the unexploited 
level. So, part of the reason we're meeting here today was this 
very sudden change in perception of this resource.
    Here is another example from one of our rockfish species, 
yellowtail rockfish. It was assessed in 1993 and a certain 
level of harvest seemed appropriate given the size of the 
stock. In 1996, three years later, we had new information from 
one additional survey and additional years of catch history, 
and we had a very, very different perception of the level of 
depletion of this resource.
    Partly as a result of complaints about the uncertainty of 
this resource assessment, it was reassessed in 1997 and, in 
fact, the 1997 assessment, based on basically one additional 
year of information, put us back where we were in the 1993 
assessment.
    I think the sablefish and the yellowtail rockfish examples 
illustrate some of the problems and the uncertainties 
associated with trying to figure out how many fish there are in 
the ocean. It's a very big ocean, it's a very difficult job to 
figure out how much is out there and how much we can safely 
harvest.
    Mr. Saxton. May I just interrupt you for a moment?
    Dr. Sampson. Certainly.
    Mr. Saxton. I'm trying to interpret. I understand the point 
that you're making relative to the difficulty in getting 
accurate information, or in drawing conclusions therefrom. This 
chart would tend to indicate that the later surveys indicated 
that there was a higher population than the earlier surveys. Is 
that correct?
    Dr. Sampson. The 1997 assessment, which is the solid line 
there, basically came to a similar conclusion as the 1993 
assessment, with regard to the size of the stock and how it got 
to that level. The 1996 assessment was the anomalous one, at 
least with these examples. These are not that unusual. In 
general, if you put together a sequence of assessments, the 
numbers we're getting from the assessments are bouncing around 
quite a bit. And I think that's a telling feature of stock 
assessment and the level of imprecision that we just have to 
live with when it comes to reconstructing what's out there.
    I should have mentioned that, you should have written 
copies of these same figures in the testimony that I submitted.
    Mr. Saxton. We do.
    Dr. Sampson. Finally, I thought I'd leave you with a 
picture of what's been happening with the fishermen and the 
size of the fishing fleet.
    [The information referred to may be found at end of 
hearing.]
    Dr. Sampson. This illustrates the growth in the number of 
hours of trawling on the West Coast since the implementation of 
the 200-mile law in 1976. In the early years of the fishery, 
most of the fishery was concentrated in relatively shallow 
water, relatively near the coast. And over time, especially 
through the late 1980's and into the 1990's, there was a 
dramatic increase in the amount of fishing on the West Coast, 
and there was a significant expansion into deeper waters, into 
areas which previously were essentially unexploited. The growth 
of the sablefish fishery, the thornyheads that we've heard 
about, and Dover sole--those are deep-water species which, 
prior to the mid-1980's, were essentially unharvested.
    So, some of what we're seeing, in my view, with the current 
crisis is imprecision in our understanding of what's out there 
in the ocean. But also, our Council is handicapped in its 
ability to control the growth of the fishing industry itself. 
Catch quotas do not limit how many boats there are. We did put 
a limit on the number of boats, but it wasn't put in place 
until 1994. So, some of what we're seeing today, in my opinion, 
is a natural consequence of the combination of uncertainty 
about the status of the stocks and overcapacity in the fishing 
fleet.
    Thank you very much.
    [The prepared statement of Dr. Sampson may be found at end 
of hearing.]
    Mr. Saxton. Thank you, sir.
    Mr. Gunnari.

   STATEMENT OF GERALD GUNNARI, COOS BAY TRAWLERS ASSOCIATION

    Mr. Gunnari. Thank you, Mr. Chairman. I find it interesting 
that it does stop in 1994, when we did go into limited entry. I 
would like to see a current analogy of 1994 today. I think that 
the increase has gone to a decrease.
    I wish to thank each of you for allowing me this 
opportunity to tell you about the West Coast groundfish crisis. 
The trawl fleet is made up of small, independent businesses, 
mosly family owned and operated. Many have been involved in the 
West Coast fishing for generations, like my family. I'm a 
fourth-generation West Coast fishing family. We all take pride 
in supplying our Nation's tables with reliable source of fresh 
fish, providing jobs for our communities--it's new money, 
building our economy, and the exports of our valuable processed 
products are important to the Nation.
    The trawl fleet is the traditional mainstay of supplying 
our Nation with a dependable source of fresh fish year-round, 
so restaurants and markets can put fish on their menus. The 
trawl fleet is the largest investment in supplying our Nation 
with fresh fish, and it costs a lot to operate and maintain a 
75-foot fishing vessel capable of fishing 40 miles offshore in 
the dead of winter.
    Suddenly, with this latest round of surprise cuts in 
allowable landings, our West Coast businesses are in crises. 
This ugly situation is rearing its head in many forms. We are 
the ones with the vested interest to see there are fish for our 
future. We welcome management measures that ensure this to 
happen. We need regulations that conserve real fish, not paper 
fish, to create landing reduction.
    Irresponsible practices are now being implemented by NMFS, 
such as the ling cod harvest being reduced by 97.5 percent, 
which means a 75-foot vessel like mine can only supply 150 
pounds of ling cod per month. The chair of the groundfish 
management team told the Pacific Fisheries Management Council 
that going from a 20,000-pound trip limit to a 500-pound trip 
limit would not create increased discards because most of the 
ling cod was from targeted ling cod trips, and only by a few 
vessels.
    The results? The Pacific Fisheries Management Council 
illegally allocated from the people whose livelihood depends on 
fishing, to a few people who might catch some for fun and at 
the same time deprive our Nation's restaurants and markets of 
supply to the public. And the reality? I am 46 pounds over my 
monthly quota of ling cod right now, and I haven't even fished 
where ling cod live. All the ling cod I catch now will go back 
over the side of my boat, by law.
    There's no accountability for anything NMFS does. Is Mark 
Salin so far, and the GMT so far out of touch that statements 
they make to the Council while creating allocations can be made 
on totally false information? Is there anyone who cares or is 
accountable for any of these actions?
    Rick Methot's interpretation of the Magnuson-Stevens Act 
should be disturbing to you as well. Having neglected to gather 
enough data to determine proper harvest amounts, and then to 
use uncertainty in the data to automatically reduce landings of 
certain species, no matter what the condition that the stock is 
in, is wrong.
    This methodology is creating discards we have never had 
before, and should not have now. Their current practices are 
not utilizing the best science available, but only what science 
they want to make available. More than 90 percent of the sports 
fish is from inside 30 fathoms, close to river mouths and 
shore. The only assessment of ling cod is outside 30 fathoms 
into central Oregon, so now more than 50 percent of the ling 
cod are suddenly shifted from an unassessed area and taken by 
the sports fleet from an assessed area and traditionally caught 
by commercial fishers.
    We do not have conflicts with sports fishermen on the 
ocean, but we now have conflicts in Council meeting rooms. At 
the last PFMC meeting, the desperation of not enough fish to 
pay the bills is becoming a predominant issue for many. The 
organized attitudes of one gear group that started throwing mud 
and dirt upon another gear group in attempts to sway the 
Council to take fish from one group, who have traditionally 
caught those fish, and give it to their group.
    These are some tough issues to deal with. We all have to 
understand fellow fishers have no other recourse than to turn 
on each other. It's the only way some of them could see to 
increase their own landings. We get our fish the same way they 
get theirs. We earn it by working hard and investing in our 
vessels and putting in time over the years. Trying to steal 
someone else's fish and investment is not an acceptable 
solution, but is the result of management efforts. The trawl 
fleet's investments are many times greater than any of their 
gear groups. The cost of operations are real, and far-reaching 
effects into the Nation's economy.
    The cutbacks we are facing proportionately affects our 
ability to pay our bills too, destroying generations of hard 
work and the very infrastructure dependent upon the fishing 
community. Over the past 10 years or more, we've been doing 
exactly what Rick Methot has recommended, only to find 
ourselves facing the worst situation ever, and they still don't 
have enough scientific data to make sound management decisions. 
Now Rick says there's not enough fish for all in the business 
to survive.
    NMFS claims they need five new research boats at over $55 
million each. The dock is full of such requests, lying idle in 
Seattle now. The fishing fleet has a thousand times the data 
collection capabilities right now. This money would go farther 
utilizing existing resources, and the cost of these research 
ships could buy out the entire West Coast fishing industry.
    The West Coast fishing industry is at the crossroads now, 
and the most recent slashes in landings will cost $100 million 
in losses. The amount of harvest is calculated. No species is 
overfished, or even close to endangered. It's down to who will 
harvest the fish allowed. The burden of conservation must be 
shared equally, and if PFMC has a blind eye on this issue, we 
must be certain one man's dream come true isn't a nightmare for 
the man with the investment and the time on the ocean.
    Thank you.
    [The prepared statement of Mr. Gunnari may be found at end 
of hearing.]
    Mr. Saxton. Mr. Gunnari, thank you very much for your 
testimony.
    We're going to move along to Ms. Garrison, the Natural 
Resources Defense Council.

 STATEMENT OF KAREN GARRISON, NATURAL RESOURCES DEFENSE COUNCIL

    Ms. Garrison. Natural Resources Defense Council. Thank you, 
and it's a pleasure to be here today. We've had a wake-up call 
on Pacific groundfish. It's clearly a call to do a better job 
gathering and analyzing information, and that includes not just 
more frequent surveys and stock assessments, but also estimates 
of by-catch and assessments of habitat that may be at risk.
    It's also a reminder of the critical need to apply the new 
provisions of the Magnuson-Stevens Act where fisheries are in 
crisis, and where they're considered relatively healthy, as you 
pointed out these were about a year ago. The Act has 
extraordinary power to transform fishery management for the 
better, but the habits that get us into trouble are very 
tenacious, and you've heard some of them today. You'll be asked 
more than once to say you didn't mean what you said in the Act. 
I know Congress never does that. What happened with groundfish 
illustrates many of the reasons you passed the Act, and now 
need to stick by its original intent.
    For example, over the years, participants in the process 
have downplayed uncertainty, rather than taking it fully into 
account, as the Act's guidelines require. The fishery suffers 
from overcapitalization, from high by-catch rates, from 
increasing use of roller gear that's thought to be damaging to 
rockfish habitat.
    So improving the data is important, but more precise data 
is not enough. Twice-a-year surveys didn't help the New England 
groundfish. We need to be addressing these other related 
problems, and I'm going to talk about several of them briefly.
    First, the data. In addition to improving our information 
for species of known status, we need to conduct whatever level 
of stock assessment is feasible on most or all of the 68 
species of unknown status, focusing more resources on trouble 
spots like near-shore rockfish. This is a high-value, high-
pressure fishery headed for a boom and bust cycle if we don't 
attend to it. And it's not just happening in southern 
California; it's happening in Congressman Farr's district as 
well.
    More funds are likely to be needed to get the information 
that we need, and Congress can help. NRDC and other 
organizations are recommending the creation of the ocean 
equivalent of the land and water conservation fund to finance 
applied marine science. Your support for that would be welcome.
    Second, we need a more precautionary approach to taking 
account of uncertainty, because it will always be there. If we 
want to avoid surprises like this one, we have to end what I 
call the ``conspiracy of optimism'' in the way we interpret 
data. We have to stop assuming that more precise data will 
allow us to keep shaving as close as possible to the danger 
zone. That means acknowledging the full extent of uncertainty, 
and not using it as an excuse to reinterpret scientific advice, 
as we believe the Council did for a couple of stocks last year.
    We support the Council in its consideration of other 
precautionary steps, like the use of more conservative harvest 
targets and the creation of no-fishing reserves for groundfish, 
which could serve as an insurance policy against the 
possibility of being wrong. While the details of those measures 
should be up to the Council and NMFS, Congressional support for 
more precautionary management is essential.
    Third, capacity reduction, as others have said, is a vital 
step toward relieving the pressure on groundfish, reducing by-
catch, and making the fishery more viable for its participants. 
To be effective, the program should retire capacity, not simply 
shift it to other fisheries. Virtually all West Coast fisheries 
are overcapitalized now, and some important State-managed 
fisheries, (or unmanaged fish-

eries, as in the case of squid), are open enough to become easy 
targets, or maybe we should say victims, for excess capacity.
    The current proposal to retire permits, not vessels, fails 
this and other tests of a good program. We urge Congress to 
insist on a buy-back program that complies with Magnuson-
Stevens and avoids the risk that removed capacity will 
resurface elsewhere.
    Fourth, current high by-catch rates for the trawl fleet 
intensify the pressure on vulnerable groundfish species. The 
first step toward reducing it is a mandatory observer program, 
with full coverage for large vessels and partial coverage for 
small vessels. That program is needed now. Measures to reduce 
by-catch are also critically needed, and should include 
incentives or rewards for clean fishing.
    Finally, protection of habitat is essential if we want to 
sustain the long-term productivity and diversity of the 
groundfish fishery. NMFS' initial proposal for groundfish 
habitat conservation is a commendable step in the right 
direction, and the Council should take it further.
    In conclusion, Congress can take a number of steps that 
will help avoid unwelcome surprises in the future. They include 
providing funding for data collection and analysis, supporting 
expanded stock assessment for groundfish, affirming the 
commitment to the precautionary principle, encouraging the 
development of a mandatory observer program and by-catch 
reduction measures, and insisting on retiring vessels, not 
permits.
    Thank you.
    [The prepared statement of Ms. Garrison may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much, Ms. Garrison.
    And now, last but certainly not least, Mr. Moore.

STATEMENT OF ROD MOORE, EXECUTIVE DIRECTOR, WEST COAST SEAFOOD 
                     PROCESSORS ASSOCIATION

    Mr. Moore. Thank you, Mr. Chairman. It's a pleasure to be 
here, and we appreciate your interest and Mr. Farr's interest, 
and Mr. Miller's interest, and Mr. Young's interest in our 
poor, measly fishery out there on the West Coast. We're trying 
hard, and we're glad you had this hearing today. It's already 
been productive with Rollie's announcement this morning of 
supporting the trip limit overage program. That's something the 
industry has been pushing for. We're very pleased to see that 
NMFS is supporting it, and I'm glad that this sort of was the 
occasion for doing that.
    And Mr. Farr, you talked a little bit about how Congress 
responds to crises. Now, unlike New England, our crisis is not 
no fish. Our crisis is no science. In my view, the problems 
we're facing today are a direct result of 20 years of 
scientific neglect, which are compounded to a certain extent by 
management policies driven by paranoia over New England.
    Let me read you a very quick quote. This is from a report 
that was done by a scientific review panel set up by NMFS on 
West Coast groundfish stock assessments from 1995.
    ``Due to the lack of a reliable index of abundance, many 
different interpretations about the status of the stocks are 
consistent with the historical data, and it is not possible to 
choose among them on scientific grounds.'' In other words, we 
didn't know what we're doing and we don't know what's out 
there.
    Dave Sampson showed you some numbers on yellowtail 
rockfish, or some charts on yellowtail rockfish. I'm going to 
put some numbers to that: 27,784 metric tons, and 85,263 metric 
tons. Those were the low point and the high point from 
different assumptions of the stock assessment in 1997 on 
yellowtail rockfish.
    Now, Mr. Saxton, if you were running for president, and you 
hired a pollster to go out and assess the American people's 
support of your candidacy, and the pollster came back and said, 
well, either 27 percent of the people support you, or 85 
percent of the people support you, you know what you'd do? 
You'd have that pollster go work for your opponent.
    Mr. Saxton. And then I probably wouldn't run.
    Mr. Moore. And then you probably wouldn't run.
    [Laughter.]
    I'm not trying to start any rumors, but that's the sort of 
thing that the Council is having to deal with. And that's what 
makes it real difficult for them, and why we get into all of 
these disputes at the Council level.
    Then you get into management policy. Now, Karen talked 
about being precautionary, and Phil mentioned the new 
management policy they're looking at. Well, what that new 
management policy is, is that, when you have any sort of 
uncertainty, which we have all the time on West Coast 
groundfish, you have to set the harvest level at a rate at 
least 3 percent below the rate that provides MSY. Now, even 
when you changed the law in 1996, you didn't say, never fish to 
MSY. Yet some mysterious working group in the National Marine 
Fisheries Service has come up with this harvest policy, which 
they're trying out on us and, I suspect, on other Councils in 
the near future, which says, hey, you guys are never going to 
be able to get even close to there, no matter what you're 
doing.
    You passed the Sustainable Fisheries Act, not the Stop 
Fishing Act, and somebody in Silver Spring needs to be reminded 
about that.
    Now, the industry has been trying to respond to all of 
this. We've been trying to find innovative ways to solve the 
root problem, which is getting more data. The Oregon Trawl 
Commission has been conducting a pilot observer program for 
several years, funded by the industry. Our processors are 
embarked on a project now with a graduate student out of 
Newport, Oregon, trying to demonstrate that processing workers 
can be used to provide data to improve the stock assessments.
    Gerald Gunnari was the first of several fishermen who went 
on board the Miller Freeman and demonstrated to NMFS how their 
survey gear could work a heck of a lot better. We've got a port 
interview project starting. We've got an electronic logbook 
project starting. All of these things are ways that we are 
trying to be innovative and support getting more data, and 
finding out what's out there.
    Now, yes, I complain about the National Marine Fisheries 
Service but, you know, we've gotten help from them too. Rollie 
mentiond the $750,000 that he put into the budget this year. 
Rick Methot and I have attended more meetings together, talking 
about--trying to figure out ways where the industry and NMFS 
can work together to try to do something, and try to do 
something positive.
    Unfortunately, you know, all of this takes a lot of time 
and, you know, we really don't feel we should have to be here 
pleading that the Nation's fisheries agency be doing more basic 
research. We're committed to keep going until we get the 
problem solved, or until we go broke. You know, it's taking 
time to do all this stuff, and as the lights show, for us, time 
is running out.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Moore may be found at end of 
hearing.]
    Mr. Saxton. Thank you very much, Rod.
    Let me just pose a question for any of you who would like 
to respond. I have another job here. I'm chairman of the Joint 
Economic Committee, and every month we hold an employment 
hearing. And sometimes we have very high rates of growth in 
employment, and sometimes we have negative growth rates in 
employment. In other words, we lose jobs. And we would like to, 
you know, come to each monthly meeting and say that we've had a 
very steady climb in employment. We never, ever, ever get that.
    It's much the same pattern that you have, and, you know, 
obviously, we're not going to solve that problem because part 
of it has to do with real rates of employment and unemployment; 
other has to do with flaws in our method of measuring 
employment and unemployment. And I suspect the same principle 
holds true in fisheries. So the difficulty in statistics, 
gathering statistics on fisheries is partly that we have not 
funded the activity well enough, partly because there are flaws 
in methodology, and partly because, as we know, there are 
spikes and valleys in populations, which occur naturally. And, 
in addition to that, I would submit at least that there are 
diminutions of populations that occur because of overfishing. I 
hope that we can at least agree on all that.
    And so, given the fact that we're never going to have 
perfect statistics, it would seem to me that if we had a 27,000 
metric ton estimate one year, and 83 million ton, or whatever 
the big number was.
    Mr. Gunnari. It was the same year, Mr. Chairman.
    Mr. Saxton. Same year. OK. It would seem to me that 
somebody would have to somehow conclude that, given those sets 
of circumstances, that we would have to set, begin to set 
limits of catch, or limits of take, based on the full set of 
parameters that we have to work with, which are far from 
perfect. And from Karen Garrison's point of view, she would not 
want to have the limits set too high, because if we collapse 
the fishery, she would have failed to do her job. And seems to 
me that Gerald Gunnari might want to have a conservative limit 
on take set as well because, if he's like the fishermen, at 
least in my neighborhood, he's got mortgages on his boats, and 
families, and economic issues to worry about. And if the 
fishery collapses, it's not good for him.
    So it seems to me that we ought to be able to conclude 
together that, given the statistical base that we have to work 
with, which is not perfect, given the fact that we all have 
economic concerns and resource concerns, and kind of pull us to 
a common conclusion that we have got to set limits based on 
some kind of reasonable and conservative guidelines.
    Now, I would just like to begin with Dr. Sampson and work 
our way across the table, and see how you all respond to that, 
and see if there is some common ground perhaps. David?
    Dr. Sampson. Yes, thank you, Mr. Chairman. I think some of 
the problem is that we all have different, in a sense, discount 
rates. We all have different degrees of comfort with 
uncertainty.
    Fishermen are, perhaps, dealing with uncertainty in a very 
fundamental way that most of us don't even contemplate. They're 
putting their lives on the lines, oftentimes, when they go out 
to sea. And that's a regular occurrence for them, and I suspect 
that they inherently have a different willingness to take 
risks, perhaps, than the rest of us. And so I think some of the 
discrepancies we have, and the difficulties we have on agreeing 
as to what's a reasonable policy is a reflection of a different 
ability to cope with uncertainty. How you get around that 
problem, I don't know. I think the Council process is involved 
in debating what is a reasonable level of risk.
    I think, historically, the scientific crew has not done a 
very good job at making the gamble clear to the managers. If 
you do this, there are certain consequences that are likely to 
follow. If you take some other course of action, these are the 
likely consequences. We haven't laid things out for the 
decisionmakers on that basis, and I think that's a failing of 
the scientific community, and we are, I think, collectively 
working to remedy that. But ultimately, we don't know the 
certain outcome of a particular course of events. We are going 
to be making gambles with our resources. I think that's an 
inherent part of fisheries management.
    Mr. Saxton. Jerry?
    Mr. Gunnari. Yes, I think your assessment is fairly 
accurate about the increases and decreases. I've been fishing 
for many years and watched bocaccios move into our area thick. 
I've watched them move out of our area, watched true cod come 
in and go out. Dover increase and decrease. Sable fish. All of 
our stocks fluctuate greatly, and we do appreciate good 
conservation measures that conserve real fish, not paper fish.
    The 97.5 decrease in our ling cod this year, I don't 
believe is a reasonable situation. We're not seeing this type 
of decline on the grounds. In fact, we've had some pretty fair 
year classes a couple of times over the past 10 years that have 
not been reflected anywhere in any of the data. So I think that 
there should be a balance, and the fact of using the full range 
as the model outputs.
    One thing that I see as a real problem in modeling is the 
models can only model the catch. When you drop 97.5 percent of 
the catch, of course, the model is going to say there isn't 
any. And makes modeling, I think, more complex than ever, 
because as the catch goes down, which it has in recent times, 
the model goes down. And so it's kind of an exasperating 
situation.
    Mr. Saxton. Ms. Garrison?
    Ms. Garrison. Yes, I also agree with your assessment, and I 
agree with David's suggestion that scientists need to make the 
gamble more clear. I think that you're right at mentioning that 
it's a combination of factors, that we've got natural 
variations in fish populations. We've got pressure on habitat. 
We've got long-term climatic and ocean-temperature shifts. And 
it is often the combination of these factors that throw us for 
a loop.
    I think in addition to being more careful about the way 
that we set catch limits--and we are fine-tuning that process 
all the time and, I think, getting somewhat better at it--we 
need to think about things we can do outside that process that 
provide insurance. And that's one of the reasons that so many 
people have gotten interested in the concept of no-fishing 
reserves. I think they are going to be an important part of the 
process, particularly for groundfish, where there are some 
species that are quite vulnerable because they're long-lived 
and they're subject to by-catch. Reserves appear to be a 
particularly good tool for species like that, and may be able 
to allow catch levels to stay higher on short-lived fish, 
because we will have some places where long-lived rockfish can 
safely breed and spawn and grow large and keep reproducing at 
high rates. Thank you.
    Mr. Saxton. Mr. Moore?
    Mr. Moore. You know, Mr. Chairman, during the many years I 
had the honor of working with you on staff of the Merchant 
Marine and Fisheries Committee, there were a lot of times I 
heard fishermen, processors come in and say, oh, we got 
problems, you got to find us more fish. And it's real easy to 
do that, to come in and say, gee, you know, we're not making 
any money, we're all going broke, you know, so you got to give 
us more fish. Well, the Congress can't legislate fish that 
aren't there, and they shouldn't even try to do something as 
silly as that. Which is why, you know, none of us are here 
today saying, hey, you know, you got to get us more fish.
    What we're trying to do is address the root of the problem, 
which is the fact that we don't know what's out there and we 
don't know what's going on out there. And those are the sorts 
of things that need to be done. David is absolutely right in 
talking about the scientific community doing a poor job of 
describing the risks of uncertainty. I've seen that happen in 
the Council innumerable times with the numbers that are 
presented for final approval by the Council, versus all of the 
work that's gone on by the scientists and the resource managers 
before that. That process we're internally trying to fix within 
the Council system. That's not something you guys should be 
involved in. It's something that we're all trying to do.
    Yes, you've got to be precautionary, but at what point do 
you allow yourselves to be precautioned out of business? And 
that's the difficult problem.
    Mr. Saxton. Thank you very much. We're going to go to Mr. 
Farr now, and I would just like to say at this point that we're 
going to draw to a close about a quarter after, Sam, so you 
proceed at your pace. The time is yours.
    Mr. Farr. Well, thank you Mr. Chairman. As you can see, I'm 
a little bit more on a philosophical level today than I am on a 
technical level. And one of my questions is how do we get the 
industry to be, to respond more to this issue of being involved 
with the science. What you're talking about is the lack of 
science. My experience is that when an indusry benefits from a 
resource, it puts a lot of its own money into research, and 
collaboration with the government.
    The point was made here that in all the other resources 
that this Committee manages, like timber, water, mining, 
there's a partnership. The regulatory responsibility is the 
government responsibility, but there's really an area out there 
where there is a partnership, and that is on trying to get the 
best data we can so that we can sustain this over a long period 
of time. And I think what we're in, our generation, you as 
responsible leaders in your roles and we in Congress, that in 
the next 10 years--and Chairman Saxton is talking about the 
Joint Economic Committee. The real goal here----
    Mr. Saxton. In 10 years, I'll be on my sailboat.
    Mr. Farr. But, I mean, in that period, it's not whether 
we'll be here in 10 years. But I think this next decade, where 
we have to use our professional abilities, is to really nail 
down how can you sustain an economic enterprise, not just use 
it and lose it. You know, I live in the ``Salad Bowl of the 
Nation''--I'm also on the Agriculture Committee, and we have a 
$2.2 billion agricultural industry in one county that I 
represent. And it's a county where everybody wants to live, so 
it's a land use fight. I mean, we're going to bury the goose 
that lays the golden egg by just paving over agriculture which 
grows crops that don't grow anywhere else?
    Your fisheries are the same way. I mean, these fisheries 
aren't necessarily all over the planet. It's not that they can 
just be picked up by somebody else. Yes, we can change our 
diet, we'll eat a different fish, and that will always be 
available. But there's a responsibility here by the private 
sector to be there. And I agree with the statement of the young 
man talking about the ling cod fisheries--I mean, we ought to 
be, if there's capability of having the fishing vessels rented 
for, or leased for, scientific purposes, we ought to do that. I 
mean, I know in my district--in sport fishery, these guys 
usually went broke during the winter time. Now they're making 
more money off whale-watching than they are off sport fishing. 
So, there are alternative services that can be provided.
    And I, frankly, think that if we're really smart about 
this, we're going to develop an ecotourism around the ocean 
that we have not even yet discovered yet, and we will all 
benefit from that. But, how do we bring your industry to be a 
partnership with it? Because we can either go out there and do 
an assessment fee, to which you'd have to agree. The 
politicians will never put it on you, because, you know, it'd 
be a tax, and so on. But if the industry came along and could 
really believe that if you put money together in some kind of a 
collection process that could be used solely for the purposes 
which you've discussed today, could it be possible to do it 
that way? Because I think this is an industry where you've got 
to have the private sector doing a little more heavy lifting 
than they are. And the public sector's got to be more 
accountable to it.
    Mr. Moore. Mr. Farr, if I can try to answer that question. 
And, I can't resist--I've got to say, as far as the--I don't 
want to disparage my colleagues in the agricultural community, 
but if we had 10 percent of the Federal research support that 
agriculture has got, we'd be in great shape, we'd know a heck 
of a lot more about the fisheries. But, if I may, Mr. Farr, 
just to answer your question, which is a very good one.
    Why shouldn't the industry be more involved? The fact is we 
are, we're trying to be more and more every day. I went through 
some of the stuff in my testimony on things we've already done, 
but, you know, we've put our own money up to try to design an 
expanded logbook program and a pilot observer program, 
something that, you know, in some parts of the country, is paid 
for by the Federal Government.
    We've put, we've used our own time and resources and effort 
to put people on board the research vessels to help them 
improve their research gear. We've got processing workers that 
we're trying to train to do the job that right now State and 
Federal workers, mostly State workers do. I've been talking 
with the National Marine Fisheries Service about trying to get 
some more fish-ticket data to them so they can use it in their 
stock assessments. The industry's put together a fund to hire, 
through an independent contractor, a scientist to do stock 
assessments and run them through the peer review process.
    You know, there are all of these things that we're all 
trying to do out there, and sometimes, unfortunately, we've had 
to drag the National Marine Fisheries Service kicking and 
screaming into it. And, you know, I understand their point of 
view, because it takes a lot longer for the bureaucracy to do 
something and to come to a decision, and scientists are by 
nature cautious, as opposed to the sort of risk-takers that 
Dave Sampson talked about that are fishermen and processors. 
You know, we've got to be innovative every day to stay alive 
economically.
    Mr. Farr. What if we had something in the line of like a 
duck stamp for all fisheries? The duck stamp has generated so 
much money. It's gone back into habitat restoration, so much so 
that we had a hearing in this room about there's too many snow 
geese around, and we ought to have a better method of taking 
them.
    Mr. Moore. You know, Mr. Farr, if I remember--I can't 
remember the exact year. It was something like 1987 or 1988. 
Chairman Young introduced a bill for a minimal fisheries fee, 
it was like $15, something like that, on commercial fishing 
vessels, and another one, but the same price, on sport fishing 
vessels, with all of the money to be dedicated to research. 
There was nobody who supported it, and that's----
    Mr. Farr. Did the industry support it?
    Mr. Moore. I'm trying to remember back then. Yes, we had 
gotten some support. I was working for Mr. Young at the time on 
Merchant Marine and Fisheries Committee, and we did get some 
industry support out of it. We unfortunately got none from the 
recreational community, and the worst case was a letter we got 
from the State director of fish and game in Arizona, who was 
complaining about this marine use tax being put on fishermen. 
And the last time I looked, Arizona doesn't have a marine 
coastline. But that was sort of the nature of the opposition 
that was generated out there.
    The processing sector, within the Pacific Council, is 
talking right now about trying to get the Council to put a 
permit requirement on groundfish processors. So we have a start 
of knowing who's out there, and what they're doing. And at some 
point, if the Congress changes the law and says you've got to 
pay a fee to get a permit, then we expect we're going to get 
charged. And if that money can be dedicated to fisheries 
research, great. But right now, what we're trying to do is, 
with our meager resources--none of us are rich, you know. But 
we're trying to pool as much money and manpower and sweat 
equity as we can to improve the data base, and work with the 
Federal Government to doing that.
    Mr. Farr. What's lacking to do that? Because I think 
there's enough willpower here, if we get everybody in the room. 
It's one of those things where you have a common agenda. 
Hopefully, we can work some of that out with this oceans 
conference in Monterey in June. I mean, I think we just sort of 
open the door on these issues, and then we do the substantive 
work, heavy lifting, next year.
    But, you know, you talked about a lack of scientific data. 
I'm involved with this oceans conference. I'm just learning of 
all the incredible opportunities that the Navy's had. You know, 
I was kind of getting a kick out of the National Marine 
Fisheries talking about how they don't know anything. And yet, 
right across, the building across the way, they're sitting 
there in the Navy committee on the intelligence, where they say 
they know everything that goes on under the ocean. Why does one 
arm of the government know so much about what happens under the 
ocean, and the other arm of government knows so little? I mean, 
there must be some data that can be shared.
    Mr. Moore. You know, Mr. Farr, if I could figure out why 
one arm of the National Marine Fisheries Service knows 
something about the ocean and the other arm doesn't, I'd be 
satisfied at that. Yes, there's a lot of synergistic, piggy-
backing sort of things that can go on out there.
    For example, the National Oceans Service has got what they 
call the GLOBEC program, which is run out of the Woods Hole 
Oceanographic Institute. And on the West Coast, they're 
starting to look at some basic oceanographic stuff, but it's 
dedicated mostly to production for salmon. And we've been 
asking the question, hey, is anybody looking at that, and 
seeing if you can turn it into something for groundfish as 
well. Because groundfish is where the need is. That is 
happening. You know, Rick Methot told me the other day that 
yes, they're starting to try to see if they can use some of 
that data.
    There's lots of things that are going on, and one of the 
things that needs to happen is somebody, somewhere needs to sit 
down and look at all of these projects that are being done by 
the industry, by NMFS, by other arms of NOAA, by the military, 
by the universities. Put them all together, see where they are 
duplicating their efforts, and perhaps they shouldn't be doing 
that.
    Mr. Farr. Time's running out. In your opinion, who--what--I 
mean, certainly, this Committee could do that, but we don't 
have the time or the resources to do it. Who does?
    Mr. Moore. Could be anybody, you know. You could certainly 
ask either NMFS or NOAA to do it. The Council, I know, doesn't 
have the resources. The industry is talking about putting 
together a private conference in July, and one of the 
background things for this is to try to identify those various 
things. You know, even if--the Northwest region of the National 
Marine Fisheries Service has got couple of hundred people 
devoted to salmon. You know, if they could let one of them lose 
and say, hey, you're going to go do some stuff on groundfish, 
which is going to be so simple as to call people up on the 
phone and say, what kind of research are you doing? Tell me 
about it. Send me a synopsis. And put it all together so we all 
know what people are doing. That would be great.
    Mr. Farr. Could you do me a favor on your way back to--are 
you here, or in the West Coast?
    Mr. Moore. I'm in Portland, sir.
    Mr. Farr. On your way back to Portland, why don't you just 
jot out just what you said about who should be at the table, 
and we ought to do it by region. We ought to do it in the West 
Coast. I'd be very interested in that. I think this is--we're 
at a stage where we need to mediate between all of these 
issues. This isn't just legislating or appropriating.
    Mr. Moore. Great.
    Mr. Farr. And I'd be glad to be involved in that.
    Mr. Moore. Well, actually Mr. Farr, I'll do you one better 
because I'm going to be here until May 8, so I'll get together 
with your staff between now and then, and be happy to talk to 
them about it, and try to get you some ideas.
    Mr. Farr. OK.
    Mr. Saxton. Mr. Farr, thank you very much. One final 
thought from Mr. Gunnari.
    Mr. Gunnari. Well, I'd just like to say that trawl fleet 
did tax themselves 1 percent to get their own observer program 
going, and we will have to probably abandon that this year due 
to the $100 million crunch that we're having on the West Coast. 
There's no money from our industry any more. We've been 
totally--our abilities to pay our bills have been taken away.
    Mr. Farr. Is that El Nino?
    Mr. Gunnari. Negative. It is the current reductions in 
landed catch.
    Mr. Farr. SBA just opened up a--help for fishers.
    Mr. Gunnari. Maybe they could go for an observer program 
and some of these other things.
    [Laughter.]
    Mr. Saxton. Well, thank you very much for coming all the 
way from the West Coast to be with us, in the case of at least 
some of you. We appreciate it very much. I believe we have 
benefited much from your testimony, and we thank you and we 
look forward to working with you in the future. Thank you. The 
hearing is adjourned.
    [Whereupon, at 1:15 p.m, the hearing adjourned subject to 
the call of the Chair.]
    [Additional material submitted for the record follows.]



 HEARING ON H.R. 3498, THE DUNGENESS CRAB CONSERVATION AND MANAGEMENT 
                                  ACT

                              ----------                              


                         THURSDAY, MAY 7, 1998

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:03 a.m., in 
room 1334, Longworth House Office Building, Hon. Jim Saxton 
(chairman of the Subcommittee) presiding.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. Good morning, Ladies and Gentlemen. The 
Subcommittee will come to order. The Subcommittee on Fisheries 
Conservation, Wildlife, and Oceans is meeting today to conduct 
a hearing on H.R. 3498, the Dungeness Crab Conservation and 
Management Act.
    Since the 1960's, the States of Washington, Oregon, and 
California have successfully managed the Dungeness crab 
fishery. In the early 1980's, the States signed a Memorandum of 
Understanding and later amended it to ensure the sound economic 
and biological utilization of the crab fishery through 
cooperative State management actions.
    It wasn't until 1994 that the State management of the 
fishery came into question, based on the States' lack of 
management authority in the Federal Exclusive Economic Zone. A 
Federal court ruling allocated to Washington State treaty 
tribes 50 percent of the harvestable surplus of the shellfish 
resource in their usual accustomed fishing areas. After the 
ruling, concerns were raised over the ability of the States to 
ensure the tribal treaty allocations in the Federal Exclusive 
Economic Zone.
    In 1996, Congress authorized limited interim management 
authority over the Dungeness crab fishery in the Federal 
Exclusive Economic Zone to the States of Washington, Oregon, 
and California. The authority was made interim because Congress 
believed that the Pacific Fishery Management Council, the 
council with jurisdiction over the Dungeness crab fishery, 
would develop and implement a fishery management plan. However, 
the council recently requested that Congress expand the interim 
management authority and make it permanent.
    Our colleague, George Miller, introduced H.R. 3498, the 
Dungeness Crab Conservation and Management Act, on March 18 of 
this year with seven original cosponsors. The fundamental goal 
of this legislation is to implement the Council's request and 
allow the valuable fishery to remain successful in the years 
ahead.
    The Subcommittee is here today to discuss the merits of 
H.R. 3498. I look forward to hearing from our distinguished 
witnesses.
    I now recognize one of the Minority Members, whichever. Mr. 
Miller, I guess, would--the sponsor of this bill.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Saxton. It must be a scholarly work for you to be the 
cosponsor.
    Mr. Miller. It is. It's a scholarly work. It's perfection. 
If you guys don't recognize it, don't speak up.
    [Laughter.]
    But I want to thank you very much for holding this hearing 
and for the witnesses for taking their time to come and 
testify. Because I am late, I will put my opening statement in 
the record and look forward to the testimony of those 
individuals in support of the legislation.
    Mr. Saxton. Mr. Pallone, do you have a statement?

   STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Yes, Mr. Chairman. I'll put my statement in 
the record, too. But let me just summarize a couple of these 
things, because I know that you've mentioned already the basic 
management structure. The way I understand it, the three 
States, Washington, Oregon, and California, have control within 
the three miles adjacent to their respective states and with 
regards to the EEZ, they regulate vessels with permits from 
their own States. And they have entered into this Memorandum of 
Understanding.
    What the bill would do would be to basically have 
Washington, Oregon, and California manage the crab in the EEZ. 
To some extent, my understanding is that this is a precedent by 
having Congress legislate the management plan, rather than a 
regional council and some questions have been raised as to why 
the Federal legislation is necessary when these concerns could 
be addressed by the Pacific Management Council. And I know that 
supporters of the bill have asserted that the unique and 
historic management of the fishery warrants this particular 
type of management authority with the State.
    But I'm curious to hear who would be responsible for 
conducting the research and the stock assessments on the 
fisheries, the States or NMFS, and I would look forward to 
hearing from today's panel in, you know, helping us basically 
explain why this type of unique arrangement is necessary and 
should be carried forward the way the bill sets forth. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

Statement of Hon. Frank Pallone, Jr., a Representative in Congress from 
                        the State of New Jersey

    I would like to thank the Chairman for holding this hearing 
on H.R. 3498, the Dungeness Crab Conservation and Management 
Act.
    Mr. Chairman, as you know, Washington, Oregon, and 
California have managed the harvest of the Dungeness crab 
through standardized methods of measurement for size 
regulations and opening dates since the 1960's. These states 
have control within the three miles adjacent to their 
respective state. With regards to the EEZ (Federal Exclusive 
Economic Zone), the States are permitted to regulate those ves-

sels with permits from their own state. More importantly, to 
ensure that there is a consistent harvest of this stock, the 
three states have signed a Memorandum of Understanding (MOU).
    H.R. 3498 would allow Washington, Oregon, and California to 
manage the Dungeness Crab in the EEZ. I understand that this 
bill would set a unique precedent, by having Congress legislate 
a management plan rather than a regional council. Questions 
have been raised as to why Federal legislation is necessary 
when these concerns could be addressed hy the Pacific 
Management Council. I know that supporters of this bill have 
asserted that the unique and historic management of this 
fishery warrants the transfer of management authority to the 
States.
    I am also curious to hear who would be responsible for 
conducting the research and the stock assessment on this 
fishery--the States or the National Marine Fisheries Service.
    I look forward to hearing from today's panels in helping us 
address this very important issue.

    Mr. Saxton. Well, Mr. Miller, I note that Mr. Pallone has 
some questions.
    [Laughter.]
    I ask unanimous consent that all Subcommittee members be 
permitted to include their opening statements on the record. 
Without objection, I would now like to introduce our witnesses.
    [The information referred to follows:]
    Mr. Saxton. On panel one is a Mr. Dave Evans, with the 
National Marine Fisheries Service; Mr. Phillip Anderson, of the 
Pacific Fishery Management Council; Mr. Randy Fisher, 
representing the Pacific States Marine Fisheries Commission. I 
would like to remind our witnesses that oral testimony is 
limited to 5 minutes. However, your written testimony will be 
included in the record. OK. Bill Robinson is also with Mr. 
Evans. Welcome aboard, all four of you.
    I would now like to recognize Dave Evans.

 STATEMENT OF DAVID EVANS, DEPUTY ASSISTANT ADMINISTRATOR FOR 
 FISHERIES, NATIONAL MARINE FISHERIES SERVICE; ACCOMPANIED BY 
    WILLIAM ROBINSON, ASSISTANT REGIONAL ADMINISTRATOR FOR 
   SUSTAINABLE FISHERIES, NATIONAL MARINE FISHERIES SERVICE 
                        NORTHWEST REGION

    Mr. Evans. Thank you, Mr. Chairman. Thank you for inviting 
us to testify before your Subcommittee today on Dungeness crab 
management. I'm accompanied today, as you noted, by Dr. William 
Robinson, who's the Assistant Regional Administrator for 
Sustainable Fisheries in the NMFS Northwest Region.
    The National Marine Fisheries Service supports the passage 
of H.R. 3498, the Dungeness Crab Conservation and Management 
Act, as a unique solution to an unusual set of circumstances. 
Before the Federal District Court's 1994 Rafeedie decision, no 
treaty fishing operated on an ocean species not managed by a 
Federal fisheries management plan (FMP). In the 1996 
Sustainable Fisheries Act, Congress provided interim authority 
to West Coast States to regulate all vessels, regardless of the 
state of origin, in Federal waters off each State in the 
absence of an FMP. Congress also directed the Pacific Fishery 
Management Council to develop a Federal FMP.
    The Council considered the development of a Federal 
fisheries management plan, but concluded that the current tri-
State management regime for Dungeness crab was managing the 
fishery well and was well-suited for dealing with the tribal 
treaty rights. Section 306 (a)(3)(A) of the Magnuson-Stevens 
Fishery Conservation Act recognizes State jurisdiction to 
manage vessels registered to a State when those vessels are 
operating outside of the State waters, if there is no FMP for 
the fishery being pursued.
    In its report to Congress, the Pacific Council found that 
there was a legitimate interest of the three west coast States 
to continue to retain management authority that they had 
exercised over the Dungeness crab fisheries for over 60 years 
and to extend the interim authority granted by Congress to 
allow the continued tri-State management. NMFS concurs with 
this finding, with the understanding that, if any time, the 
Secretary or the Council should determine the need for a 
Federal Dungeness crab FMP, a Federal FMP could then be 
implemented. At that time, the state authority in the EEZ that 
is not provided for in the fisheries management plan would be 
terminated.
    NMFS believes that the current H.R. 3498 language provides 
for this, but proposes clarifying this authority with language 
similar to that found in 306 (a)(3)(C) in the Magnuson-Stevens 
Act, to be added to the end of paragraph 306 (d) of H.R. 3498, 
in that: ``The authority provided under this paragraph shall 
terminate when a fishery management plan under the Act is 
approved and implemented for this fishery.''
    It's clear from Section 306 of the Magnuson-Stevens Act 
that Congress has recognized that a State's authority extends 
to its registered fishers when they are participating in a 
fishery for which there is no Federal FMP. It is also clear 
from this section that only rare and unusual circumstances 
would support extension of a State's authority over vessels 
from other States operating in the EEZ adjacent to that State's 
waters. NMFS believes that this fishery's unique circumstances, 
such as the fact that the fishery is pursued predominately in 
State waters; the long-term cooperative State-level management 
that includes limited entry programs; the fishery's tribal 
treaty obligations; the current historic lack of a Federal FMP; 
the small number of States with jurisdiction over the range of 
the species; the clear latitudinal borders between the States; 
and the specific request of the Pacific council for extension 
of State authority all merit consideration of extending special 
State authority over Dungeness crab, as described in the bill.
    Our support for the bill was based on a careful 
consideration of the exceptional nature of the management 
situation of this fishery and the recommendation of the 
council. It is our understanding that the bill does not 
diminish the Secretary's authority to develop an FMP--a Federal 
FMP for Dungeness crab, in the future. Our support for this 
bill should not be interpreted as extending this approach 
beyond this fishery with its unique characteristics.
    We also recommend that, say within three years after this 
legislation is passed, that the council make a report to 
Congress that reevaluates the potential need for Federal 
management and a Federal FMP.
    That concludes my oral testimony this morning, Mr. 
Chairman. I'll be happy to answer any questions that you might 
have. Thank you very much.
    [The prepared statement of Mr. Evans may be found at end of 
hearing.]
    Mr. Saxton. Mr. Anderson.

   STATEMENT OF PHILIP ANDERSON, PACIFIC FISHERY MANAGEMENT 
                            COUNCIL

    Mr. Anderson. Thank you, Mr. Chairman, and good morning. I 
appreciate this opportunity to testify before the Committee. My 
name is Philip Anderson. I represent the Washington Department 
of Fish and Wildlife on the Pacific Fishery Management Council 
and I am here today on behalf of the council.
    The council appreciates the opportunity to testify on H.R. 
3498, a bill to amend the Magnuson-Stevens Fisher Conservation 
and Management Act, to authorize, in the absence of a Federal 
fishery management plan, the States of Washington, Oregon, and 
California to regulate the Dungeness crab fishery in Federal 
waters. If enacted, the bill would implement the 
recommendations submitted by the council in its report of 
October 1997. We request that the report be made a part of the 
record of this hearing.
    [The information referred to may be found at end of 
hearing.]
    Mr. Anderson. The council adopted these recommendations by 
a unanimous vote after considering, together with the tribes 
and industry representatives, the most efficient and cost-
effective means of managing the Dungeness crab fishery off the 
coast of California, Oregon, and Washington. The management 
elements incorporated in the bill represent an agreement 
amongst industry representatives, tribal representatives, the 
State, and fish and wildlife agencies captured through the 
regional council process. The regional council process was the 
mechanism that we used to develop this recommendation.
    The basis for the recommendation are as follows. First, it 
avoids the duplication of the current management regime. 
Historically, the States have managed the fishery and have the 
technical expertise to continue that into the future. And that 
addresses the question about where is the expertise and where 
will it come from in the future to manage this fishery. 
Research, biological considerations for management, and 
monitoring the landings, doing test fisheries, and we also, the 
State of Washington, has observers that we have go on the 
fishing vessels to monitor the condition of the resource and 
the catch per unit of effort. The overlay of a Federal plan 
would add an unneeded cost to managing this fishery. In 
addition, industry representatives would avoid the added cost 
and time-burden of participating in both a State and Federal 
management system.
    The bill does not preempt future Federal management. 
Dungeness crab are not currently managed under a Federal FMP. 
If, in the future, the council determine that the management of 
the Dungeness crab resource would be improved under a Federal 
management plan, nothing in this legislation would prevent them 
from taking such action. It does not preempt Federal authority.
    It is consistent with the current cooperative management 
process that produces State/tribal management plans. This year 
we developed four State/tribal management plans for Dungeness 
crab: one with the Makah Indian Nation, one with the Hoh Indian 
Tribe, one with the Quileute Indian Tribe, and the fourth with 
the Quinault Indian Nation. Federal District Court Judge Edward 
Rafeedie's August 28, 1995 implementation order, in combination 
with the court-approved stipulation between the State of 
Washington and the Quinault Indian Nation, requires the State 
and tribes to develop joint harvest management plans and/or 
cooperatively manage shellfish resources within the tribes' 
usual and accustomed fishing grounds and stations.
    This bill would avoid the need for a duplicative Federal 
process, while allowing the State of Washington to implement 
and enforce equitable management measures for non-Indian 
fisheries operating within the tribes' usual and accustomed 
fishing areas that extend into Federal waters.
    Finally, the bill would expand limitations placed on the 
interim authority currently provided to the States for 
Dungeness crab to include any management measure needed, with 
the exception of the State limited entry laws. This would allow 
us to deal with problems of overcapitalization that currently 
exist in the coastal fisheries that the interim authority does 
not provide. Moreover, the bill would limit participation to 
fishing or processing operations licensed by either California, 
Oregon, or Washington, another consideration that is not 
included in the interim authority.
    For these reasons, the council is recommending that it 
continue to focus its efforts and fiscal resources on Federal 
management plans for species, such as salmon, groundfish, and 
coastal pelagics that have coastwide migration and 
distribution; have international implications, such as with the 
Pacific Salmon Commission and transboundary groundfish stocks 
that migrate into Canadian waters; and have implications 
relative to the Endangered Species Act.
    The council urges the House to pass the legislation in a 
timely manner. The interim authority provided the States 
expires October 1, 1999. In the absence of legislation, the 
council will need to begin the time-consuming task of 
developing a Federal plan to avoid a lapse in the needed 
management authority in the Exclusive Economic Zone. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Anderson may be found at end 
of hearing.]
    Mr. Saxton. Thank you, sir. Mr. Fisher.

 STATEMENT OF RANDY FISHER, EXECUTIVE DIRECTOR, PACIFIC STATES 
                  MARINE FISHERIES COMMISSION

    Mr. Fisher. Thank you, Mr. Chairman, and good morning. My 
name is Randy Fisher. I am the executive director of the 
Pacific States Marine Fisheries Commission. The commission was 
chartered by Congress in 1947. The compact signed by the States 
of Alaska, Washington, Oregon, California, and Idaho has the 
goal of supporting policies and actions directed at the 
conservation, development, and management of fishery resources 
of mutual concern to the member States. Consistent with that 
direction, I am here representing the commission and, 
specifically, the Washington Department of Fish and Wildlife, 
the Oregon Department of Fish and Wildlife, and the California 
Department of Fish and Game.
    Landing of Dungeness crab in the coastal fisheries of 
California, Oregon, and Washington have been maintained a 
cyclic pattern for nearly 50 seasons. Harvest has ranged 
between 8 million and 54 million pounds, and peak approximately 
every 10 years. During the most recent 10 seasons, coastwide 
landings averaged 33.8 million pounds, of which 28 percent were 
landed in California, 31 percent were landed in Oregon, and 41 
percent were landed in Washington. The total annual ex-vessel 
value of the coastwide fishery since the 1981-1982 season has 
ranged between $17 and $70 million.
    The total number of vessels landing in each individual 
State has increased historically, but since the 1981-1982 
season, the number of coastwide participants has remained 
relatively stable, between 952 and 1,302 vessels. In any year, 
an average of 94 percent of these vessels land in only one 
State, with only 6 percent landing in two of the three States, 
and less than 1 percent landing in all three States.
    Dungeness crab fisheries in California, Oregon, and 
Washington are managed under the regimen known as the ``3-S,'' 
size, sex, and season. Only male Dungeness crabs are harvested 
commercially. State managers do not make pre-season forecasts 
of stock abundance, and harvest levels are based on recruitment 
into acceptable harvest categories.
    The basic management structure has been stable over time. 
All three States standardized methods of measurements in the 
mid-1960's. Season opening dates have generally maintained the 
same since the last 1960's.
    Although the regulations governing the fisheries are 
adopted by independent administrative processes in each State, 
they are generally consistent. An interstate Memorandum of 
Understanding, first signed in 1980, committed the State 
management agencies to take mutually supportive crab management 
actions.
    I mention this background to illustrate the long history of 
the cooperative nature of crab management between the States.
    In 1990, at the request of the crab industry, the Pacific 
States Marine Fisheries Commission formed the Tri-State 
Dungeness Crab Committee. There are currently 19 members on 
that committee, representing Dungeness crab fishermen and 
processors from the Pacific Coast. The committee was designed 
to have representation from the entire coast. All 
recommendations of the committee are based on consensus of its 
members. The committee itself is only advisory body; its 
recommendations can be implemented only through the separate 
regulatory procedures established in each of the member States.
    In 1993, the Pacific States Marine Fisheries Commission was 
asked to survey the crab fleet and assess the support for 
limited entry among vessel owners. Based on the results of the 
survey, the Tri-State Dungeness Crab Committee participants 
sponsored independent crab licensing limitation efforts in 
their home States. These programs became effective in 1995 and 
the 1995-1996 crab season was the first in which all coastal 
crab fisheries operated license limitation.
    The Pacific Fishery Management Council considered and 
declined to develop a fishery management plan for Dungeness 
crab in the late 1970's, suggesting that the States were 
adequately managing the resource. In April 1995, the State of 
Washington requested that the Pacific Fishery Management 
Council again consider a Fed-

eral FMP for Dungeness crab. Washington later suspended its 
request pending the outcome of an attempt to amend the 
Magnuson-Stevens Fishery Conservation and Management Act.
    That authority allowed the States to apply regulations that 
opened and closed seasons, set minimum size and crab meat 
rates, and implemented treaty Indian harvest requirements, 
using area closures, port limitations to all vessels fishing in 
the adjacent Federal EEZ. State programs limiting entry to the 
fisheries were specifically excluded from this extended 
authority.
    September, 1997, after a review by an ad-hoc panel and the 
Tri-State Dungeness Crab Committee, the council voted 
unanimously to request that the expanded Interim Authority be 
made permanent. This request is not precedent-setting since 
Congress and the National Marine Fisheries Service accepted 
similar State management of king crab fisheries in the Gulf of 
Alaska. This legislation does allow anyone who has an 
appropriate permit in California, Oregon, or Washington, to 
fish in the EEZ. This is a coordinated management approach that 
reflects a long history of State Dungeness crab management 
between California, Oregon, and Washington.
    This legislation represents a negotiated settlement between 
the States and is favored by the vast majority of fishermen, 
processors, tribes, the Pacific Marine Fisheries Management 
Commission, and the Pacific Fisheries Management Council. The 
Pacific Fisheries Management Commission strongly recommends 
that this legislation be passed and drafted this year. Thank 
you very much.
    [The prepared statement of Mr. Fisher may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much. I appreciate all of your 
very fine and articulate testimony.
    Let me ask you an unusual question. We--Mr. Pallone, Mr. 
Miller, and I--deal here weekly, sometimes on a daily basis, 
with fisheries management issues, with NMFS and the Councils, 
et cetera, et cetera. And it occurs to me, as I begin to learn 
about this issue, that there are two fisheries which have been 
remarkably successful in terms of our conservation and 
utilization efforts. One happens to be the Dungeness crab and 
the other happens to be the Atlantic striped bass. And, in both 
cases, in each case, the major conservation and management role 
is carried out by the States rather than by those of us who are 
responsible for fisheries management on the Federal level in 
cooperation with NMFS, et cetera.
    Is there some kind of a message here that we might take 
note of? I understand that the folks from Oregon, Washington, 
and California are happy. I understand the Indian tribes are 
happy. I understand the crabs are all smiling.
    [Laughter.]
    It's a great success story, seems like. And, yet, we have a 
hard time finding success stories in fishery management and 
we've got one on the east coast that Mr. Pallone and I are very 
fond of and we've got, apparently now, one on the west coast 
that Mr. Miller's fond of and I just--Mr. Evans, is there a 
message here or am I reading more into this than I should?
    Mr. Evans. I'd like to suggest that you're reading a little 
bit more into it than you should. But I think that there is a 
message in that we do believe, and there are other fisheries 
where this is the case, that the fishery ought to be managed in 
the waters or under the jurisdiction where it's primarily 
pursued. And, as you know, striped bass is pursued largely in 
coastal waters on the east coast. Dungeness crab fishery is 
pursued, principally, in State waters on the west coast.
    There are a number of mechanisms around the country. They 
differ in different parts of the country as to how to effect 
that management. We have the Atlantic Coastal Act on the east 
coast that specifically sets up a framework for cooperative 
State programs to manage fisheries. We don't have an analogous 
piece of legislation on the west coast, it turns out, so the 
Pacific Commission operates in a slightly different fashion.
    In principle, I think that managing the fisheries where 
they're pursued is a sensible procedure and I don't think that 
there's a message there. Sometimes the questions become a 
little more complicated when they're out on the EEZ and there 
are jurisdictional issues associated with it.
    Mr. Anderson. Mr. Chairman, may I respond to your question 
also? Thank you.
    While I do represent--I work for the Washington Department 
of Fish and Wildlife, I'm here on behalf of the council today. 
But I want to say that, in the Pacific Fishery Management 
Council forum, there is a strong partnership between National 
Marine Fishery Service and the State agencies and developing 
the management plans for species that are covered under Federal 
fishery management plans. I think the State agencies, certainly 
our State agencies, both share the responsibility with National 
Marine Fishery Service or the successes as well as the failures 
that may have occurred in management of the species that are 
under Federal FMPs. It is a partnership. We both--we share the 
responsibility for the management of those fisheries.
    Mr. Saxton. Thank you. Does the management plan, this very 
successful management plan, does it require--is it required in 
any way to be consistent with Magnuson-Stevenson Act's national 
standards? There are some 10 stated standards which are 
referred to in Section 301 of the Act, called National 
Standards for Fishery and Conservation Management. Is the 
management plan consistent with these standards or do you have 
a separate set of standards in the management plan that are 
prescribed separately? Or how do you work with regard to 
guidelines and standards?
    Mr. Anderson. We have fishery management objectives that 
are described in our State/tribal management plans for 
preserving and protecting and conserving the resource. We have, 
under State statute, a requirement to balance the needs of the 
recreational and commercial fishing interests in this fishery 
as well as other fisheries that the State manages. I'd like to 
think that the national standards are standards that we need 
and should have in mind in the application of all our fishery 
management initiatives, whether they be under State authority 
or under a Federal authority. So, while I would stop short of 
saying that we look at the national standards when developing 
our fishery management plan for Dungeness crab, I'm well aware 
and familiar with what those standards are and, generally, 
believe that our management complies with those standards.
    Mr. Saxton. Let me ask you just one specific question about 
the standards. A standard, which is No. 2 in this section, 
reads, ``Conservation and management measures shall be based 
upon the best scientific information available.'' Would you say 
that you comply with that requirement?
    Mr. Anderson. I am very confident that all three States 
comply with that national standard in managing this fishery.
    Mr. Saxton. Thank you very much. Mr. Miller.
    Mr. Miller. You want me to--just a couple of quick 
questions here. Thank you very much for your testimony and for 
your support of this legislation. I may have heard the same 
message that the chairman heard and that was sort of, you're 
all very polite, telling us to keep our nose out of your 
business, but----
    [Laughter.]
    It seems to be working, so we'll probably take the 
recommendation, as we have in this legislation. With respect to 
the Indian tribes, once the take is determined and their share 
of that is determined, with respect to the rest of the 
operations of the fisheries, they operate the same as everyone 
else in that fishery in terms of season and in terms of 
whatever other restraints you have on the crab fishery? Is that 
accurate or not accurate?
    Mr. Anderson. If I understand your question, it's not 
accurate. First of all, we do not have the technology to make a 
pre-season estimate of the harvestable abundance of crab. So we 
have to manage the fishery based on time and area, which 
equates into opportunity. And so we de--we have devised a 
management regime that have used those time, area--time and 
area basically are the two mechanisms we've used to provide 
equal opportunity to both the tribal and the non-treaty fishers 
for accessing the harvestable numbers of crab in any given 
year.
    Mr. Miller. But the rules under which they then fish when 
you set out the season over an area or a time, time and area, 
everybody fishes in the same fashion?
    Mr. Anderson. The conservation rules are the same, in terms 
of the gear specifications, however we do set aside specific 
areas for a portion of the time that the non-Indian fishery is 
open that is for the exclusive use of the tribal fishery.
    Mr. Miller. All right.
    Mr. Anderson. So, in that way there's--to balance----
    Mr. Miller. But that's to try to make sure that you comply 
with the court decision--with the entitlement that's there in 
terms of amount?
    Mr. Anderson. Yes, sir.
    Mr. Miller. Yes.
    Mr. Anderson. That's correct.
    Mr. Miller. But, with respect to conservation and all the 
rest of it, the----
    Mr. Anderson. The rules are the same. Yes.
    Mr. Miller. [continuing] the rules are the same. OK. I 
appreciate that. Given what's going on with the salmon, with 
the groundfish, and the council's burdens and activities there, 
you can't manage this at the same time? I mean, in terms of 
what you see as your resource allocation here, this is----?
    Mr. Anderson. I think that what the council is saying is 
that, for species such as salmon and groundfish and coastal 
pelagics, which have a lot of interjurisdictional issues 
wrapped up in them, that's where we need to focus our fiscal 
and----
    Mr. Miller. So you're comfortable laying this off on the--
--
    Mr. Anderson. [continuing] resources. And so that's why we 
believe, rather than take away from those efforts and apply a 
portion of those resources to managing Dungeness crab, we don't 
think that's a good use of Federal dollars. We believe that the 
Federal dollars that are----
    Mr. Miller. OK.
    Mr. Anderson. [continuing] provided to the council are 
better used in those areas that have more interjurisdictional 
implications.
    Mr. Miller. Thank you. Thank you, Mr. Chairman.
    Mr. Saxton. Thank you, Mr. Miller. As you may have heard, 
we are being called for a vote and so at this time I'll just 
say that we appreciate very much your being here. And Mr. 
Miller and I will go off and vote and, while we're gone, if the 
second panel would like to take their places.
    Let me just introduce them before we leave. We have Mr. 
Nick Furman, executive director of the Oregon Dungeness Crab 
Commission; Mr. Larry Thevik--is that pronounced correctly?--
representing the Washington Dungeness Crab Fishermen's 
Association and the Columbia River Crab Fishermen's 
Association; and Mr. Pietro Parravo--Parravano, president of 
the Pacific Coast Federation of Fishermen's Associations; oh, 
and Mr.--this guy with the funny-looking tie, there in the back 
of the room--Mr. Rod Moore, executive director of the West 
Coast Seafood Processors Association. Thank you. We'll hurry 
back.
    [Recess.]
    Mr. Saxton. If the witnesses could find their--might find 
their places.
    Mr. Parravano, let me, first of all, apologize for not 
having scoped out your name before I tried to read it. I am 
sorry. It is time for us to begin. Mr. Miller will be back with 
us in just a moment. I assume that you won't mind beginning 
before he gets back. So if you would like to start, Mr. Furman.

STATEMENT OF NICK FURMAN, EXECUTIVE DIRECTOR, OREGON DUNGENESS 
                        CRAB COMMISSION

    Mr. Furman. Thank you, Mr. Chairman, members of the 
Committee. My name is Nick Furman. I'm the executive director 
of the Oregon Dungeness Crab Commission. The ODCC is a 
fishermen-funded commodity commission which operates under the 
umbrella of the Oregon Department of Agriculture. The 
commission is comprised of seven industry members, appointed by 
the ODA director, to represent the commercial crab fleets in 
all of the major ports along the Oregon coast. Five seats are 
held by crabbers and two positions are filled by processors. 
Collectively, the commissioners represent 450 Oregon Dungeness 
crab permit holders, and it on their behalf that I offer the 
following.
    With the exception of a brief foray into Oregon's limited 
entry debate some years back, the commission has historically 
stayed true to its primary mission which is to enhance the 
image and profit-

ability of the Dungeness crab industry through market 
development and promotion. I mention this only to underscore 
how concerned the present members of the commission are over 
the future of the crab fishery as it relates to the legislation 
before you and how convinced they are that H.R. 3498 is in the 
best interests of their constituents as well as the entire crab 
industry.
    The west coast Dungeness crab fishery is one of the 
soundest fisheries in the nation, with an enviable track record 
dating back to the late 1800's. Albeit cyclical, the stocks are 
healthy and well-managed. Only mature male crabs meeting 
specific size regulations are landed. Female crabs and sub-
legal males are left in the ocean to reproduce, ensuring 
adequate recruitment for subsequent years. Fishing activity 
ceases during the period of post-molt vulnerability in the late 
summer and fall to minimize handling mortality. The harvest 
method is targeted and the gear employed is selective. Bycatch, 
a problem facing so many other fisheries, is not an issue with 
respect to the crab fishery. In short, there are no compelling 
conservation or biological reasons to alter the fishery's 
present form of state management.
    In 1996, Congress amended the Magnuson-Stevens Act, giving 
the States of Oregon, Washington, and California interim 
authority to manage the Dungeness crab fishery occurring within 
the Exclusive Economic Zone adjacent to their respective State 
waters. The same simple, but highly successful management 
methods that have served the fishery well for decades, were 
expanded into Federal waters off of each State. During that 
period, the States have demonstrated the ability and 
willingness to work together in solving management-related 
issues associated with the fishery, with memorandums of 
agreement in place to deal with specific items such as soft-
shell testing, delayed openers, and reciprocity. Regulations 
are, for the most part, consistent between the three Sates.
    A Tri-State Dungeness Crab Committee exists under the 
auspices of the Pacific States Marine Fisheries Commission and 
is recognized as a legitimate forum to discuss and resolve the 
socioeconomic issues facing the crab industry coastwide. Recent 
limited entry legislation adopted in all three States has 
curtailed the access to the crab fishery by putting a cap on 
the number of available permits, thereby ensuring that fleet 
size will remain the same and that the ranks will not swell 
beyond current numbers. In short, there are no compelling 
management reasons to warrant the adoption of a Federal 
fisheries management plan at this juncture.
    While differences admittedly exist between the fleets and 
fishermen of the three States, all agree that extended State 
management within the EEZ is the best way to address those 
issues by assuring that regulatory authority will be consistent 
and, at the same time, sensitive to specific regional needs.
    H.R. 3498 represents two years worth of negotiations by 
representatives of the entire west coast crab industry, in 
which all parties put aside their parochial interests in an 
effort to preserve the traditional and historic nature of the 
Dungeness crab fishery, while at the same time ensuring that 
future considerations can be met in a responsible and cohesive 
manner. It has the support of an overwhelming majority of the 
fishing industry, the tribal interests, the associated State 
agencies, and the Pacific Fisheries Manage-

ment Council itself, who's jurisdiction the crab fishery would 
come under, should efforts to pass this legislation fail. In 
short, there is virtually no opposition to this bill from any 
party with a legitimate vested interest in the Dungeness crab 
fishery.
    In the late 1970's, the PFMC began working on an FMP for 
Dungeness crab, only to abandon the effort after concluding 
that it would serve no purpose at that time. Nothing has 
changed. If anything, the role of State management within the 
crab fishery has only improved since then, with the adoption of 
limited entry programs and enhanced interstate cooperation. 
Recently, the Pacific Council itself voted unanimously in favor 
of a legislative response to the suggestion that it revisit the 
FMP process for Dungeness crab.
    FMPs are complex, cumbersome, and costly. The Dungeness 
crab fishery is quite simple. It will not benefit from the data 
generated to complete an FMP, nor will it be any better off 
under the management authority of a fisheries council. The 
money needed to develop and implement a fisheries management 
plan for Dungeness crab would be far better off spent 
addressing the crucial issues facing other west coast fisheries 
that do need the help. In short, if it's not broken, don't fix 
it.
    Over the past year, the Dungeness Crab Commission has given 
members of the Oregon fleet numerous opportunities to comment 
on the Commission's position on this issue and its role in the 
attempt to get the resulting legislation passed. Not once have 
they received anything less than wholehearted support and 
encouragement. Anybody familiar with our crab fleet can 
appreciate how unusual that unanimity is.
    The commission is convinced that H.R. 3498 is a good bill, 
that it reflect the desires of the majority of the west coast 
crab industry, and that the resource and those who depend on it 
will be better off in the event of its successful passage. We 
thank you for the opportunity to speak on behalf of the Crab 
Commission and Oregon's 450 crab permit holders in support of 
this legislation.
    [The prepared statement of Mr. Furman may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much, Mr. Furman.
    Mr. Thevik.

     STATEMENT OF LARRY THEVIK, WASHINGTON DUNGENESS CRAB 
    FISHERMEN'S ASSOCIATION/COLUMBIA RIVER CRAB FISHERMEN'S 
                          ASSOCIATION

    Mr. Thevik. Mr. Chairman, members of the Committee, good 
morning. Is it still morning? It is. My name is Larry Thevik. I 
am speaking on behalf of the Washington Dungeness Crab 
Fishermen's Association and the Columbia River Crab Fishermen's 
Association. I want to thank Congressman Miller and the 
cosponsors who introduced H.R. 3498. I also want to thank the 
Committee for inviting me to testify in support of this 
legislation, authorizing the States of Washington, Oregon, and 
California to regulate Dungeness crab in the Exclusive Economic 
Zone. This is extremely important and welcome legislation for 
crab fishers and for the coastal communities where we work and 
live.
    For 27 years, I have participated in a number of west coast 
fisheries. Crab fishing has been my primary source of income. I 
have fished for crab in Washington and Oregon. The west coast 
Dungeness crab fishery occurs off the coasts of Washington, 
Oregon, and California. The directed pot fishery has almost no 
bycatch. The primary management tools are size, sex, and 
season. Crab are not considered a highly migratory species. The 
fishery is confined to the eastern one-fifth of the EEZ and to 
State waters. The largest extension of the fishery into the EEZ 
occurs off of Washington where the edge of the continental 
shelf extends just under 40 miles westward of the shoreline. 
The amount of crab caught in the EEZ varies between the States 
and from year to year.
    The Dungeness crab fishery has been managed by the States 
for decades. The States have coordinated effort on many issues 
through the Pacific States Marine Fish Commission's Tri-State 
Crab Committee. In 1979, the Pacific Fisheries Management 
Council considered the need for the development of a Federal 
management plan for crab and decided that existing State 
management met conservation and management goals. State 
management has worked well.
    While the States have done a good job, the underlying 
problems resulting from their lack of management authority in 
waters beyond three miles have intensified. Expanding fishing 
effort in deeper waters, increasing harvest rates, and Federal 
court orders in 1995 on tribal shellfish treaty rights have 
forced a renewed look at the need for management authority in 
the EEZ.
    Except for each State's limited entry laws, H.R. 3498 will 
provide consistent regulations and authority within three miles 
and outside three miles off each State. Enforcement issues will 
be clear. Safety issues and overcapitalization can be 
addressed. And the burden of court-required tribal harvests can 
be fairly implemented. Without consistent regulatory authority, 
Washington-licensed vessels would bear the burden of tribal 
allocation while vessels from other States would not be 
similarly restricted.
    Congress granted limited interim authority in 1996 to 
provide short-term management protection while the west coast 
considered a more permanent solution. We are grateful for that 
relief and ask again for your help. Representatives from all 
segments of the industry and regional, State, tribal, and 
Federal representatives have voiced support for this 
legislative solution. H.R. 3498 is not the unilateral action of 
one State at the expense of another. H.R. 3498 does not 
dismantle an existing Federal plan, nor does it preclude 
development of a Federal management plan for crab should it 
become necessary. This legislation has the unanimous support of 
the Pacific Fisheries Management Council and is the result of a 
considered and inclusive Federal council process to decide upon 
a regional course of action. H.R. 3498 provides additional 
tools necessary to manage the west coast Dungeness crab fishery 
without overturning the fundamental management regimes that 
have worked well in the past and can, with your help, work well 
into the future.
    Both the Washington Dungeness Crab Fishermen's Association 
and the Columbia River Crab Fishermen's Association appreciate 
your consideration of this legislation. Most Washington 
crabbers rely on crab for the majority of their fishing income. 
We depend on a sustainable fishery. We support effective 
management to ensure resource health and economic viability. 
Our organizations believe this legislation will help us 
accomplish the management tasks needed for this fishery. We are 
hopeful H.R. 3498 will be approved by this Committee and moved 
on for timely passage. Thank you.
    [The prepared statement of Mr. Thevik may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much, sir.
    Mr. Parravano.

    STATEMENT OF PIETRO PARRAVANO, PRESIDENT, PACIFIC COAST 
             FEDERATION OF FISHERMEN'S ASSOCIATIONS

    Mr. Parravano. Thank you, Mr. Chairman. I'd like to say I 
appreciate your apology. And I'd also like to say that I was 
born in Princeton; I have very fond memories of living in the 
beautiful city in your beautiful state.
    Good morning, Mr. Chairman and members of the Subcommittee. 
My name is Pietro Parravano and I'm president of the Pacific 
Coast Federation of Fishermen's Associations, located in San 
Francisco. We represent working men and women in the west coast 
commercial fishing fleet. PCFF of A is the largest commercial 
fishermen's group on the west coast and represents, among 
others, the majority of California Dungeness crab fishermen.
    I wish to thank you for agreeing to hold this hearing on 
this legislation of great importance to us on the west and 
thank Mr. Young and Mr. Miller for introducing H.R. 3498. I 
have been a Dungeness crab fisherman since 1982, operating out 
of the California port of Half Moon Bay. It is from the 
perspective of a California commercial crab fishermen that I 
present these remarks today.
    It is important to briefly review the history of this 
fishery and its management so that we can explain why we 
support H.R. 3498. Following passage of the Fishery 
Conservation and Management Act in 1976, a number of west coast 
fisheries were considered for Federal FMPs, including Dungeness 
crab. After the establishment of a Crab Advisory Subpanel and 
over a year of consideration by the Pacific Fishery Management 
Council, it was decided a Federal plan for the crab fishery was 
not necessary. There were other fisheries needing more 
attention, such as salmon and groundfish, and there was good 
State regulation and cooperation among the States on the 
management of the crab fishery. Thus, there was no compelling 
need for Federal management.
    Recent changes, and, undoubtedly, there will be more to 
come, in the Dungeness crab fishery now warrant specific 
management authority for the Dungeness crab fishery in Federal 
waters. But before to a conclusion as to which crab management 
plan is best, it is important to answer the following 
questions.
    One: Are the States capable of managing the fishery within 
the EEZ? The answer is yes. The fact is that the States have 
been managing their own vessels and fishermen in the past, 
harvesting Dungeness crab in the EEZ. It is only the vessels 
that are not registered by the State that a State has no 
authority over. It is now possible, for example, for a large 
vessel to come from the north, operated with 1,000 or more 
traps, in the EEZ, ignore State conservation measures, and then 
unload its catch in another State. This, of course, can be 
remedied by delegating to the State's management authority over 
this fishery in the EEZ.
    Question two: Are there conflicts between the States that 
require Federal management of this fishery? The answer is no. 
As mentioned above, there is a long history of cooperation and 
coordination by the three States in the research and management 
of the Dungeness crab fishery. A Federal FMP would do nothing 
to improve upon the current level of coordination and 
cooperation.
    Question three: Will there be confusion about the 
boundaries if State jurisdiction is extended over the fishery 
into the EEZ? The answer is no. The political boundaries of the 
three west coast [sic] are such that it is easy to draw lines 
westward establishing straightforward boundary lines, making 
clear to fishermen which State authority they are under and 
making clear to enforcement officials which vessels operating 
within the EEZ they do and do not have jurisdiction over at any 
given time.
    Question four: Will a Federal fishery management plan for 
crab require additional Federal expenditures? The answer is 
yes. The preparation of fishery management plans costs hundreds 
of thousands of dollars and most require annual updates. In 
addition to the regional council costs, there are also costs 
involved for the National Marine Fisheries Service 
administrating an FMP. With the current lack of adequate funds 
for such things as groundfish research, the restoration of 
salmon habitat, where are the funds to come from for the 
preparation of a Dungeness crab FMP? There is also a question 
of staff time. With plans afoot for a coastal pelagic and, 
perhaps, a highly migratory species FMP, where is the 
additional staff for the Pacific Council and NMFS to come from?
    At the same time, State management of the Dungeness crab 
fishery is not costing the Federal treasury, is not costing the 
Federal treasury anything. The States are picking up the cost 
and much of that is being paid for by industry through landing 
taxes and permit fees.
    Question five: Is there precedent for delegating to States 
management of a fishery within the EEZ. The answer is yes. The 
State of Alaska has management authority over the crab fishery 
in the EEZ in the Gulf of Alaska.
    Mr. Chairman, I believe the facts are clear. There needs to 
be management authority over the Dungeness crab fishery in the 
Federal EEZ and it is the three States that are best suited to 
take on that authority. Certainly when Congress passed the 
Fishery Conservation and Management Act in 1976, what we call 
now the Magnuson-Stevens Act, it did not intend to create a 
one-size-fits-all type of management for our fisheries. It did 
not seek to throw out a Federal system that provides for 
diversity and experimentation.
    We strongly urge the support of the Subcommittee and the 
full House Resources Committee of H.R. 3498 and, for the sake 
of the west coast Dungeness crab resource, its multi-million 
dollars Dungeness crab fishery, and for persons, such as 
myself, who derive income from this fishery and who enjoy 
providing consumers the very best in seafood. Thank you.
    [The prepared statement of Mr. Parravano may be found at 
end of hearing.]
    Mr. Saxton. Thank you very much, Mr. Parravano. Mr. Moore.

STATEMENT OF ROD MOORE, EXECUTIVE DIRECTOR, WEST COAST SEAFOOD 
                     PROCESSORS ASSOCIATION

    Mr. Moore. Thank you, Mr. Chairman, for the second week in 
a row taking an interest in West Coast fisheries issues. Glad 
to see your expanded interest. It's always----
    Mr. Saxton. Your ties get funnier every week.
    [Laughter.]
    Mr. Moore. I do this to keep you awake so my testimony 
won't bore you. And also----
    Mr. Saxton. I'm sure it won't bore me.
    [Laughter.]
    Mr. Moore. And I also want to thank Mr. Miller for taking 
the lead in introducing this bill and keeping it moving and all 
the hard work his staff has put into this. It's really 
appreciated, as you can hear from the testimony today. This is 
something that you've got a lot of people behind. And we really 
appreciate the efforts that have been done on this.
    Now it's not often that you get to see a bipartisan piece 
of legislation that reduces bureaucracy, saves the taxpayers 
money, conserves a major fishery, and is supported by all the 
affected parties. Well, H.R. 3498 is one of those rare 
occurrences and I hope you're going to recognize that and deal 
with it appropriately.
    Now there's been questions raised about why are we doing 
this; why are we going through State management? And, frankly, 
it's not normal for the members of my association to ask to 
legislative fishery management system outside of the council. 
The vice president of our association has served on the 
council. One of our directors currently serves on the council. 
I'm a member of several council committees as are several 
others of my members.
    But, as you've seen and heard, the crab situation is 
unique. We've successfully conserved and managed this fishery 
by State action, with the participation of the industry, and, 
with this bill, we're accommodating tribal interests, we're 
taking care of the final steps in management, and we think 
doing something that is positive for the resource and for the 
country, doing something that's going to allow the council to 
get about its other business which, as we discussed last week 
on groundfish, they're having enough trouble doing. Now we've 
got a good system here and we would like to keep it working.
    The only gap that's occurred in this success story is the 
fact that, because we have a mobile fleet that moves up and 
down the coast and the fact that we do need to take care of 
tribal interests, we need to make sure that the State 
authorities to conserve the resource fully extend out to 200 
miles so that we don't have a situation where you're going to 
wind up with overfishing or you're going to wind up with a 
problem. And, by providing the States with the authority to go 
out to 200 miles, as this bill does, we ensure that everybody 
plays by the same rules and we maintain our treaty obligations 
and we ensure conservation.
    Mr. Pallone earlier raised questions about precedents. In 
my written testimony I've laid out several examples of 
precedents that have been taken both by the Congress and by 
NMFS in providing similar State authority. Striped bass is 
certainly one of them, as you mentioned, Mr. Chairman. You 
know, here you had a fishery that everything's been done by the 
States and it's keeping the resource in good shape and we're, 
in a way, trying to follow the same example that you've seen on 
your coast. We're not trying to go around the council. The bill 
says quite clearly that, if this management system doesn't 
work, the council has the full authority to go in and develop a 
fishery management plan. The council itself looked at the issue 
and said, hey, you know, the legislative approach of extending 
the State's authority is really the best way to do it.
    Last week when we were here talking about groundfish, I 
talked about how the industry tends to be innovative in dealing 
with problems. And the same is true here. You know, we're 
trying to follow an innovative approach to take care of a 
unique situation and I was very, very pleased to hear this 
morning that the National Marine Fisheries Service also agrees 
with this.
    And, you know, quite frankly, this whole system is going to 
depend on us. We're part of the management system at this point 
and if we screw up, it's going to be our own fault. And then 
we're all going to wind up going back to the council and 
saying, OK, we were wrong, we'll do it the other way. But we 
don't think that's going to happen. We think we're going to do 
it right, as we have been in the past, and we appreciate your 
support and hope you take quick action on this bill. Thank you, 
Mr. Chairman, Mr. Miller.
    [The prepared statement of Mr. Moore may be found at end of 
hearing.]
    Mr. Saxton. Thank you very much. Just to satisfy my 
curiosity, the fishery obviously is an inshore fishery as well 
as an EEZ fishery, is that correct? And, obviously, the State 
has the authority to manage a fishery inside three miles, and 
has done so effectively. That correct?
    Mr. Moore. That's correct. They also have the authority, 
under the Magnuson Act, to manage their own vessels out--within 
the EEZ.
    Mr. Saxton. And what is the method of--is this a crab pot 
fishery?
    Mr. Moore. Yes, sir.
    Mr. Saxton. And this species does as well in must be 
relatively deep waters as it does in relatively shallow water, 
is that correct?
    Mr. Moore. I would defer to one of the guys who's out there 
harvesting them all the time to probably answer that a little 
bit better.
    Mr. Thevik. They range, basically, from the shoreline and 
the estuaries along our Pacific coast out to the edge of the 
continental shelf, which is approximately 100 to 120 fathoms 
where it breaks down into the much deeper waters.
    Mr. Saxton. Are the fishing practices--it would seem as 
though the inshore areas would be more easily fished than the 
areas further offshore. Is that true?
    Mr. Thevik. I think it's safe to say that the greatest 
amount of fishing effort occurs closer to the shoreline, but 
not necessarily----
    Mr. Saxton. Within State waters?
    Mr. Thevik. Well, it varies between States, depending on 
weather conditions, time of year, how shallow it is. In the 
State of Washington, three miles is only about 10 fathoms deep. 
In other States, it could be 30, 40 fathoms deep. So there's a 
variability between States as to how close that fishing effort, 
the primary effort is, to the shoreline or how close it is to 
the shelf.
    Mr. Saxton. And the annual catch, with regard to the annual 
catch, has it been stable?
    Mr. Thevik. One of the characteristics of this fishery 
seems to be--when I say that, we've been looking at it for 
several decades--is it's cyclical. So, no, that the harvest 
amounts, year to year, can vary considerably. I believe the 
average in Washington, though, over 10 to 15 years is between 8 
to 9 million pounds with a low of 2.5 million in 1985 and a 
high of around 22 million, I believe, in 1989.
    Mr. Saxton. And you're obviously convinced that the fishery 
biomass is over the long haul been stable?
    Mr. Thevik. What I'm fairly convinced of is that the 
conservation measures that are built into this fishery allow 
for a sustainable biomass. I wouldn't say that the biomass has 
been the same over time, but the conservation measures have 
been sufficient to support a sustainable fishery.
    Mr. Furman. Mr. Chairman, may I comment?
    Mr. Saxton. Sure.
    Mr. Furman. In Oregon we have landing records that go back 
to approximately 1889 for the Dungeness crab fishery and two 
years ago we had our second-best harvest on record, which I 
think illustrates the fact that, although it is cyclical, that 
the stocks, the present stocks, are quite healthy.
    Mr. Saxton. You're convinced that present stocks are in no 
way endangered and that is, at least partly, due to the 
management plans that you have cooperatively adopted?
    Mr. Furman. Correct.
    Mr. Saxton. If H.R. 3498 is not passed, how will the 
industry sectors be affected?
    Mr. Thevik. Well, for one, the congressional authority will 
expire in 1999 and we'll be back where we were prior to the 
granting of that, which means, especially in Washington, 
anyway, and that's who I'm speaking for fundamentally, the 
management measures that would need to be taken to accommodate 
tribal allocations would not be consistently applied outside of 
three miles to the fishers that fish off the coast, if they are 
non-residents or non-licensed fishers by the State of 
Washington. So we would be regulated to accommodate tribes; 
out-of-State vessels would not. That's one of the primary 
things that would happen. And we wouldn't have the management 
tools to go ahead and deal with some of the other issues that 
have come up over time: overcapitalization enforcement and 
safety.
    Mr. Saxton. And Mr. Moore?
    Mr. Moore. I was just going to say that, from the 
processing sector, what'll wind up happening is we'll have to 
go back into the fishery management plan mode and work with the 
council process, which is a long and sometimes arduous and 
certainly costly process. And, unfortunately, there are times 
when allocation issues wind up creeping in amongst all the good 
conservation goals. Right now we've got the allocation issues 
resolved. You know, we--I think all four of us were fighting 
each other two years ago on some of these issues and now we're 
here at the same table holding hands and saying, please do 
this. We've got our issues resolved and we want to move forward 
on this.
    Mr. Saxton. Thank you. Would the industry support a 
requirement that the States manage the Dungeness crab fishery 
consistent with national standards as set forth in the 
Magnuson-Stevens Act?
    Mr. Moore. You asked that question or a similar question 
earlier of Phil Anderson and I was looking through the national 
standards. Between this bill and what the States already have 
in existence--and there are various State laws and 
regulations--everything except possibly the safety of life at 
sea really is covered either under this bill or under the State 
regulations. I think they would be concerned if you imposed a 
requirement that the individual State laws would somehow have 
to follow the national standard guidelines that are put out by 
NMFS because you're dealing with two separate--well, in this 
case, there'd be four separate sets of management entities: the 
three States plus the National Marine Fisheries Service. And 
the national standard guidelines as applied to fishery 
management plans, as you know, Mr. Chairman, have been somewhat 
contentious in their interpretation by the National Marine 
Fisheries Service. So I think the States themselves would 
probably have a little bit of concern saying, Hey, wait a 
minute. A bunch of Federal regulations that apply to Federal 
fishery management plans suddenly being imposed on our State 
lawmaking process. Now we'd have a little bit of discomfort 
with that.
    But in terms of the----
    Mr. Saxton. Sounds like it's more the principle of the 
thing then it is the----
    Mr. Moore. The principles are all being followed. They're 
all being followed already. And, as Phil indicated, you know, 
they're good principles that everybody should follow all the 
time anyway.
    Mr. Saxton. Thank you. Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. Do the States have 
different regulations on size of vessels or numbers of pots, 
from State to State?
    Mr. Thevik. Right now, there is no limitation that I'm 
aware of on the number of pots. That's one of the next steps in 
our management process.
    Mr. Miller. So you can fish the number of pots that your 
vessel can hold?
    Mr. Thevik. Basically yes. There is a limitation on the--an 
upper limit on the size of vessels that can participate in the 
fishery. I believe it's 99 feet and I think that's consistent 
across all three States. It is in Oregon and Washington, 
anyway. I'm not sure about California.
    Mr. Parravano. Yes. In California there are no trap limits. 
You can fish as many traps as you want and I don't believe 
there's a size vessel limit because I believe I have seen 
vessels of over 110 feet.
    Mr. Miller. Yes, but the--you don't think in California 
there is a size limit?
    Mr. Parravano. Not for vessels. I'm not aware of that.
    Mr. Moore. Mr. Miller, the pot limit issue is one that 
really has been considered in all three States on the part of 
the industry and, you know, there are some allocation issues 
between larger vessels and small vessels, obviously, that are 
involved in that. But it's something that's kind of out there 
and I think it's probably going to continue to come up and be 
debated and each State try to work out the best waty to make 
sure that you don't have a problem going on out there with the 
number of pots.
    Mr. Miller. Mr. Parravano, you suggest that the fishery is 
changing in that respect, right? That you're seeing the entry 
of larger vessels with more pots who can tank their catch. 
What's that going to mean, over the long haul? I assume that's 
a more capital-intensive operation.
    Mr. Parravano. It is and I think we're seeing the whole 
face of the fisheries change, that there are vessels that are 
now being retired from their current operations due to various 
conservation measures and these vessels would be capable of 
getting into the crab fishery and would be operating many, many 
more traps that we are not seeing in the fishery right now. 
What that ultimately would do would--it would affect the 
communities that support the traditional fisherman, that have 
been operating for 30, 40 years out of their own home ports and 
it most likely would have a negative effect on the coastal 
communities that have supported traditional fisheries.
    Mr. Miller. Well, that's a very real concern of mine. I 
sort of view these traditional fishermen as independent 
business people and small business people, in some instances, 
although it seems like when you look at some of the debt it 
looks like pretty big business. But currently limitations 
really don't exist in terms of trying to hold onto the number 
of fishers that participate in this.
    Mr. Thevik. There is limited entry that has----
    Mr. Miller. There's limited entry but you can gain entry 
for a very large vessel and an unlimited number of pots and----
    Mr. Thevik. Not in Oregon and Washington, you couldn't 
license a vessel over 99 feet. You also--there are restrictions 
on transfers. You can only jump up a vessel size about 10 feet 
at a time in a limited number of years. And what is fundamental 
to this legislation and one of our reasons to support it is 
really we couldn't move ahead with any additional restrictions 
without the authority to regulate consistently outside the 
State. So this legislation will give us the tools to go ahead 
and do some of those things.
    Mr. Miller. Well, I would hope that that would be 
considered. I mean, we don't have to go into all the arguments 
here this morning but, obviously, to the extent to which this 
can be a sustainable resource and also a sustainable economic 
resource for these communities, I think we're all enriched, 
speaking in the San Francisco Bay Area in Northern California, 
from having the existence of these fisheries and I would hate 
to think that at some point, you know, we're reduced to the 
tourists looking at the boats at Fisherman's Wharf that do not 
reflect what's going on out there on the high seas, where there 
might be a couple of people that are left, fishing thousands of 
pots at some point to the detriment of independent people who 
have fished this or want to fish it in the future. But I know 
the perils of this argument.
    But I just think that it's important to notr that in our 
State, and our local economies, fishing communities now have 
greater attrac-

tion than just as fishing communities. Instead, with so many 
people on the move and a growing tourism industry. They have 
become a tourist attraction. But we'd rather have real fishing 
communities as opposed to tourist destinations. And so I would 
hope that, if this legislation does provide you the authority 
to consider ways to protect fishing communities, that we 
consider it sooner rather than later.
    Because we all know what later means. Later means you got 
this thing split into two groups and then we're into all of the 
lobbying that goes on that has nothing to really do with the 
merits of what you're trying to do. So I would hope that that 
would happen as a result of this. Thank you.
    Mr. Saxton. Thank you very much. We'd just like to thank 
you at this point for coming all the way from the west coast to 
share your thoughts with us. And you will be pleased to know 
that we are tentatively thinking of a mark-up date in early 
June and so we hope to do our part to move this issue forward 
at a relatively early date. Thank you again for being here.
    [The prepared statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    Mr. Chairman, I am pleased that you are conducting this 
hearing today on this important piece of legislation.
    The original Magnuson-Stevens Fishery Conservation and 
Management Act created eight regional fishery management 
councils. These regional councils were given management and 
conservation authority over marine fishery resources in the 
Federal Exclusive Economic Zone. The regional councils are 
responsible for developing and implementing fishery management 
plans for the marine species under their jurisdiction.
    While I have always been a strong advocate of the regional 
councils, there are many fisheries that are not covered by a 
Council-developed fishery management plan. In some instances 
where the majority of the fishery is within State waters, 
States have taken the conservation and management of these 
fisheries upon themselves. For nearly 40 years, this has been 
the case with the Dungeness crab fishery.
    The States of Washington, Oregon, and California have 
cooperatively managed the Dungeness crab fishery since the 
1960's. This cooperative management worked well until a 1994 
Federal court ruling caused concern over whether the States 
could adequately address the tribal allocations in the Federal 
Exclusive Economic Zone.
    In 1996, Congress authorized limited and interim management 
authority for the Dungeness crab in the Federal Exclusive 
Economic Zone to the States of Washington, Oregon, and 
California. The management authority was temporary in order to 
give the Council time to develop a management plan to address 
the concerns of the involved States and tribes before the 
interim authority expires on October 1, 1999.
    After reviewing the various management options, the Pacific 
Fishery Management Council, which has jurisdiction over the 
Dungeness crab fishery, unanimously requested that Congress 
make the interim management authority permanent. Congressman 
Miller's bill, H.R. 3498, would accomplish that goal.
    H.R. 3498 would allow the States of Washington, Oregon, and 
California to retain management of the Dungeness crab fishery 
in the Exclusive Economic Zone as long as a Federal fishery 
management plan is not developed to supersede this authority in 
the future.
    While I don't normally agree with Congressional attempts to 
step over the Council's authority to manage fisheries, in this 
case we are not taking management authority away from the 
Council, because the Council retains the right to develop and 
implement a fishery management plan at any time. In short, if 
the need arises, the Pacific Fishery Management Council can act 
to federalize this valuable fishery.
    H.R. 3498 is supported by the Council and all of the 
constituencies involved in the Dungeness crab fishery. I look 
forward to discussing the merits of this bill and hearing from 
our distinguished witnesses.

    [The prepared statement of Mr. Beasley may be found at end 
of hearing.]
    Mr. Saxton. The hearing is adjourned.
    [Whereupon, at 12:27 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
   Statement of Dr. David Evans, Deputy Assistant Administrator for 
  Fisheries, National Marine Fisheries Service, National Oceanic and 
           Atmospheric Administration, Department of Commerce

    Mr. Chairman, thank you for inviting me to testify before 
the Subcommittee today on Dungeness crab. I am Dr. David Evans, 
Deputy Assistant Administrator for Fisheries. I am accompanied 
by William L. Robinson, Assistant Regional Administrator for 
Sustainable Fisheries in NMFS' Northwest Region.

National Marine Fisheries Service Position on H.R 3498

    The National Marine Fisheries Service (NMFS) supports the 
passage of H.R. 3498, the Dungeness Crab Conservation and 
Management Act, as a unique solution to an unusual set of 
circumstances. Before the Federal District Court's 1994 
Rafeedie decision, no treaty fishery operated on an ocean 
species not managed by a Federal Fishery Management Plan (FMP). 
In the Sustainable Fisheries Act, Congress provided interim 
authority to the west coast states to regulate all vessels, 
regardless of state of origin, in Federal waters off each state 
in the absence of a Federal FMP. Congress also directed the 
Pacific Fishery Management Council (Pacific Council or Council) 
to develop a Federal FMP. The Council considered a Federal FMP, 
but concluded that tribal treaty rights for Dungeness crab can 
best be met and protected within the long standing tri-state 
management process.
    Section 306 (a)(3)(A) of the Magnuson-Stevens Fishery 
Conservation and Management Act (Magnuson-Stevens Act) 
recognizes State jurisdiction to manage vessels registered to a 
state when those vessels are operating outside of state waters, 
if there is no FMP for the fishery pursued. Further, Section 
306 (a)(3)(C) provides authority to the State of Alaska to 
manage vessels that are not registered with that state when 
pursuing a fishery for which there was no Federal FMP in place 
on August 1, 1996, and ``the Secretary and the North Pacific 
Council find that there is a legitimate interest of the State 
of Alaska in the conservation and management of such fishery.''
    In its report to Congress, the Pacific Council found that 
there was a legitimate interest of the three west coast states 
to continue to retain the management authority that they had 
exercised over Dungeness crab fisheries for over 60 years, and 
to extend the interim authority granted by Congress to allow 
continued tri-state management. NMFS concurs with this finding 
with the understanding that, if at any time, and for any 
reason, the Secretary or the Council should determine the need 
for a Federal Dungeness crab FMP, a Federal FMP could be 
implemented. At that time, state authority in the EEZ that is 
not provided for in the plan would be terminated. NMFS believes 
the current H.R. 3498 language provides for this, but proposes 
clarifying this authority with language similar to that found 
at Sec. 306(a)(3)(C) in the Magnuson-Stevens Act, to be added 
to the end of paragraph 306 (d) of H.R. 3498, in that: ``The 
authority provided under this paragraph shall terminate when a 
fishery management plan under this Act is approved and 
implemented for this fishery.''
    It is clear from Section 306 of the Magnuson-Stevens Act 
that Congress has recognized that a state's authority extends 
to its registered fishers when they are participating in a 
fishery for which there is no Federal FMP. It is also clear 
from this section that only rare and unusual circumstances 
would support extension of a state's authority over vessels 
from other states operating in the EEZ adjacent to that state's 
waters. NMFS believes that the unique circumstances of (1) 
tribal treaty obligations, in combination with (2) the long-
term, cooperative state-level management that includes effort 
limitation programs, (3) the current and historic lack of a 
Federal FMP, (4) the small number of states with jurisdiction 
over the range of the species, (5) the clear, latitudinal 
borderlines between the states, and (6) the specific request of 
the Pacific Council for extension of state authority, merit 
consideration of extending special state authority over 
Dungeness crab, as described by H.R. 3498.
    Agency support for this bill was based on very careful 
consideration of the exceptional nature of the management 
quandaries of this fishery. Agency support is given for this 
bill with the understanding that Federal management authority 
may be invoked for Dungeness crab at any time, and with the 
particular expectation that such authority would be invoked 
should tri-state management in any way contravene the fishery 
conservation and management principles of the Magnuson-Stevens 
Act. Our support for this bill, however, should not be 
interpreted as anything more than support for this approach, in 
this fishery, with its unique characteristics.
    NMFS recommends that, three years after this legislation is 
passed, the Council make a Report to Congress that reevaluates 
the potential need for Federal management and a Federal FMP.
Fishery Background

Evolution Towards Cooperative Management

    Dungeness crab (Cancer magister) are commercially harvested 
in nearshore west coast waters from south of San Francisco to 
the Aleutian Islands. Dungeness crab are an intertidal and 
continental shelf species, living off the ocean bottom out to 
about 100 fathoms. The three west coast states--Washington, 
Oregon, and California--have been setting fishing restrictions, 
such as allowable crab size and fishing season since the early 
20th century.
    By the mid-1960s, years of management experience with 
Dungeness crab fisheries had evolved into the management 
principles that the three states use today--limiting harvest by 
size, sex, and season. These principles essentially mean that 
crabbers may only keep male crabs over a certain size (6.25 
inches minimum, measuring shortest distance across the back), 
and may only target Dungeness crabs during seasons set by the 
states to coincide with the hardshell phase of the crab's 
moulting process. Softshell crabs are generally not marketable, 
and crabs that are discarded during the fishing process for 
being an illegal size or sex are more likely to survive the 
process of being caught and discarded during the hardshell 
phase. The hardshell phase usually begins around mid-November 
in California, arriving later in the northern areas, until 
about mid-January when crabs off all three states are in the 
hardshell phase. West coast seafood lovers know to look for 
Dungeness crab in the markets and on menus during the year-end 
holidays.
    When the fishery management councils were formed following 
the passage of the 1976 Fishery Conservation and Management 
Act, the Pacific Council considered the Dungeness crab fishery 
as a possible candidate for a Federal FMP. However, Council 
members decided that the diverse and urgent management needs of 
the salmon and groundfish fisheries would be more than enough 
work for the young council to coordinate. The Dungeness crab 
resource was known to be fairly stable; the size-sex-season 
management principles ensured that no immature crabs would be 
landed, and that those crabs that were caught and discarded 
would live to replenish the crab stocks. The three states 
agreed to manage Dungeness crab cooperatively, and in 1980, the 
three state fishery agency directors entered into their first 
Memorandum of Understanding to pledge cooperative coastwide 
Dungeness crab management.
    Through the ensuing years, the three states managed their 
Dungeness crab fisheries with common goals and management 
principles, but without a direct coordinating body. Over time, 
the states added to the basic size-sex-season management with 
new resource protection measures, such as escape rings on each 
pot for undersized crabs. All three states also require that 
pots have biodegradable escape mechanisms to ensure that if a 
pot is lost during the fishing season, a portion of the pot 
will quickly rot open so that the pot does not continue to 
``ghost fish'' while lost on the ocean floor.
    Dungeness crab fisheries in all three states had long 
histories as open access fisheries. The Dungeness crab stock 
tends to fluctuate over a ten year cycle, with somewhat 
predictable high and low levels of larger-sized male crab 
abundance. Some fishers would crab only in years of high 
abundance, or in years when other fisheries were less 
profitable, while other fishers would rely on Dungeness crab 
for a consistent and significant portion of their annual 
incomes. As west coast salmon became scarce and salmon 
fisheries restrictions more limiting in the 1980s, many fishers 
looked to Dungeness crab to make up for lost salmon income. 
Larger and better equipped vessels became part of the Dungeness 
crab fleet, and crabbers no longer kept to the traditional 
pattern of fishing for and landing crab only in their home 
states.
    Despite these changes, the states saw no reason to add a 
formal, cooperative management body to the Memorandums of 
Understanding until the early 1990s. The opening of the 1989-90 
season was a turning point in west coast Dungeness crab 
management for both crabbers and fishery managers. Oregon 
Dungeness crab season opened on December 1, 1989, to coincide 
with the hardshell phase in the southern half of the state. 
Washington biologists, however, had found that the northern 
crab shells were hardening later into the winter, and decided 
to wait to open the fishery until January 10, 1990. The tri-
state Memorandum of Understanding had no mechanisms to address 
staggered season openings. Between December 1 and January 10, 
Washington crabbers watched in frustration from shore as Oregon 
crabbers legally caught unmarketable, softshell Dungeness crab 
in Federal waters off the Washington coast. Following this 
disaster, crabbers went to their state managers and pressed for 
a tri-state management body to address issues of management 
inconsistencies outside of the three-mile state ocean limits. 
The Pacific States Marine Fisheries Commission responded by 
offering to convene a pilot tri-state meeting between industry 
participants and state fisheries agency representatives. This 
group, which later became known as the Tri-State Dungeness Crab 
Committee (TDCC), ushered in a new era in cooperative state 
Dungeness crab management.

State Limited Entry Programs: Tribal Treaty Rights to Shellfish

    In the early 1990s, the TDCC began to discuss and study the 
possibility of setting up limited entry programs for the 
Dungeness crab fisheries of each of the three states. Heavy 
influx of new fishers into the crab fisheries in the late 1980s 
had made industry leaders realize that the fishery was 
overcapitalized and that without a limited entry program, an 
open access Dungeness crab fishery could easily become another 
coastwide derby fishery. The TDCC asked for support from the 
three state agencies for a survey of crabbers' attitudes 
towards limited entry programs, with the expectation that 
carefully designed programs would avoid many of the traditional 
pitfalls of introducing restrictions on the number of vessels 
licensed to participate in a lucrative fishery. Positive survey 
results induced crabbers to begin lobbying their state 
legislatures for limited entry programs. By 1995, all three 
states had set license limitation strictures in place for their 
Dungeness crab fisheries.
    Although the limited entry programs had not solved all of 
the inter-state conflicts over Dungeness crab, crabbers were 
reluctant to take their management issues to the Pacific 
Council because they had invested so much time and faith into 
the TDCC process. However, management beyond state boundaries 
became particularly problematic for Washington State in 1994, 
when a determination in a sub-proceeding of U.S. v. Washington 
(known as the ``Rafeedie decision'' for its presiding judge) 
recognized the treaty rights of coastal Indian tribes to 50 
percent of all of the harvestable shellfish in their usual and 
accustomed fishing areas. For the four treaty tribes of the 
outer Washington coast (Makah, Quileute, Hoh, and Quinault), 
the usual and accustomed fishing areas extend out to forty 
miles off the coast, fully encompassing the Dungeness crab 
range for the northern two-thirds of Washington State. Properly 
sharing the resource between tribal and non-tribal fisheries 
became a new management challenge for the coastal treaty tribes 
and Washington State, and highlighted the need for further tri-
state cooperation on state regulations beyond the three mile 
zone.

Dungeness Crab in the 1996 Sustainable Fisheries Act

    The Magnuson-Stevens Act, contains amendments from the 1996 
Sustainable Fisheries Act that include an interim authority at 
Section 306 to allow the States of Washington, Oregon, and 
California to ``enforce State laws and regulations governing 
fish harvesting and processing against any vessel operating in 
the exclusive economic zone off each respective State in a 
fishery for Dungeness crab (Cancer magister) for which there is 
no fishery management plan implemented under the Magnuson 
Fishery Conservation and Management Act.'' This provision 
recognizes the unique character of the west coast Dungeness 
crab fishery, which has been historically managed under state 
authority, and which must respond to a recent division of crab 
resources between tribal and non-tribal fishers. In this same 
section, Congress invokes the Council process and asks the 
Council to provide a report by December 1, 1997 to the Congress 
on progress in developing an FMP for Dungeness crab.
    Immediately following on the October 1996 passage of the 
Sustainable Fisheries Act, the Pacific Council began to study 
development of an FMP for Dungeness Crab. The Council convened 
a panel of industry and state agency advisors who debated the 
merits of a new FMP and whether to abandon the tri-state 
management process and the new license limitation programs in 
the three states. This panel provided the Council with a wide 
range of possible future avenues, ranging from no FMP and no 
action after the loss of the interim authority on October 1, 
1999, to a full Federal FMP with no designation of management 
authority to the states. The Council debated these results at 
several meetings during 1997, and decided that although the 
Magnuson-Stevens Act provides authority for a Council to create 
a framework FMP that delegates management authority to the 
states, it was reluctant to tamper with the established, well-
respected tri-state management process. To meet these two 
goals, the Council's report to Congress requested that Congress 
extend and expand the interim authority already described at 
Section 306 of the Magnuson Act beyond 1999. H.R. 3498 and the 
complementary Senate bill, S. 1726, would extend that authority 
until such time that the Secretary or Council might decide that 
integrated Dungeness crab management could be accomplished 
better through a Federal FMP.
    This concludes my testimony, Mr. Chairman. I would be happy 
to answer any questions you and the Subcommittee may have.
                                ------                                


   Statement of Philip Anderson, Member, Pacific Fishery Management 
                                Council

    Good morning. My name is Philip Anderson. I represent the 
Washington Department of Fish and Wildlife on the Pacific 
Fishery Management Council (Council) and I am here on behalf of 
the Council today. Thank you for inviting the Council to 
testify on H.R. 3498, a bill to amend the Magnuson-Stevens 
Fishery Conservation and Management Act to authorize the states 
of Washington, Oregon, and California to regulate the Dungeness 
crab fishery in Federal waters.
    We thank Mr. Miller, Mr. Blumenauer, Mr. DeFazio, Ms. 
Furse, Ms. Hooley, Mr. Riggs, Mrs. Smith and Mr. Young for 
introducing this legislation. If enacted, the bill would 
implement all of the recommendations submitted by the Council 
in its report of October 1997. We request that the report be 
made a part of the record of this hearing. The Council adopted 
these recommendations by unanimous vote after considering, 
together with the tribes and industry representatives, the most 
efficient and cost-effective means of managing the Dungeness 
crab fishery off the coasts of California, Oregon, and 
Washington. The recommendations incorporated in the bill were 
reached following an agreement amongst industry 
representatives.
    The basis for the Council's recommendation is as follows:
Avoids Duplication of Management Effort
          Historically, the states have successfully managed the 
        fishery and have the technical expertise to continue into the 
        future. The overlay of a Federal plan would add an unneeded 
        cost to managing this fishery. In addition, industry 
        representatives would not have the added cost and time burden 
        of participating in both a state and Federal management system.
Does Not Preempt Future Federal Management
          Dungeness crab are not currently managed under a Federal 
        management plan. If, in the future, the Council determined that 
        the management of the Dungeness crab resource would be improved 
        under a Federal management plan, nothing in this legislation 
        would prevent them from taking such action.
State/Tribal Management Plans
          Federal District Court Judge Edward Rafeedie's August 28, 
        1995, implementation order, in combination with a court 
        approved stipulation between the state of Washington and the 
        Quinault Indian Nation, requires the state and tribes to 
        develop joint harvest management plans and/or cooperatively 
        manage shellfish resources within the tribes' usual and 
        accustomed fishing grounds and stations. This bill would remove 
        the need for a duplicative Federal process while allowing the 
        state of Washington to implement and enforce equitable 
        management measures for non-Indian fisheries operating within 
        the tribes' usual and accustomed fishing grounds and stations 
        that extend into Federal waters.
Expansion of Existing Interim Authority
          The bill would expand the limitations placed on the interim 
        authority currently provided to the states for Dungeness crab 
        to include any management measure needed with the exception of 
        state limited entry laws. Moreover, the bill would limit 
        participation to fishing or processing operations licensed by 
        either California, Oregon, or Washington.
    For these reasons, the Council is recommending that it continue to 
focus its efforts on Federal management plans for species, such as 
salmon and groundfish, that (1) have coastwide migration and 
distribution, (2) have international management implications such as 
the Pacific Salmon Commission and transboundary groundfish stocks, and 
(3) have implications relative to the Endangered Species Act.
    The Council urges the House to pass the legislation in a timely 
manner. The interim authority provided the states expires October 1, 
1999. In the absence of legislation, the Council will need to begin the 
arduous and time-consuming task of developing a Federal plan to avoid a 
lapse in the needed management authority.
                                 ______
                                 
 Statement of Randy Fisher, Executive Director, Pacific States Marine 
                          Fisheries Commission
    Good Morning, my name is Randy Fisher. I am the Executive Director 
of the Pacific States Marine Fisheries Commission. The Commission was 
chartered by Congress in 1947. The Compact signed by the States of 
Alaska, Washington, Oregon, California and Idaho has the goal of 
supporting policies and actions directed at the conservation, 
development, and management of fishery resources of mutual concern to 
member States through a coordinated regional approach to research, 
monitoring and utilization.
    Consistent with that direction, I am here representing the 
Commission and, specifically, the Washington State Department of Fish 
and Wildlife, the Oregon Department of Fish and Wildlife and the 
California Department of Fish and Game.
    Landing of Dungeness crab in the coastal fisheries of California, 
Oregon, and Washington have maintained a cyclic pattern for nearly 50 
seasons. Harvests have ranged between 8 million and 54 million pounds, 
and peak approximately every 10 years. During the most recent 10 
seasons, coastwide annual landings averaged 33.8 million pounds, of 
which 28 percent were landed in California, 31 percent were landed in 
Oregon, and 41 percent were landed in Washington. The total annual ex-
vessel value of the coastwide fishery since the 1981-82 season has 
ranged between $17 million and $70 million.
    The total number of vessels landing in each individual state has 
increased historically, but since the 1981-1982 season, the number of 
coastwide participants has remained relatively stable between 952 and 
1,302 vessels. In any year, an average of 94 percent of these vessels 
land in only one state, with only 6 percent landing in two of the three 
states, and less than 1 percent land in all three states.
    Dungeness crab fisheries in California, Oregon and Washington are 
managed under the regimen known as ``3-S,'' i.e., size-sex-season. Only 
male Dungeness crab are harvested commercially. State managers do not 
make pre-season forecasts of stock abundance, and harvest levels are 
based on recruitment into acceptable harvest categories.
    The basic management structure has been stable over time. All three 
states standardized methods of measurements in the mid-1960s. Season 
opening dates have generally remained the same since the late 1960s.
    Although the regulations governing the fishery are adopted by 
independent administrative processes in each state, they are generally 
consistent. An interstate Memorandum of Understanding first signed in 
1980, committed the state management agencies to take mutually 
supportive crab management actions.
    I mention this background to illustrate the long history of 
cooperative nature of crab management between the states.
    In 1990, at the request of the crab industry, the Pacific States 
Marine Fisheries Commission formed the Tri-State Dungeness Crab 
Committee. There are currently 19 members on the Committee, 
representing Dungeness crab fishermen and processors on the Pacific 
Coast. The Committee was designed to have representation from the 
entire coast. All recommendations of the Committee are based on 
consensus of its members. The Committee itself is only an advisory 
body, its recommendations can be implemented only through the separate 
regulatory procedures established in each member state.
    In 1993, the PSMFC was asked to survey the crab fleet and assess 
support for limited entry among vessel owners. Based on the results of 
the survey, the Tri-State Dungeness Crab Committee participants 
sponsored independent crab license limitation efforts in their home 
states. These programs became effective in 1995, the 1995-1996 crab 
season was the first in which all coastal crab fisheries operated under 
license limitations.
    The Pacific Fishery Management Council considered and declined to 
develop a Federal fishery management plan for Dungess crab in the late 
1970s, suggesting that the states were adequately managing the 
resource. In April 1995, the state of Washington requested that the 
Pacific Fishery Management Council again consider a Federal FMP for 
Dungeness crab. Washington later suspended its request pending the 
outcome of an attempt to amend the Magnuson-Stevens Fishery 
Conservation and Management Act.
    That authority allowed the states to apply regulations that opened 
and closed seasons, set minimum sizes and crab meat recovery rates, and 
implemented treaty Indian harvest requirements using area closure or 
port limitations to all vessels fishing in the adjacent Federal EEZ. 
State programs limiting entry to the fishery were specifically excluded 
from this extended authority. The Interim Authority is effective 
through October 1, 1999.
    In September of 1997, after a review by an ad-hoc panel and the 
Tri-State Dungeness Crab Committee, the Council voted unanimously to 
request that the current Interim Authority be made permanent.
    This request is not precedent setting since Congress and the 
National Marine Fisheries Service accepted similar state management of 
king crab fisheries in the Gulf of Alaska. This legislation does allow 
anyone who has an appropriate permit from California, Oregon, or 
Washington to fish in the EEZ. This is a coordinated management 
approach that reflects a long history of state Dungeness crab 
management between California, Oregon and Washington.
    The legislation represents a negotiated settlement between the 
states and is favored by the vast majority of fishermen, processors, 
tribes, the Pacific States Marine Fisheries Commission and the Pacific 
Fishery Management Council.
    The Commission strongly recommends that this legislation be passed 
as drafted and enacted this year.
                                 ______
                                 
  Statement of Nick Furman, Executive Director, Oregon Dungeness Crab 
                               Commission
    My name is Nick Furman and I am the Executive Director of the 
Oregon Dungeness Crab Commission (ODCC). The ODCC is a fishermen-funded 
Commodity Commission that operates under the umbrella of the Oregon 
Department of Agriculture (ODA). The Commission is comprised of seven 
industry members, appointed by the ODA Director to represent the 
commercial crab fleets in all of the major ports along the Oregon 
coast. Five seats are held by crabbers, and two positions are filled by 
processors. Collectively, the Commissioners represent over 450 Oregon 
Dungeness crab permit holders, and it is on their behalf that I offer 
the following.
    With the exception of a brief foray into Oregon's limited entry 
debate some years back, the Commission has historically stayed true to 
its primary mission which is to enhance the image and profitability of 
the crab industry through market development and promotion. I mention 
this only to underscore how concerned the present members of the 
Commission are over the future of the crab fishery as it relates to the 
legislation before you, and how convinced they are that H.R. 3498 is in 
the best interests of their constituents as well as the entire crab 
industry.
    The West Coast Dungeness crab fishery is one of the soundest 
fisheries in the nation, with an enviable track record dating back to 
the late 1800's. Albeit cyclical, the stocks are healthy and well-
managed. Only mature male crabs meeting specific size regulations are 
landed. Female crabs, and sub-legal males are left in the ocean to 
reproduce, insuring adequate recruitment for subsequent years. Fishing 
activity ceases during the period of post-molt vulnerability in the 
late summer and fall to minimize handling mortality. The harvest method 
is targeted and the gear employed is selective. Bycatch, a problem 
facing so many other fisheries, is not an issue with respect to the 
crab fishery. In short, there are no compelling conservation or 
biological reasons to alter the fishery's present form of state 
management.
    In 1996, Congress amended the Magnuson-Stevens Act, giving the 
states of Oregon, Washington and California interim authority to manage 
the Dungeness crab fishery occurring within the Exclusive Economic Zone 
(EEZ) adjacent to their respective state waters. The same simple, but 
highly successful management methods that have served the fishery well 
for decades, were expanded into Federal waters off each state. During 
that period, the states have demonstrated the ability and willingness 
to work together in solving management related issues associated with 
the fishery, with ``memorandums of agreement'' in place to deal with 
specific items such as soft-shell testing, delayed openers and 
reciprocity. Regulations are, for the most part, consistent between the 
three states. A ``Tri-State Dungeness Crab Committee'' exists under the 
auspices of the Pacific States Marine Fisheries Commission and is 
recognized as a legitimate forum to discuss and resolve the 
socioeconomic issues facing the crab industry coast wide. Recent 
limited entry legislation adopted in all three states has curtailed 
access to the crab fishery by putting a cap on the number of available 
permits, thereby insuring that fleet size will remain the same and that 
the ranks will not swell beyond current numbers. In short there are no 
compelling management reasons that warrant the adoption of a Federal 
Fisheries Management Plan (FMP) at this juncture.
    While differences admittedly exist between the fleets and fishermen 
of the three states, all agree that extended state management within 
the EEZ is the best way to address those issues by assuring that 
regulatory authority will be consistent, and at the same time, 
sensitive to specific regional needs. H.R. 3498 represents two years 
worth of negotiation by representatives of the entire West Coast crab 
industry, in which all parties agreed to put aside their parochial 
interests in an effort to preserve the traditional and historic nature 
of the Dungeness crab fishery, while at the same time, insuring that 
future considerations can be met in a responsible and cohesive manner. 
It has the support of an overwhelming majority of the fishing industry, 
the tribal interests, the associated state agencies and the Pacific 
Fisheries Management Council itself, who's jurisdiction the crab 
fishery would come under should efforts to pass this legislation fail. 
In short, there is virtually no opposition to this bill from any party 
with a legitimate vested interest in the Dungeness crab fishery.
    In the late 1970's, the PFMC began working on an FMP for Dungeness 
crab, only to abandon the effort after concluding that it would serve 
no purpose at that time. Nothing has changed. If anything, the role of 
management within the crab fishery has only improved since then with 
the adoption of limited entry programs and enhanced inter-state 
cooperation. Recently, the Pacific Council itself voted unanimously in 
favor of a legislative response to the suggestion that it revisit the 
FMP process for Dungeness. FMP's are complex, cumbersome and costly. 
The Dungeness crab fishery is simple. It will not benefit from the data 
generated to complete an FMP, nor will it be any better off under the 
management authority of a Fisheries Council. The money needed to 
develop and implement a fisheries management plan for Dungeness crab 
would be far better spent addressing the crucial issues facing other 
West Coast fisheries that do need the help. In short, if it's not 
broken, don't fix it.
    Over the past year, the Dungeness Crab Commission has given members 
of the Oregon crab fleet numerous opportunities to comment on the 
Commission's position on this issue, and it's role in the attempt to 
get the resulting legislation passed. Not once have they received 
anything less than whole-hearted support and encouragement. Anyone 
familiar with our crab fleet can appreciate how unusual that unanimity 
is. The Commission is convinced that H.R. 3498 is a good bill, that it 
reflects the desires of the majority of the West Coast crab industry, 
and that the resource and those who depend on it will be better off in 
the event of its successful passage. Thank you for the opportunity to 
speak on behalf of the Crab Commission and Oregon's 450 crab permit 
holders in support of this legislation.
                                 ______
                                 
  Statement of Larry Thevik, Board Member, Washington Dungeness Crab 
                        Fishermen's Association
    My name is Larry Thevik. I am a lifetime resident of Washington 
State and have been a commercial fisherman for twenty seven years.
    I want to thank Congressman George Miller and the Co-sponsors who 
introduced H.R. 3498. I also want to thank the Committee for inviting 
me to testify in support of this legislation authorizing the States of 
Washington, Oregon, and California to regulate Dungeness crab in the 
EEZ.
    This is extremely important and welcome legislation for crab 
fishers and for the coastal communities where we work and live.
    Over the years I have participated in a number of West Coast 
fisheries including salmon and albacore trolling, longlining for 
groundfish and halibut, pot fishing for prawns, and pot fishing for 
Dungeness crab. Crabbing has been my primary source of income. I have 
fished for crab in Washington and Oregon.
    I am submitting this testimony on behalf of the Washington 
Dungeness Crab Fishermen's Association and the Columbia River Crab 
Fishermen's Association. WDCFA is based in Westport, Washington on 
Grays Harbor and CRCFA is based in Ilwaco, Washington at the mouth of 
the Columbia River. WDCFA and CRCFA are the largest organizations of 
Washington Coastal crab fishers. The majority of Washington crabbers 
depend on crab for most of their fishing income.
    The West Coast Dungeness crab fishery is conducted off the Coasts 
of Washington, Oregon, and California. Except for a small trawl 
``bycatch'' allowed in California the fishery is conducted with pots. 
The directed pot fishery has almost no ``bycatch.'' Only males of a 
specified size are retained. Undersized males and all females that do 
not escape from ``escape rings'' required in each pot are immediately 
returned to the sea. The fishery occurs from the shoreline out to the 
edge of the continental shelf. Most fishing effort occurs in depths 
less than 70 fathoms. The primary management tools are size, sex, and 
season. Crab are not considered a highly migratory species. The fishery 
is confined to the eastern one-fifth of the EEZ and to state waters. 
The largest extension of the fishery into the EEZ occurs off Washington 
where the edge of the continental shelf extends just under 40 miles 
westward of the shoreline. The amount of crab caught in the EEZ varies 
between the States with California catching the majority of crab within 
state waters while over half of the crab landings in Washington 
originate from beyond the State's three mile limit.
    The Dungeness crab fishery has been managed by the States for 
decades. The States have coordinated effort on many issues through the 
Pacific States Marine Fish Commission, (Tri-State). In the 70's the 
newly created Pacific Fisheries Management Council considered the need 
for the development of a Federal Management Plan for crab and deemed 
that existing state management met conservation and management goals. 
Although Dungeness crab is one of the least regulated fisheries on the 
West Coast it has also been one of the most successful. State 
management has worked well.
    While the States have done a good job, the underlying problems 
resulting from their lack of management authority in waters beyond 
three miles have intensified. The extension of the crab fishery into 
deeper waters, the expansion of vessels and gear, the passage of 
limited entry in each of the three States, and Federal court rulings on 
shellfish in 1994, requiring increased tribal harvest opportunities in 
Washington State, have forced a renewed look at the outstanding issue 
and need for management authority in the EEZ.
    With the exception of each State's limited entry laws H.R. 3498 
will provide consistent regulations and authority within three miles 
and outside three miles off each State. Enforcement issues will be 
clear. Safety issues and overcapitalization can be addressed. And the 
burden of court required tribal harvests can be fairly implemented. 
Without consistent regulatory authority Washington licensed vessels 
would bear the burden of tribal allocation while vessels from other 
states would not be similarly restricted.
    Congress granted limited interim authority in order to provide 
short term management protection while the West Coast considered a more 
permanent solution. We are grateful for that relief and ask again for 
your help. Representatives from all segments of the industry and 
regional, state, tribal, and Federal representatives have voiced 
support for this legislative solution. H.R. 3498 is not the unilateral 
action of one state at the expense of another. H.R. 3498 does not 
dismantle an existing Federal plan. H.R. 3498 does not preclude 
development of an FMP for crab should it become necessary. This 
legislation has the unanimous support of the PFMC and is a reasonable, 
economical, and timely solution to a complex regional fishery problem.
    The legislative request by the Council on behalf of the West Coast 
Dungeness crab fishing industry is the result of a considered and 
inclusive Federal process to decide upon a regional course of action. 
H.R. 3498 provides additional tools necessary to manage the West Coast 
Dungeness crab fishery without overturning the fundamental management 
regimes that have worked well in the past and can with your help work 
well into the future.
    Both WDCFA and CRCFA appreciate your consideration of this 
legislation. As fishers we depend on a sustainable fishery. We do not 
support management for management's sake but we do support effective 
management to ensure resource health and economic viability. WDCFA and 
CRCFA believe this legislation will help us accomplish the management 
tasks needed for this fishery. We are hopeful H.R. 3498 will be passed 
out of this Committee for timely enactment.
                                 ______
                                 
 Statement of Pietro Parravano, President, Pacific Coast Federation of 
                        Fishermen's Associations
    Good morning, Mr. Chairman and members of the Subcommittee. My name 
is Pietro Parravano and I am the president of the Pacific Coast 
Federation of Fishermen's Associations (PCFFA), which represents 
working men and women in the west coast commercial fishing fleet. PCFFA 
is the largest commercial fishermen's group on the U.S. west coast and 
represents, among others, the majority of California's Dungeness crab 
fishermen.
    I wish to thank you for agreeing to hold this hearing on this 
legislation of great importance to us on the west coast and thank Mr. 
Young and Mr. Miller for introducing H.R. 3498. I have been a Dungeness 
crab fisherman since 1982 operating out of the California port of Half 
Moon Bay. It is from the perspective of a California commercial crab 
fisherman that I present these remarks today.
    Members may ask why is this legislation necessary? What is the 
problem? Why give these three states extended authority over this 
fishery? Why not put Dungeness crab under a Federal Fishery Management 
Plan (FMP)? To answer these questions and for you to understand why we 
support H.R 3498, it is important to briefly review the history of this 
fishery and its management.
    Historically most Dungeness crab fishing occurred in nearshore 
ocean waters, much of it in state waters. States regulated the fishery 
by seasons, size limits (including a prohibition on the take of female 
crab in the commercial fishery), and specifications on gear requiring 
``escape ports'' (allowing undersized crab to escape the trap) and 
``destruct panels'' (cotton or other degradable material mesh in the 
traps that will prevent the trap from continuing fishing if it is 
lost). Because most crabbers operated out of the port (and state) where 
there crab gear was located, state vessel registration and fishing 
license requirements meant the states had control over most Dungeness 
crab fishing, even that occurring offshore in Federal waters. Although 
the fishery has been highly cyclical, all evidence points to it being 
sustainable, state management of the crab fishery has been successful.
    Following passage of the Fishery Conservation & Management Act in 
1976, a number of west coast fisheries were considered for Federal 
FMPs, including Dungeness crab. After the establishment of a Crab 
Advisory Subpanel and over a year of consideration by the Pacific 
Fishery Management Council, it was decided a Federal plan for the crab 
fishery was not necessary. There were other fisheries needing more 
attention, such as salmon and groundfish, and there was good state 
regulation and cooperation among the states on the management of the 
crab fishery; thus, there was no compelling need for Federal 
management.
    There has been a long history of active state management of 
fisheries in California, Oregon and Washington. In California, where 
our Department of Fish & Game is primarily funded by user fees, 
including our commercial licenses, vessel registrations, permits, 
stamps and landing taxes, the state has actively managed fisheries in 
state waters. It has also regulated fishing in Federal waters offshore 
the state where a vessel held a California commercial fishing vessel 
registration (available to vessels from any state), or the person or 
persons on board held a California commercial fishing license (again, 
available to a person from any state). This has been true, as well, for 
managing Dungeness crab.
    Moreover, there has been close coordination and cooperation among 
the three states on certain fisheries, including Dungeness crab, 
through the Pacific States Marine Fisheries Commission. Indeed, it has 
been through the PSMFC's Tri-State Crab Committee, that the states have 
coordinated on their response to the domoic acid threat and developed 
limited entry programs for the crab fishery. That cooperation and 
coordination between the three states' agencies and industry, through 
the Tri-State Committee, continues to this day.
    Recent changes in the Dungeness crab fishery, we believe, now 
warrant specific management authority for the Dungeness crab fishery in 
Federal waters. First, as other speakers will testify to, there has 
been the court decision allocating half of the harvestable amount of 
shellfish in Washington State to the treaty tribes. In order to protect 
that state's non-treaty Dungeness crab fishery, the state must have the 
authority to regulate beyond its state waters to assure a fair and 
equitable allocation of the crab.
    Second, there has been a gradual change in the harvest of Dungeness 
crab. Increasingly, vessels are fishing in deeper water further 
offshore, mainly in Federal waters, with more and more traps. That in 
itself is not a problem where states can exercise jurisdiction over 
vessels registered in those states. It is a problem, however, with 
larger vessels, with no connection to the state they are fishing off, 
that are able to tank their crab and travel long distances from the 
place where the crab were caught to the place of delivery. It is now 
possible, for example, for a large tanked vessel to come from the 
north, operating with a thousand or more traps to fish in the EEZ off 
Eureka, Fort Bragg, Bodega Bay or even San Francisco, ignore state 
conservation regulations and then unload its catch in another state.
    Given the scenario above, it may seem that it is now time for a 
Federal plan for Dungeness crab. But before jumping to that conclusion, 
it is important to answer the following questions:

          1. Are the states capable of managing the fishery within the 
        EEZ? Yes. The fact is the states have been managing their own 
        vessels and fishermen in the past harvesting Dungeness crab in 
        the EEZ. It is only the vessels that are not registered by the 
        state that a state has no authority over. This, of course, can 
        be remedied by delegating to the states management authority 
        over this fishery in the EEZ.
          2. Are there conflicts between the states that require 
        Federal management of this fishery? No. As mentioned above, 
        there is a long history of cooperation and coordination by the 
        three states in the research and management of the Dungeness 
        crab fishery. A Federal FMP would do nothing to improve upon 
        the current level of coordination and cooperation.
          3. Will there be confusion about boundaries if state 
        jurisdiction is extended over this fishery into the EEZ? No. 
        The political boundaries of the three west coast states are 
        such that it is easy to draw lines westward establishing 
        straightforward boundary lines making clear to fishermen which 
        state authority they are under, and making clear to enforcement 
        officials which vessels operating within the EEZ that they do 
        and do not have jurisdiction over at any given time.
          4. Will a Federal fishery management plan for crab require 
        additional Federal expenditures? Yes. The preparation of 
        fishery management plans cost hundreds of thousands of dollars 
        and most require annual updates. In addition to the regional 
        council costs, there are also costs involved for the National 
        Marine Fisheries Service administering an FMP. With the current 
        lack of adequate funds for such things as groundfish research 
        or restoration of salmon habitat, where are the funds to come 
        from for preparation of a Dungeness crab FMP? There is also a 
        question of staff time. With plans afoot for coastal pelagic 
        and, perhaps, a highly migratory species FMP, where is the 
        additional staff for the Pacific Council and NMFS to come from? 
        At the same time, state management of the Dungeness crab 
        fishery is not costing the Federal treasury anything. The 
        states are picking up the cost and much of that is being paid 
        for by industry through landing taxes and permit fees.
          5. Is there precedent for delegating to states management of 
        a fishery within the EEZ? Yes. The State of Alaska has 
        management authority over the crab fishery in the EEZ in the 
        Gulf of Alaska. Giving management over the Dungeness crab 
        fishery in the EEZ to California, Oregon and Washington is not 
        without precedent elsewhere.
    Mr. Chairman, I believe the facts are clear. There needs to be 
management authority over the Dungeness crab fishery in the Federal EEZ 
and it is the three states that are best suited to take on that 
authority. Certainly when Congress passed the Fishery Conservation & 
Management Act in 1976, what we now call the Magnuson-Stevens Act, it 
did not intend to create a one-size-fits-all type of management for our 
fisheries. It did not seek to throw out our Federal system that 
provides for diversified experimentation.
    We need conservation and management authority for our crab fishery 
in Federal waters, but that does not mean we need Federal management 
for this fishery. Admittedly, where there are conflicts between states, 
or where state commissions are dominated by recreational or processing 
sectors, Federal management may be the only way to protect stocks and 
those whose livelihoods depend on fisheries. But here there is 
cooperation between users and the agencies; the states have 
demonstrated they are capable of managing the Dungeness crab fishery in 
an effective and cost efficient manner.
    We strongly urge the support of this Subcommittee and of the full 
House Resources Committee of H.R 3498 for the sake of the west coast 
Dungeness crab resource, its multi-million dollar Dungeness crab 
fishery, and for persons, such as myself who derive income from this 
fishery and who enjoy providing consumers the very best in seafood. 
Thank you. I will be happy to answer any questions.
                                 ______
                                 
    Statement of Rod Moore, Executive Director, West Coast Seafood 
                         Processors Association
    Mr. Chairman, Members of the Subcommittee, I want to thank you for 
holding this hearing on H.R. 3498, the ``Dungeness Crab Conservation 
and Management Act.'' Special thanks are due to Congressman Miller for 
sponsoring the bill, and to those Members from Alaska, Oregon, 
Washington, and California who provided their bi-partisan co-
sponsorship.
    For the record, my name is Rod Moore, I live in Portland, Oregon, 
and I am the Executive Director of the West Coast Seafood Processors 
Association (WCSPA). Our Association's members--who are all American-
owned, on-shore processors--operate facilities in California, Oregon, 
and Washington which process the majority of Pacific groundfish, 
Dungeness crab, and pink shrimp landed in those States, along with 
salmon, swordfish, albacore tuna, and other species. Several of our 
members operate processing facilities or vessels in Alaska, and several 
are involved in transportation and distribution of seafood products.
    It is not a normal occurrence for me or the members of my 
Association to ask Congress to legislate a fisheries management system 
which does not involve the Pacific Fishery Management Council. We 
support the Council system, the Vice President of our Association is a 
former Council member, and one of our directors currently serves on the 
Council. I and several of our members serve--or have served--on Council 
committees.
    However, with west coast ocean Dungeness crab, we have a unique 
situation--a fishery that has been successfully conserved and managed 
by the States of California, Oregon, and Washington for decades. A 
forum for management cooperation is already in place which involves 
fisherman, processors, and the States, under the umbrella of the 
Pacific States Marine Fisheries Commission. Access limitation programs 
are in place in all three States. Biological studies and enforcement 
are conducted by the States. Tribal treaty concerns are accommodated by 
the State of Washington. In short, we are successfully conserving and 
managing the resources, so we see no reason to establish a new 
management system which will impose additional costs on the taxpayers.
    Perhaps it would be helpful to look at the law and at other 
fisheries to determine whether passing H.R. 3498 is the best way to go.
    Section 302(h) of the Magnuson Stevens Fishery Conservation and 
Management Act (MSFCMA) says that Councils will establish a fishery 
management plan for ``each fishery under its authority that requires 
conservation and management . . .'' In practice, the Councils, the 
National Marine Fisheries Service, and the Congress have treated this 
requirement flexibly, tailoring actions to particular regional needs. 
On the east coast, several fisheries are managed jointly by the States 
through the Atlantic States Marine Fisheries Commission. In some cases, 
this involves the Com-

mission setting minimum standards for conservation and leaving 
particular management measures to the appropriate State authority. This 
arrangement has been blessed by the Congress even though the fish 
stocks involved may migrate through the waters of several States and 
the exclusive economic zone.
    In Alaska, the Dungeness crab fishery is managed by the State. The 
king and tanner crab fisheries in the Bering Sea are managed under a 
joint State-Federal fishery management plan. Those same species in the 
Gulf of Alaska are managed solely by the State of Alaska. Salmon--other 
than troll salmon in Southeast Alaska--is under State management, as is 
Pacific herring.
    On the west coast, pink shrimp, Dungeness crab, herring, and 
swordfish are all under State authority.
    In addition, Pacific albacore tuna and Atlantic bluefin tuna are 
managed under international treaties.
    How do we decide if a fishery requires conservation and management 
under a fishery management plan? First, of course, we look at whether 
there are appropriate restrictions on harvesting and processing to 
ensure a sustained yield of the species in question. If conservation 
cannot be ensured, then a fishery management plan needs to be put in 
place.
    Second, we need to look at the characteristics of the fishery and 
the existence of other authority. Are there treaties in effect? Do the 
fish travel into international waters or the waters of other countries, 
so that a Federal presence is required? Can States effectively enforce 
conservation rules? These are all considerations.
    Third, we look at allocation among participants. While fishery 
management rules cannot have allocation as their sole purpose, the need 
to allocate among users--sport, commercial, domestic, foreign, tribal, 
different gear types--certainly influences the decision.
    And last, we look at cost. Can existing authority manage more 
efficiently and with less cost, or do we need to impose a fishery 
management plan?
    Although none of these considerations are explicitly stated in the 
law, they are in fact the reality with which we deal when deciding how 
fisheries are going to be conserved and managed.
    If you apply this four-part test to west coast ocean Dungeness 
crab, you will find that the existing system of State management is 
successful with the exception of one small gap which this legislation 
covers. Crab are harvested both within State waters and the exclusive 
economic zone. Because the crab fleet is mobile, it is common practice 
for a fisherman from one State to fish in the exclusive economic zone 
adjacent to another State and land his catch in his home State. 
However, if the State off whose coast he is fishing enacts conservation 
rules, this mobile fisherman can choose to ignore them as long as he is 
fishing only in the exclusive economic zone. By extending State 
authority for conservation purposes throughout the adjacent exclusive 
economic zone, H.R. 3498 solves the problem.
    This bill, like other actions of the Congress and the National 
Marine Fisheries Service before it, deals with a unique situation in a 
straight-forward, practical manner that recognizes the realities of an 
important fishery. In the past, the Congress has provided State 
authority over sections of the exclusive economic zone under section 
306 of the MSFCMA. Congress has provided east coast States with 
authority to manage certain fisheries through the Atlantic States 
Marine Fisheries Commission. Congress provided interim authority for 
State management of Dungeness crab under the Sustainable Fisheries Act 
in 1996, authority that will expire next year.
    NMFS has recognized the practicality of State management on king 
crab in the Gulf of Alaska. In fact, NMFS has twice turned down 
attempts by the Pacific Fishery Management Council to adopt a fishery 
management plan for coastal pelagic species, a fishery which--due to 
its international extent--requires a Federal presence. NMFS reason for 
doing so was that the fishery should more appropriately be under State 
management.
    H.R. 3498 is widely supported, as you can see from the witnesses 
here today. Getting to this point has not been easy. The Council 
conducted public hearings on the issue of Dungeness crab management, 
established a committee to look at management options, asked the Tri-
State Dungeness Crab Committee to further refine options, prepared a 
report to the Congress, and considered in public session what draft 
legislation might look like. The result of these efforts was a 
unanimous vote by the Council on a motion offered by the member 
representing northwest tribes to ask Congress to consider this 
legislative solution.
    What happens if this bill is rejected? First, the gap in management 
authority in the exclusive economic zone that I previously mentioned 
will have to be addressed. The Council will have no choice but to 
develop a fishery management plan. That will cost the Council and 
NMFS--and ultimately, the taxpayers--some money. Given that neither the 
Council nor NMFS has enough funds right now to do even basic research 
on Pacific groundfish, I don't know where the money will come from.
    Second, we will have to put in place a new management system under 
the authority of the MSFCMA. All of the allocation fights that we have 
put aside in order to develop a rational legislative solution will come 
up again. NMFS will have to figure out overfishing levels, MSY, and 
essential fish habitat, among other things, for a fishery that is 
currently conserved by allowing the harvest of only male crab on a 
minimum size during a specific season. Existing State limited entry 
laws may have to be examined. We could conceivably have a separate 
management scenario for the exclusive economic zone than we have for 
State waters. It would be expensive and it would not be a pretty sight.
    Keep in mind that H.R. 3498 does not preclude the Council from 
stepping in at some point in the future if State management no longer 
effectively conserves the crab resource. Under the bill, State 
authority stays in effect only so long as there is no fishery 
management plan. The burden will be on us, if we don't want a fishery 
management plan, to ensure that State management works. We recognize 
that and we are willing to accept the challenge.
    Mr. Chairman, it is not often that you can pass bipartisan 
legislation that reduces bureaucracy, saves the taxpayers' money, 
conserves a major fishery, and which is supported by all affected 
parties. With H.R. 3498, you have that opportunity. I urge you to act 
quickly to move this bill through the legislative process. Thank you.
                                 ______
                                 

    Statement of Rolland A. Schmitten, Assistant Administrator for 
   Fisheries National Marine Fisheries Service, National Oceanic and 
           Atmospheric Administration, Department of Commerce

NOAA FISHERIES' COMMITMENT TO WEST COAST GROUNDFISH

    Mr. Chairman, thank you for inviting me to testify before 
the Subcommittee today on West Coast groundfish. I am Rollie 
Schmitten, Assistant Administrator for Fisheries and Director 
of the National Marine Fisheries Service (NMFS). I am 
accompanied by William L. Robinson, Assistant Regional 
Administrator for Sustainable Fisheries in NMFS' Northwest 
Region, and Dr. Richard Methot, Director of the Fisheries 
Resource Analysis and Monitoring Division of NMFS' Northwest 
Fisheries Science Center.
    The National Oceanic and Atmospheric Administration (NOAA) 
is deeply and unequivocally committed to the sound stewardship 
of ocean fisheries and the marine and coastal environment. 
There are two essential building blocks to making that 
commitment a reality: the strong and unwavering support of 
leaders in the executive and legislative branches to that 
commitment; and a sustained investment in sound science to 
generate the information that will enable us to translate that 
commitment into good decisions.
    Our topic today is the challenging West Coast groundfish 
fishery and our opportunities to improve our stewardship of it. 
We at NOAA recognize that substantial improvements are needed. 
We have made solid progress over the last several years to 
develop the capacity to realize those improvements, and more 
importantly, we continue to gear up to ensure that progress 
continues.
    Pursuant to the Magnuson-Stevens Act, NOAA Fisheries is 
responsible for providing scientific information on which to 
base fishery management decisions and working with the Pacific 
Fisheries Management Council to structure an effective 
management of that fishery. The agency's Northwest, Southwest 
and Alaska Fisheries Science Centers conduct research that 
provides the scientific basis for Pacific Fishery Management 
Council recommendations to NOAA on harvest levels for West 
Coast groundfish stocks. This information is provided via stock 
assessments conducted by NOAA Fisheries, state, and university 
scientists using data from surveys and state fishery monitoring 
programs.
    We fully acknowledge that members of the commercial fishing 
industry have criticized the NOAA Fisheries' stock assessments 
that led to reductions in the commercial harvest of several 
important groundfish species in 1998. The fundamental 
limitation on those assessments is the paucity of data upon 
which they are based. Our challenge, simply put, is to improve 
the quality and quantity of survey data that go into the stock 
assessment. As stated in a recent National Research Council 
report, NOAA Fisheries' stock assessment methods are the best 
available, but, nevertheless, could benefit from improved data. 
Sparse and/or difficult to calibrate data lead to high level of 
uncertainty in these assessments.
    NOAA Fisheries, in the last few years, has moved 
aggressively to expand the West Coast groundfish program in the 
Northwest Fisheries Science Center (NWFSC). In addition, we are 
taking advantage of increasing opportunities to develop 
cooperative data collection programs which will utilize 
fishers' experience, knowledge, and time-on-the-water.
    Reflecting that priority, in January 1995 the NWFSC's 
groundfish program began to provide a coordinated stock 
assessment program focusing on the important and valuable deep-
water species (sablefish, Dover sole, thornyheads). The program 
had a budget of $1.5 million and a staff of seven, most of whom 
moved from other NMFS Centers. In 1997, the program delivered 
new stock assessments for these deep-water species, heightened 
its dialogue with constituents to develop cooperative data 
collection projects, and developed methods in conjunction with 
the University of Washington to conduct trawl surveys with 
local fishing vessels.
    In 1998, coaxing still more from an overtaxed budget, NOAA 
Fisheries added an additional $750,000 in permanent funding to 
its Northwest Region for West Coast groundfish management and 
research. The majority of the $750,000 will be used to support 
several new staff positions and new major cooperative projects 
with the commercial fishing industry and other scientists, both 
of which will improve NOAA Fisheries stock assessments. Also, 
NOAA provided an additional $400,000 to the NWFSC in 1998 to 
continue the deep-water slope survey by chartering commercial 
fishing vessels while the NOAA vessel Miller Freeman is in dry 
dock. These funds, plus first-tmne use of compensation with 
fish under the new ``Fish for Research'' provisions of the 
Magnuson-Stevens Act, will be used to prepare for and conduct 
the resource survey.
    Implementation of the ``Fish for Research'' provisions of 
the Magnuson-Stevens Act in West Coast groundfish will set 
precedents in an important new phase of fisheries management. 
``Fish for Research'' will allow NOAA fisheries to compensate 
fishing vessel owners who conduct chartered resource surveys 
with the harvest of additional groundfish in order to offset 
the cost of the survey. This will stretch the NWFSC's budget 
further and allow greater amounts of scientific data to be 
collected each year. We are excited about the prospects and are 
pushing hard to implement ``Fish for Research'' quickly. We 
will set aside a small fraction of the annual total allowable 
catch to be used as compensation for vessels that are chartered 
by NOAA Fisheries to conduct the scientific survey, and thereby 
achieve the objective of generating additional valuable data. 
We anticipate that this program will be an exciting prototype 
for the management of the nation's fisheries.
    NOAA Fisheries sees the West Coast groundfish research 
program as a great opportunity to develop cooperative data 
collection programs which will take advantage of fishers' 
experience, knowledge, and time-on-the-water. This cooperative 
program is critical to providing the best available scientific 
information on which to base decisions on annual harvests to 
achieve optimum yield while conserving the long-term health of 
the stock.

BACKGROUND

What are West Coast Groundfish?

    The term ``groundfish'' oversimplifies the complexity of 
the biological and fishery situation. In fact, the Pacific 
Fishery Management Council's Fishery Management Plan for 
groundfish includes 83 species. Examples are Pacific whiting 
(hake) which is an abundant migratory, schooling fish; 
yelloweye rockfish which is a sedentary, nearshore reef-
oriented rockfish; and grenadiers which are bottom-dwelling, 
deepwater fishes. The fishery is equally complex with catcher-
processors using midwater trawls to target on whiting; bottom 
trawlers targeting flatfishes, rockfish and other species; 
various hook and line and pot gears targeting sablefish and 
rockfish; and recreational fisheries targeting nearshore 
rockfishes.
    It is convenient and useful to categorize groundfish into 
five groups based upon their habitat and target fishery. These 
include: (1) midwater (principally Pacific whiting); (2) 
deepwater (sablefish, dover sole, 2 thornyheads, grenadiers); 
(3) shelf (principally trawl-caught rockfish and lingcod); (4) 
nearshore rockfish (principally other rockfish species caught 
by hook and line or by recreational fishermen); and (5) 
nearshore flatfish.
    This diversity of species and users requires a wide range 
of monitoring tools and a multi-faceted management system to 
achieve management goals. Many of the groundfish species are 
long-lived (50+ years). Thus, the recent 15-20 year history of 
full exploitation and intensive management under the Magnuson-
Stevens Act is not much more than one generation time for many 
species. We are just beginning a course of sustainable 
management for the long-term.

Management System

    The annual acceptable biological catch (ABC) is set for 
each major species largely on the scientific advice provided in 
the stock assessments. A harvest guideline (HG) is set for a 
target level of landed domestic catch. Expected levels of non-
landed catch (discard) are generally subtracted from the ABC 
when setting the HG. Other adjustments include set asides for 
expected catch by Canada and coastal tribes.
    A Limited Entry (LE) system was implemented in 1994. 
Federal permits were established based on vessel catch history 
during 1984-1988 period. Permits are endorsed for gear-type 
(trawl, pot, longline) and for vessel length. Permits are 
transferable, and permits from smaller vessels can be combined 
into a permit for a larger vessel according to an established 
formula.
    Catch allocations are calculated to better achieve the 
social and economic goals of the PFMC, in that:

        a. Set asides for Treaty Indian and expected recreational catch 
        are deducted from the harvest guideline (where appropriate).
        b. An established formula sets the allocation between the Open 
        Access and Limited Entry sectors.
        c. Some further allocations occur within the LE sector 
        (shoreside vs. at sea delivery of Pacific whiting; trawl vs. 
        fixed gear sablefish catch).
    Pacific whiting and fixed gear sablefish are managed primarily as 
derbys, with relatively unconstrained fishing until the HG is attained, 
then cessation of large-scale directed fishing. Other species support a 
fresh fish market, and processors/marketers have strong desire for a 
year-round supply. Trip limits were first instituted in 1983 to slow 
the pace of the widow rockfish fishery. Today cumulative monthly vessel 
landing limits are used for about 10 species in order to slow the pace 
of the fishery and delay HG attainment until near the end of the year. 
Unfortunately, declining ABCs and overcapitalization in the fishery 
have caused these landing limits to substantially decline.
    In addition, size limits, gear restrictions and area/season 
closures are set to improve biological and economic yield or to reduce 
adverse impacts of fishing.

Stock Assessments

    Groundfish stock assessments are the technical evaluation of the 
status of the fish stock and the level of yield that will come closest 
to achieving maximum sustainable yield while avoiding overfishing. The 
most accurate assessments include three categories of information: (1) 
life history (natural mortality, growth, maturity); (2) fishery total 
catch; and, (3) trends in abundance from resource surveys or fishery 
catch per unit effort. These three types of information are 
complementary and all are necessary. For example, bycatch studies will 
improve estimates of total catch, but even perfect knowledge of total 
catch is not sufficient to determine if that level of total catch is 
appropriate. Conversely, no matter how accurately at-sea resource 
surveys determine trends in the level of abundance, they alone will not 
be able to determine if these trends are due to fishing or natural 
causes.
    The report of the National Research Council concluded that the 
models used by the NMFS to conduct stock assessments were adequate, and 
that the primary shortcoming of the assessments was the amount of 
resource survey and fishery monitoring data available to include in the 
models. As we engage in development of the next generation of stock 
assessment models, primary goals will be characterization of the 
uncertainty in assessment results, and clarity in the communication of 
assessment results to fishery managers and constituents.

Resource Surveys

    NOAA Fisheries has used a combination of trawl, acoustic, plankton, 
and fixed gear methods to provide some survey coverage for many 
groundfish species. Basically there is a triennial acoustic survey for 
whiting using the NOAA vessel Miller Freeman; triennial bottom trawl 
survey for shelf rockfish and lingcod using two chartered trawl 
vessels; a midwater trawl survey for young rockfish off central 
California using the NOAA vessel David Starr Jordan; an annual, but 
sparse, bottom trawl survey for the deepwater complex using the NOAA 
vessel Miller Freeman; incidental coverage for nearshore flatfish in 
the shelf rockfish survey; and no coverage for nearshore rockfish. In 
no case is this coverage completely adequate, and for several species 
it is nearly lacking.
    The adequacy of survey information depends upon several factors: 
representation, calibration, length of time series, and degree of 
natural biological fluctuations. Frequent (i.e. annual) surveys are 
more necessary when the biology of the stock causes short-term natural 
fluctuations in stock abundance, or when technical or biological 
factors limit the precision of the survey. Here, precision refers to 
the degree to which each survey is expected to be perfectly 
representative of (i.e. proportional to) the stock's abundance. Even 
precise, annual surveys are of limited value until they are calibrated 
to the stock's abundance. In some cases, a technical approach can 
directly measure a calibration factor to relate the survey gear's catch 
to the absolute abundance of the stock. However, this technical 
calibration is rarely possible. Alternatively, it is only through 
patient development of a long time-series of surveys that we are able 
to calibrate the survey index to the actual performance of the stock 
over time. It is important to note that the level of confidence in this 
calibration increases with the degree of standardization of the vessel 
and the sampling method.
    The survey needs just described would be best met through a 
combination of chartered fishing vessels and a long-term, dedicated 
fishery research vessel (FRV). The FRV will provide all weather 
capability, cost effective use of scientific staff, standardized and 
acoustically quiet vessel operations, and capability for simultaneous 
multiple missions. The chartered fishing vessels will provide 
additional days-at-sea in coordination with the FRV to achieve adequate 
and timely coverage of the several groups of groundfish species. 
Neither a program based solely on one FRV, nor a program based solely 
on charter of local fishing vessels could meet the needs alone. In the 
absence of an improved survey program, more conservative management of 
the fishery will likely be necessary, and some of the potential value 
of this fishery will be lost. We are starting now to increase the level 
of survey effort based on chartered fishing vessels and using ``Fish 
for Research'' to cover some of the costs. In the long-run, an FRV will 
provide a stable, dedicated platform to conduct surveys and improve the 
inter-calibration of chartered surveys.

Fishery Monitoring

    Monitoring the West Coast groundfish fishery landings is 
accomplished through a long standing state-Federal partnership. Funding 
provided through PacFIN provides NMFS, the states, and the Pacific 
States Marine Fisheries Commission with the capability to turn the 
states' fish landing receipt systems into a comprehensive fish catch 
database which provides weekly catch reports for major species to 
fishery managers. In addition, state and commission biologists sample 
the landings at each major port to provide biological data to stock 
assessment scientists, and a coastwide trawl logbook program 
administered by each state provides fishing effort data which figured 
prominently in some recent stock assessments. A separate, but 
coordinated, observer program administered by the Alaska Fisheries 
Science Center monitors the at-sea catching and processing of Pacific 
whiting.
    As successful as this fishery monitoring program has been, major 
gaps remain. Opportunities for underreporting increase as portions of 
the fishery evolve to a highly geographically distributed hook-and-line 
fishery. There is no routine monitoring of discards outside of those in 
the at-sea whiting fishery. There is insufficient biological sampling 
of the landings, and little economic information collected.

CURRENT SITUATION

Stocks in Decline

    Some level of decline in stock abundance is an expected consequence 
of fishing. The harvest policy typically used by the Pacific Fishery 
Management Council to set the level of ABC is one that would reduce 
long-term average stock abundance to about 35 percent of its average 
unfished level. Current knowledge indicates that this level is a 
reasonable approximation of the level that can produce maximum 
sustainable yield (MSY). Application of this approach over the past 10-
20 years has been responsible for some of the decline in catch quotas 
as the stocks have gone from a more abundant, lightly exploited level 
to a fully exploited, less abundant level.
    We recently discovered that several stocks (including sablefish, 
bocaccio, canary rockfish, lingcod) unexpectedly have not stabilized at 
the anticipated level of abundance and potential yield. Current 
estimates of low and declining levels of abundance for these stocks 
were completely unexpected by many who were confident the stock 
assessment process would guide us to sustainable harvest level. Several 
factors contributed to this circumstance. First, early estimates of 
potential yield were less accurate. As information accumulates over 
time, the estimates improve. In the long run (decades), we will be able 
to better determine the appropriateness of the 35 percent target level. 
Second, the current amount of survey and fishery information has now 
been found to be insufficient a sufficiently high degree of accuracy in 
tracking stock abundance trends. With only triennial updates in most 
stock assessments, the rate of improvement was slow, and the potential 
for overshooting the target abundance level was too high. Third, 
without a comprehensive observer program, the level of total catch is 
likely to have been underestimated, and this higher catch has 
exacerbated the decline. Fourth, over the same 20 year time period, a 
shift in the ocean climate has occurred. With warmer, less productive 
conditions prevailing off the west coast since about 1978, some of the 
reduction in the level of recruitment to these stocks could be part of 
a natural cycle.
    Whatever the causes of the decline and the limitations in our 
ability to forecast such a decline, the best available information now 
indicates that some stocks are at only 10-20 percent of their unfished 
level and that reductions in catch are necessary to allow rebuilding to 
safer and more productive levels. Furthermore, this situation 
illustrates the need to apply more cautious harvest levels until 
adequate information is available to confidently determine that a 
particular level of harvest is sustainable.

Excess Fishery Capacity

    The number of vessels participating in the West Coast groundfish 
fishery was capped in 1994 with implementation of the Limited Entry 
program. There are now 200+ trawl permits, and approximately 300 
permits for either hook and line or pot gear. Even with this system in 
place, the number of participants is too high to allow a year-round 
fishing opportunity without severely limited bi-monthly cumulative 
landing limits for individual vessels. Thus, the industry is actively 
pursuing a buyback program. We are working with the industry in the 
development of an industry-funded vessel buyback program.

Discarded Bycatch

    A goal of the Pacific Fishery Management Council is a year-round 
fishing opportunity for most sectors of the fishery. Since 1983, trip 
landing limits have been used to cap per vessel landings to slow the 
rate of total landings for the entire fleet in order to sustain the 
year-round fishery. This system largely achieves the goal, but the 
limits are economically adverse to fishers, difficult to comply with 
and to enforce, and the cause of substantial levels of discard. 
Estimated levels of discard range up to 20 percent for trawl-caught 
sablefish, but these estimates are based on 12-year-old studies, so 
contemporary measurement of discard levels is badly needed. Over time 
these landing limits have been extended to nearly 30 combinations of 
species/areas/gear types. Specification of most of these limits has 
evolved from per trip limits to cumulative monthly and bi-monthly 
limits in order to provide more flexibility to vessel operations and to 
reduce discard. Even with these changes, the limits have become 
increasingly complicated and restrictive as ABCs decline and the level 
of capitalization by the fleet increases. This has been the impetus 
behind the permit buyback initiative, and has sparked a plea for 
implementation of a management system that would allow landing of trip 
limit overages.

Cooperative Industry Willing to Engage in Cooperative Data Collection

    The West Coast groundfish industry recognizes the shortcomings in 
our stock assessment data and has been a strong proponent of 
cooperative research and data collection projects. Over the past few 
years, several workshops and discussion opportunities have helped to 
generate specific project ideas and to bridge the cultural gap that too 
often exists between the fishing and scientific communities. 
Development of the groundfish program in the Northwest Fisheries 
Science Center in 1995 increased the critical mass of NOAA Fisheries 
staff working on West Coast groundfish, and thus helped create an 
agency infrastructure to design and conduct these projects. Now the 
Magnuson-Steves Act has redefined the legal landscape on which we can 
develop these cooperative projects. An allocation of the total 
allowable catch can now be used to compensate vessels that are 
chartered to do scientific resource surveys. We look forward to using 
these opportunities to partner with the groundfish constituents to 
improve the quantity of stock assessment data, and thus to enable a 
less conservative harvest policy.

NEW PROGRAMS IN 1998

Resource Survey with Fish for Research

    A new trawl survey will be conducted in late summer 1998 to provide 
additional stock assessment data for sablefish, Dover sole, and 
thornyheads. This survey will utilize four chartered local-sized 
fishing vessels to conduct the work, and will use the new Fish for 
Research provisions of the Magnuson-Steves Act to offset some of the 
direct charter costs. Such a summer survey takes advantage of better 
weather for smaller vessel operations and less fish movement during the 
survey. Results will be comparable, but not identical, with past and 
future slope surveys conducted in the late autumn by the NOAA vessel 
Miller Freeman.

Cooperative Fishery Data Collection

    Enhanced fishery logbooks and at-sea biological data collection by 
cooperating fishers can improve stock assessments. The enhanced logbook 
project will allow collection of more detailed data from cooperating 
fishers. It will provide fishers an opportunity to report on factors 
that influence their fishing patterns, and the frequent interaction 
with these participants will greatly improve communication between the 
agency and the industry. Year-round biological sampling from a range of 
fishing depths cannot be obtained from traditional shortage sampling 
programs. This infor-

mation can be efficiently obtained through cooperation with the 
industry, and will be important for analysis of fishery logbook data 
and for interpretation of surveys that are conducted in only one 
season.

Improved Stock Assessment Models

    Stock assessments will be improved immediately. First, we are 
implementing recommended improvements in the stock assessment model 
from the National Research Council review. This will allow a clearer 
presentation of uncertainty in model results which will enable better 
understanding of the benefits of a precautionary management approach. 
Second, we will ensure improved access to stock assessment databases 
and increased frequency of stock assessment updates. In particular, we 
will update in 1998 the sablefish and shortspine thornyhead assessments 
and will initiate studies to provide further improvements in the 
future. Third, we are improving coordination and communication of all 
West Coast groundfish stock assessments to improve public understanding 
and trust in the assessment process.

Electronic Fish Catch Logbook

    A project funded by the Innovative Technology Committee is designed 
to develop and demonstrate an electronic fish catch logbook system. The 
system will allow for collection and analysis of fish catch and related 
information collected by fishers. The goal is to increase the quantity 
and quality of data collected, increase the uses of the data, and 
better coordinate the expression of the data for more efficient and 
sustainable utilization and management of the fishery resource. The 
core products of the project are technology development and 
demonstration. The first stage of the project involved interviews and 
workshops with West Coast groundfish fishers, processors, scientists, 
and managers to determine the unmet needs.

OUTSTANDING RESEARCH AND MANAGEMENT NEEDS

    We conclude by providing a brief recap of the major research and 
management needs for West Coast groundfish. Each of these is designed 
to bring us closer to our goal of fisheries managed to provide maximum 
benefit to the nation with minimum risk of overfishing. Such a dual 
goal cannot be achieved without good information. West Coast groundfish 
can be a valuable, sustainable fishery if we can:

          1. Provide adequate monitoring of trends in all groundfish 
        species through annual resource surveys for each of the five 
        major groups of groundfish. A combination of chartered fishing 
        vessels and a dedicated Fishery Research Vessel is the best mix 
        to accomplish this need.
          2. Expand upon the resource surveys and oceanographic studies 
        to provide advance prediction of future recruitment to these 
        groundfish stocks.
          3. Measure the contemporary level of bycatch in the 
        groundfish fishery.
          4. Increase the accuracy of fishery monitoring through 
        logbooks, port sampling, and other means. Involve industry in 
        cooperative projects to leverage these fishery monitoring 
        programs.
          5. Increase the level of economic information collected from 
        the groundfish fishery so that impact of trade-offs in 
        management can be more fully evaluated.
          6. Improve the capabilities of stock assessment models so 
        that fishery managers and constituents will be more fully 
        informed of the potential benefits and risks of alternative 
        levels of harvest.
          7. Implement capacity reduction programs that will improve 
        the economic, social, and biological situation of the West 
        Coast groundfish fishery.
          8. Review management objectives for the fisher and develop 
        management programs that reduce bycatch.
          9. Implement all aspects of the Magnuson-Stevens Sustainable 
        Fisheries Act, including provisions regarding prevention of 
        overfishing, bycatch, and essential fish habitat.
    Mr. Chairman, this concludes my testimony. I again thank you for 
the chance to appear here today and I welcome any questions you may 
have.
                                ------                                


   Statement of Philip Anderson, Member, Pacific Fishery Management 
                                Council

    Good morning. My name is Philip Anderson. I represent the 
Washington Department of Fish and Wildlife on the Pacific 
Fishery Management Council (Council) and I am here on behalf of 
the Council today. Thank you for inviting us to testify on the 
issues of groundfish management and research.

Background

    The Council and the National Marine Fisheries Service 
(NMFS) manage the groundfish fishery consistent with the 
Pacific Coast Groundfish Fishery Manage-

ment Plan which was implemented in 1982 and has been amended 
ten times. The management unit consists of 83 species of 
flatfish, rockfish, roundfish, sharks, skates, raffish, morids, 
and grenadiers. The more important commercially harvested 
species include Dover sole, sablefish, Pacific whiting, and 
various species of rockfish. The amount of recreational catches 
of most groundfish species is small compared to commercial 
catches. Most of the commercial catch is taken by trawl, 
longline, and pot gear in the limited entry fishery with trawl 
gear accounting for over 90 percent of the catch. There is also 
an open access fishery with relatively small catches by a large 
number of vessels.
    Management measures, including mesh-size restrictions and 
harvest limits, for major species are established each fall for 
the following fishing year. Most harvest limits are based on 
stock assessments which are written by NMFS, a state agency, or 
university scientists, and are based on trawl surveys conducted 
by NMFS, and data from the fisheries. The trawl fisheries, 
other than whiting, are managed to extend landings throughout 
the year as much as possible by setting bimonthly cumulative 
limits per vessel and adjusting them as necessary during the 
season.
    In 1994, a license limitation program was implemented for 
trawl, longline, and pot gears in an effort to control the 
amount of growth in the number of vessels participating in the 
fishery. However, the harvest capacity still exceeds what is 
needed to harvest the allowable catches. The shoreside 
processing sector is also overcapitalized which creates less-
than-optimum economic conditions in the fishery and intense 
competition for the fish.
    In response to these conditions, the Council has discussed 
additional measures to reduce fishing effort and to directly 
allocate certain species among competing gear groups and 
certain treaty tribes. Direct allocations have been adopted for 
Pacific whiting and sablefish. Sablefish is allocated between 
trawl and fixed gear fisheries, and additional measures have 
been adopted for the fixed gear segment to limit capacity and 
allocate the fixed gear share among participants. Recent 
declines in annual harvest limits and bimonthly cumulative 
limits have greatly exacerbated the situation, and allocations 
are being considered for rockfish and lingcod. These measures, 
however, will not solve the fundamental problem of excess 
capacity.
    An individual quota program for the fixed gear sablefish 
fishery was developed, but was abandoned in 1994 when 
Congressional sentiment in opposition became evident. 
Individual quotas are now prohibited by the Magnuson-Stevens 
Fishery Conservation and Management Act (Magnuson Stevens Act). 
A trawl permit buyback program is being considered by the 
Council, which has the potential to directly reduce capacity in 
the trawl fleet. This program was developed by trawlers and 
would be funded by a self-imposed tax on trawl landings if 
approved by the fleet in a referendum pursuant to the new 
provisions of the Magnuson-Stevens Act. Reduction of capacity 
is a high priority for the Council.

1997 Stock Assessments and Decisions

    Each year, assessments are conducted on five to ten 
species, typically as part of a three-year rotation, and 
Pacific whiting is assessed every year. Stock assessments are 
prepared by staff scientists of NMFS, California Department of 
Fish and Game, Oregon Department of Fish and Wildlife, 
Washington Department of Fish and Wildlife, and Oregon State 
University. In 1997, new assessments were completed for Pacific 
whiting, yellowtail rockfish, lingcod, widow rockfish, Dover 
sole, sablefish, and the two thornyhead rockfish species 
(longspine and shortspine).
    In recent years, stock assessments of West Coast groundfish 
have generally been conducted with the stock synthesis model 
which allows simultaneous examination of information from a 
number of different fisheries and surveys. The surveys are 
largely conducted by NMFS and include the following:
        <bullet> Triennial acoustic/mid-water trawl survey of whiting
        <bullet> Triennial bottom trawl survey on the continental shelf 
        to assess rockfish, lingcod, young sablefish, and other species
        <bullet> Annual bottom trawl survey of the continental slope to 
        assess deepwater species such as Dover sole, sablefish, and 
        thornyheads
        <bullet> Pot survey for sablefish
    Except for the pot survey which was discontinued, all of these 
surveys will be conducted in 1998. The trawl surveys of the shelf and 
slope will be conducted using chartered commercial fishing vessels, 
while the acoustic survey will use the NOM ship Miller Freeman.
    The assessments for the deepwater species were reviewed by a panel 
of independent experts in 1995. The panel was critical of the slope 
surveys which were used as a basis for assessment of these species. 
Since 1995, NMFS has made significant efforts to improve the slope 
survey. Given the limited amount of funding resources available and the 
technological difficulties of estimating the biomass of groundfish 
species, survey and assessment results are often accompanied by a 
substantial amount of uncertainty.
    In 1996, the Council implemented a new stock assessment process to 
improve public participation in the process, increase the level of 
scientific peer review, and provide greater separation between the 
scientific and management processes. This procedure was reconsidered 
and expanded for the 1997 assessment cycle. In April 1997, a pre-
assessment workshop was held to review and evaluate data and identify 
problems and modeling assumptions. Stock assessments were prepared by 
Stock Assessment Teams (STATs) and then reviewed by three Stock 
Assessment Review (STAR) Panels at three week-long workshops in July. 
The STAR Panel workshops were open to the public. The Council's 
Groundfish Management Team then met with the STAR Panel and STAT Team 
representatives and developed recommendations to the Council for annual 
harvest limits. The 1997 process was a substantial improvement over the 
previous year's, but several problems were identified during its 
implementation in 1997. The Council made further improvements to the 
process for 1998 which addressed these problem areas.
    Based on the new estimates of biomass from the 1997 stock 
assessments, the recommended harvest levels were significantly reduced 
for some species:

        <bullet> Sablefish reduced from 7,800 mt to 4,680 mt.
        <bullet> Dover sole reduced from 11,050 mt to 8,955 mt.
        <bullet> Longspine thornyhead reduced from 6,000 mt to 3,733 
        mt.
        <bullet> Widow rockfish reduced from 6,500 mt to 4,276 mt.
        <bullet> Lingcod reduced from 2,400 mt to 838 mt.
    In addition, a substantial reduction in the harvest limit for 
shortspine thornyhead was proposed by the STAR panel, but the Council 
believed the assessment should be rewritten to address numerous 
questions raised by both scientists and the public. The harvest levels 
adopted for 1998 are very similar to the 1997 levels.
    The total ex-vessel (landed) values of the species for which 
harvest levels were changed in 1998 have declined from $59.8 million in 
1996 to $55.4 million in 1997 (preliminary), and are projected to 
decrease to $41.4 million in 1998. These substantial reductions in 
revenue are occurring in an industry that is already overcapitalized 
which will further aggravate its depressed economic condition.
    The industry was particularly surprised and skeptical of the 1997 
sablefish stock assessment. The assessment used information from the 
slope surveys, pot surveys, and trawl logbooks and several different 
model runs which emphasized different types of data sources which 
produced a wide range of possible harvest levels. Problems have been 
identified with all of the data sources, and there is a substantial 
amount of uncertainty regarding sablefish abundance. Reasons for the 
dramatic change in estimated biomass levels between the current and 
previous assessment are not clear. Recruitment of new fish into the 
population appears to have been poor since 1992, which may be caused by 
environmental conditions, but may also be a result of low stock size. 
Given the concerns relative to the 1997 sablefish assessment, the 
Council requested a re-assessment in 1998 using the most recent survey 
data and additional sources of information.
    While some resource decline was expected as stocks were fished down 
to levels which would provide the maximum sustainable yield (MSY), the 
results of the 1997 assessments still raise a number of questions about 
the adequacy of science and management. Did the previous assessments 
overestimate abundance, resulting in harvests which were too high? Are 
recent assessments sound? Are environmental conditions in the ocean 
largely responsible? Are trip limit- induced discard rates higher than 
estimated? The industry has been harvesting at the levels adopted by 
the Council and implemented by NMFS, yet significant declines in 
resource abundance appear to have occurred. For assessed species, the 
Council has been setting harvest limits based on assessment results and 
by applying the exploitation rate that is expected to achieve MSY.

Recommendations

    The Council makes the following recommendations to improve research 
and management of West Coast groundfish:

          Increase the accuracy of stock assessments for West Coast 
        groundfish
          Reducing uncertainty involves improving the science through 
        increasing the number of observations and thereby improving 
        accuracy. NMFS should increase the frequency and coverage of 
        surveys to measure adult biomass and the magnitude of the 
        recruitment of incoming year-classes. Surveys need to be done 
        annually at a minimum, and need to cover the entire range of 
        the species. We appreciate the commitments made by NMFS 
        Director Rolland Schmitten to permanently add $750,000 to the 
        base budget of the Northwest Fisheries Science Center for this 
        purpose, in addition to the $400,000 provided for 1997 only. We 
        also appreciate the efforts of the West Coast Senate delegation 
        and especially Senator Ron Wyden for requesting additional 
        amounts beginning in fiscal year (FY) 1999.
          As an integral part of the effort to improve science, the 
        Council supports cooperative agency/industry research projects. 
        The industry has proposed a number of such projects, and NMFS 
        is beginning to implement some of them this year. In 
        particular, the ``Fish for Research'' program authorized by 
        recent amendments to the Magnuson-Stevens Act has the potential 
        to collect needed information at less cost, and starting this 
        summer, NMFS will contract with commercial vessels to conduct 
        the slope survey. The vessels will be reimbursed with a 
        combination of cash, fish caught during the survey, and fish 
        caught after the survey under an exempted fishing permit.
          Improving science will go a long way toward establishing 
        credibility of the stock assessments, but it is also important 
        to improve the stock assessment process so that the Council 
        members and the stakeholders have confidence in the results. 
        This year, the Council and the state and Federal agencies have 
        committed to an improved process which was adopted by the 
        Council at its March 1998 meeting and is currently underway.

Be precautionary

          Even with improved science, there will continue to be more 
        uncertainty in biomass estimates and stock assessments than 
        decision-makers are comfortable with. Estimating abundances of 
        marine fish species is challenging at best since we cannot 
        observe the fishery resources directly and it is difficult to 
        sample them. Some species of rockfish are particularly 
        difficult to survey and assess primarily because of their slow 
        growth rates, longevity, and geographic distribution. It is 
        entirely possible that the recent stock assessments are indeed 
        accurate. Other than for sablefish and shortspine thornyhead, 
        there was little disagreement over stock assessment results. 
        Given the uncertainty of the stock assessment and the 
        possibility of low stock sizes, it is prudent for the Council 
        to be precautionary in setting harvest levels on these 
        resources which can take decades to rebuild.
          As part of the effort to amend the groundfish plan to make it 
        consistent with new provisions of the Magnuson-Stevens Act, the 
        Council is examining a more conservative harvest policy. Under 
        this policy, exploitation rates would be reduced as biomass 
        levels decrease, and rates would be adjusted downward to deal 
        with uncertainty. This policy, if approved, should provide for 
        more stable and abundant populations for the future.
Reduce effort
          Fishing and processing capacity is larger than necessary to 
        harvest and process the available groundfish and the recent 
        reductions in harvest limits have exacerbated the situation. 
        License limitation programs and allocation regimes have not 
        solved this fundamental problem and additional measures are 
        necessary to achieve a stable and economically healthy 
        industry. The trawl permit buyback program being developed by 
        the industry is an example of a more direct way to address 
        excess harvest capacity. The program as drafted has caused some 
        concern regarding impacts to other fisheries; however, the 
        trawl fleet should be commended for taking the initiative to 
        develop this program. The Council is continuing to work with 
        the industry on this program and will address it again at its 
        June meeting.
          Individual quotas are another means of addressing allocation 
        and effort problems. This tool is presently not available to 
        the Council. When the moratorium on individual quotas has 
        expired, I expect the Council to evaluate individual quotas for 
        certain fisheries such as sablefish.
Improve estimates of total fishing mortality and reduce discards
          Groundfish caught in excess of cumulative vessel limits must 
        be discarded. These regulatory discards most likely increase as 
        limits decrease, but we do not know the true magnitude of 
        discard mortality. Assumed levels of discards are based upon 
        limited and outdated field studies. It is critical that we have 
        reliable estimates of discard mortality in order to incorporate 
        accurate estimates of total fishing mortality into stock 
        assessments as well as evaluate the impact of our management 
        measures upon discard levels. A comprehensive, ongoing observer 
        program and alternative ways of collecting this information are 
        being considered. One of the obstacles to establishing an 
        observer program is funding. Federal funding is not available 
        at this time and charging a fee and spreading the cost of a 
        program throughout the groundfish industry is not authorized by 
        the Magnuson-Stevens Act. These limitations have prevented the 
        Council from pursuing an observer program in the past.
          One alternative being discussed is to require vessels to land 
        all catches of cumulative limit species. The fishers would not 
        be penalized for exceeding the limit nor would they be 
        compensated for the overage. Monies from overages would be 
        deposited in a fund to help defray the cost of research 
        programs. Such a program could achieve multiple objectives by 
        reducing waste, improving estimation of total catch, and 
        providing funds for needed fishery programs, but a mandatory 
        program requires amendment to the Magnuson-Stevens Act, and it 
        also raises a number of concerns. The Council continues to 
        examine this concept.
    This concludes our testimony and thank you for this opportunity.
                                 ______
                                 
Statement of Gerald Gunnari, President, Coos Bay Trawlers' Association, 
                                  Inc.
    I have been asked to give testimony on the science used by the 
Pacific Council to make management decisions and the adequacy of the 
data used to establish quota levels on the west coast groundfish. I 
thank each of you for this opportunity.
    The Sustainable Fisheries Act calls for measures to reduce discards 
and not to manage a complex or multi-species fishery by lowering one 
species in that fishery. Doing so creates discards, not reduces it! 
This is exactly what NMFS IS doing. Currently the NMFS' interpretation 
of uncertainty and the precautionary approach is when you don't know 
enough about a specie it is to automatically reduce the landings of 
that specie no matter what condition the stock is in. This practice is 
destroying the ability of the west coast fleet to be good stewards of 
the ocean forcing discards we have never had in the past. Example: 
Lingcod from December 31, 1997 to January, 1998 our monthly quota went 
from 20,000 lbs. to 500 lbs. a 97.5 percent reduction in landings. The 
commercial sector went from harvesting 95 percent of all Lingcod to 
less than 50 percent. This shift made by NMFS and PFMC is undoubtably 
an illegal allocation. Shifting to sports from commercial fishers means 
that a seventy-five foot vessel can now only produce 150 pounds of 
filets per month creating discards we never had before and denying the 
public access to eat Lingcod.
    On top of all this, we are not seeing the reported decline in fish 
out on the ocean. There are no surveys or actual accounting of Lingcod 
inside 30Fm out here, now over 50 percent of the 1998 quota is being 
taken from an assessed area from an area not assessed. 98 percent of 
the Lingcod caught by sport fishers is from inside 30Fm and very little 
commercially caught ling is from inside 30Fm. We do not have a sport/
commercial conflict on the ocean. However, we now have one in council's 
meeting rooms and it's not very pretty.
    In the most recent PFMC meeting in Portland the desperation of not 
enough fish to pay the bills is becoming a dominant issue for many. The 
organized attitudes of one gear group throwing as much mud and dirt 
upon another gear group to sway the council to take fish from one 
group, who have traditionally caught those fish and give it to their 
groups. These are some tough issues to have to deal with. We all have 
to understand with financial pressures, fellow fishers have no other 
recourse than to turn on each other. It is the only way some of them 
can figure out how to increase their landings in order to survive.
    We get our fish the same way they get their fish, we earn it by 
working hard, investing in our vessels, and putting in time over the 
years. The current situation is killing us too, but trying to steal 
someone else's fish and investment is not an acceptable solution.
    The trawl fishery is the mainstay of supplying our nation's fish 
markets and restaurants with a steady source of fresh west coast fish 
in the past and hopefully in the future. Investments and our bills are 
many times greater than other gear types. It costs a lot to maintain a 
vessel and crew capable of fishing forty miles off shore in the dead of 
winter. These bills are real and we support many of the business in our 
coastal communities. These cutbacks are proportionately affecting our 
abilities to pay our bills too. It is destroying generations of hard 
work and the very infrastructure dependent on fishing. We're not 
attacking their business practices, they're attacking ours.
    Over the past decade or more, we've been reducing catches and the 
number of vessels doing what NMFS has recommended and now another 
surprise cut by 40 to 60 percent and over 97.5 percent on Lingcod. It 
is now to the point that we have an East Coast style disaster here, not 
due to real stock abundance levels but due to poor science creating 
uncertainty in data causing regulation changes. If we are catching 60 
percent of 2 months trip limits of Dover Sole in 35 minutes of fishing 
time or have problems with avoiding abundant Sablefish and can only 
produce 150 pounds of Lingcod filets per month, it is not a stock 
biomass problem.
    Essential Fish Habitat seem's to be the new growing buzz word; 
refuges, deep sea ocean parks, NO TAKE FISHING RESERVES, and on and on. 
Sounds great but where will it end? My natural concern is: Who will it 
effect?; Are they needed?; Will it concentrate effort to smaller and 
smaller areas?
    Important habitat must mean where the fish are. Who and how will 
this information be determined? Obviously fishermen's own log books are 
the easiest source to gather this information and HAS ALREADY BEEN 
COLLECTED BY THE GROUPS WHO ARE PUSHING THESE IDEAS. What concern's me 
is the only information being collected by officials is from the trawl 
fleet. NO OTHER GEAR TYPES or EVEN THE SPORT FISHERS ARE SCRUTINIZED 
FOR DATA COLLECTION. So their important fishing areas are potentially 
not effected. Area closures will concentrate effort into smaller and 
smaller areas creating conflicts with gear types and sport and 
commercial. If commercial fishermen can no longer fish where they have 
been fishing they'll have to find new spots. This is not beneficial to 
the resource or the users.
    Trawlers' have been fishing off our west coast over sixty years and 
we go back to the same places over and over again. If we were 
destroying important fish habitat, we would NOT still be fishing there. 
Off shore marine sanctuaries, no fishing zones, potentially 20 square 
miles to me is a very serious concern being that our information is the 
only information. We have years of time and thousands of dollars 
invested in developing trails and areas we fish today. Will traditional 
users of a now closed area be compensated? It would be no different 
than closing off city blocks from people doing business after they have 
invested in their businesses there. At night, we drift sometime over 
twenty miles or if we're passing through one of these areas and are 
just accused of being in an area illegally the legal costs could be 
financially devastating. The people who come up with these ideas are 
not effected by the outcomes.

Solutions:

        <bullet> Better data is needed in order to reduce the 
        uncertainty, assessment authors should have to be involved 
        personally in the harvest of the species they assess.
        <bullet> Vessels involved in these fisheries already are 
        capable and willing to be included in gathering data.
        <bullet> Coded wire tagging with tetracycline projects is the 
        cheapest and, the fastest solution to the aging problem, 
        migration patterns and percentages of removals from a given 
        stock. Thorny heads and Sablefish need this now and it has been 
        recommended to NMFS since 1993. Local vessels are capable of 
        carrying out this project while fishing.
        <bullet> Larval studies-recruitment estimates are extremely 
        important we found out from this last round of cuts on 
        Sablefish in particular. NMFS made no observations of recruits 
        so they assumed that there weren't any. This is valuable 
        information not being done now, local vessels are capable of 
        this work for the best value.
        <bullet> Annual trawl surveys from 10 fm to 1,000 fm using 
        local vessels. This is the most reasonable costs for the 
        return.
        <bullet> Long Line surveys should be conducted every year. 
        These will pay for themselves, Alaska is doing this now.
        <bullet> Oceanic conditions should be monitored carefully as to 
        migration patterns due to environment conditions such water 
        temperature, etc
        <bullet> Fish for research to help in funding cooperative 
        projects.
        <bullet> Improve the lines of communications. Attempts by 
        industry to provide NMFS with coastal meetings have been 
        boycotted in the past by NMFS. Another attempt is underway at 
        this time and has been put off by NMFS. Now NMFS says it is not 
        needed. This is not cooperation in management and must be 
        rectified. Deputy Secretary Garcia assured us February 19, 
        1998, what is happening now will not happen. It is now April 
        25, 1998 our attempts to help reduce uncertainty in the data 
        through an industry based meeting is receiving negative support 
        from NMFS.
        <bullet> We need true outside peer reviews, The NMFS, STAR, SAT 
        reviews are NOT an outside peer review. The west coast seafood 
        industry has been forced to organize a true outside 
        international review panel, and are currently looking at 
        Sablefish and Thornyheads. LET'S MAKE SURE THESE EFFORTS ARE 
        NOT STOPPED AS WELL.
        <bullet> International exchange of ideas, methodologies and 
        advice is desperately needed on the west coast to help 
        rationally utilize our fishery resources. Work is now well 
        underway to put together such a meeting. The date and location 
        and international participants have already been arraigned and 
        now Dr. Richard Methot's group is trying to stop this exchange. 
        Why?
                                 ______
                                 
     Statement of Karen Garrison, Natural Resources Defense Council
    My name is Karen Garrison. I am Co-Director of the Natural 
Resources Defense Council's Ocean Protection Initiative. NRDC is a 
national environmental organization with about 350,000 members. We have 
a long-term commitment to protecting the diversity of species and 
habitats in the ocean and encouraging stewardship of living marine 
resources. NRDC collaborates with the Center for Marine Conservation, 
the Environmental Defense Fund, and the National Audubon Society in 
much of our Pacific marine work. We appreciate the interest of the 
Resources Committee in the management of Pacific Groundfish, and the 
opportunity to speak here today.
    Your hearing addresses questions that are critical for Pacific 
groundfish, but are also broadly relevant for other fisheries around 
the country. In this International Year of the Oceans, we encourage 
your support for improving conservation of these important resources, 
through better science and other tools. At the end of this testimony is 
a ten point action agenda developed to encourage a conservation focus 
for the Year of the Oceans. Several of its points offer useful guidance 
for West Coast groundfish, as well as the management of ocean 
activities nationwide. We will provide details on request.
    A year and a half ago, most species of Pacific groundfish--the 
highest value commercial fishery in the Pacific Exclusive Economic 
Zone--were considered relatively healthy. That picture changed 
dramatically with last year's stock assessments. Coupled with other 
warning signs, such as trends toward smaller average fish size and a 
halving of groundfish landings (other than Pacific whiting) over the 
past two decades, the National Marine Fisheries Service's 1997 stock 
assessments tell a disturbing story: nine of the fifteen most valuable 
groundfish species in the region are now at a small fraction of their 
historic levels. One species is still depleted despite a 20-year 
``rebuilding'' effort.
    This news underscores the importance of new measures required or 
encouraged by the Magnuson-Stevens Act, including steps to avoid 
overfishing, minimize bycatch, protect habitat, and retire excess 
capacity from the fishing fleet. But it also underscores the shaky 
nature of our information on groundfish. Why did some of this news come 
as a sudden revelation? How can we avoid such surprises in the future?

Need for Better Data and a Precautionary Approach

    Part of the answer lies in providing better survey information and 
analysis. Data are limited even for the 15 groundfish species NMFS 
assesses in detail. Key pieces of information, such as accurate 
assessments of bycatch, are missing.
    Furthermore, fully 68 of the groundfish species managed by the 
Pacific Fishery Management Council (PFMC or Council) are of unknown 
status, because we have little information about their abundance or how 
they are affected by fishing. Yet fishing is allowed on these species 
as if we were sure they were in good shape. Some of these stocks, like 
the group called ``near shore rockfish,'' now support lucrative and 
rapidly growing fisheries. In cases like this one, the combination of 
lack of data and lack of management caution could be disastrous.
    A proposal from NMFS' annual stock assessment workshop to conduct a 
stock assessment of the near shore rockfish group in 1999 deserves 
Congress' strong support, as do proposals to assess all other 
groundfish at whatever level is feasible. In the meantime, steps should 
be taken to limit fishing in cases where problems are indicated or 
suspected.
    An equally important part of the answer, however, lies in finding 
less risky ways to deal with uncertainty. Our ability to understand the 
abundance and reproductive rate of most ocean species will always be 
subject to uncertainty. Groundfish, and particularly the reclusive 
rockfish, are notoriously difficult to sample accurately. A standard 
response in the past has been to put the most positive possible face on 
the data, from the perspective of someone who wants the biggest 
possible catch. The phrase ``conspiracy of optimism,'' coined for other 
resource issues, aptly describes what happens in fisheries. When 
managers and scientists routinely downplay uncertainty and interpret 
data too hopefully, it should come as no surprise that groundfish 
depletions were discovered only after the populations had taken a huge 
dive. By then, the necessary catch cuts took a heavy toll on the 
fishing community.
    Sablefish provide a useful example of how easy it is for estimates 
of population size to be wrong. For many years, managers set what they 
thought were protective catch limits. But as more data were collected, 
it became apparent that the abundance estimates, on which catch limits 
are based, had been wrong for about two decades. Managers had been 
protecting paper fish. The main error lay in managing as if the 
information was certain, when it was not. Scientists need to be clear 
about the extent of uncertainty, and managers need to be more cautious 
until more infor-

mation is available. As recently as last year, however, when scientists 
acknowledged uncertainty in the data and recommended cuts in catches of 
two deepwater groundfish, the PFMC failed to heed their advice.
    Uncertainty also exists because fish populations wax and wane under 
the influence of long-term fluctuations in ocean temperatures and other 
environmental conditions. The effects of these shifts are often 
difficult to distinguish from the effects of fishing. But unless 
management takes this uncertainty into account, the combination of 
fishing and climate impacts can cause deep depletions.
    The Magnuson-Stevens Act aims to reduce these kinds of risks by 
instructing managers to take uncertainty into account. That shift will 
not come easily. Congress' full support of the precautionary approach 
implied in that provision is essential if the Councils are to avoid 
painful surprises in the future.
    In many parts of the world, no-fishing reserves are being used as a 
means of ensuring that baseline information is available, boosting 
vulnerable populations in mixed stock fisheries, and providing 
insurance in the face of uncertain information. Several small reserves 
in state waters on the Pacific Coast have demonstrated their value as 
havens where fish can grow large and highly productive. NRDC urges your 
support for the Council's use of reserves as a tool for groundfish 
management and habitat protection.
    Although the main focus of this hearing, and our testimony, is the 
adequacy of groundfish data and assessments, the PFMC faces several 
intertwined management challenges. We address those issues briefly 
below.

Reducing Overcapacity

    No controls were placed on entry or capitalization as American 
boats took over from foreign fleets in the late 1980s and new markets 
developed for groundfish species. As a result, the top problem in the 
groundfish fishery today, besides the uncertainty of our knowledge 
about them, is overcapitalization of the fleet. A limited-entry program 
adopted in 1994 to address excess capacity has not sufficiently 
decreased the number of participants or the amount of fishing power 
aimed at these fish. Excess capacity can encourage high bycatch levels, 
create pressure to ignore warning signs and to overfish, and make it 
difficult for people in the industry to make a living.
    To be effective, buy-back and gear-limiting programs aimed at 
solving this problem must meet certain standards. Such programs must 
prevent the replacement of the removed capacity through a moratorium on 
new entrants, restrictions on vessel upgrades, and other effort control 
measures, as required by the Magnuson-Stevens Act (See 312. 
(b)(l)(B)(i)). They should ease the economic strain on those who remain 
in the fishery, but, consistent with National Standard 5 of Magnuson-
Stevens, should also serve a conservation function, relieving the 
excess pressure on the resource.\1\ They should avoid intensifying the 
pressure on other fisheries. And, as recommended by the Pacific Marine 
Conservation Council (PMCC), an organization of commercial and 
recreational fishers, marine scientists and conservationists, such 
programs should have clear goals that can be evaluated.
---------------------------------------------------------------------------
    \1\ National Standard 5 says conservation and management measures 
shall consider efficient utilization of fishery resources, except that 
no such measure shall have economic allocation as its sole purpose.
---------------------------------------------------------------------------
    Judging by those standards, the buy-back proposal currently before 
the PFMC has serious flaws. It would purchase permits, not boats, 
leaving open the possibility that the retired capacity could in fact 
enter other fisheries. That poses a serious problem, since virtually 
all West Coast fisheries are overcapitalized. Key fisheries like squid 
and crab have no entry limits, thus are targets for excess capacity. 
Nor does the proposal adequately guard against vessel and gear upgrades 
in the remaining fleet. Without such limits, overcapacity is likely to 
recur in the groundfish fleet, and no conservation purpose will be 
served. All parties should work together to make sure a Pacific 
groundfish buy-back program complies with Magnuson-Stevens, setting the 
right precedent as one of the first under the Act. We agree with PMCC 
and the Pacific Coast Federation of Fishermen's Associations that an 
effective program must remove vessels from the fleet.

Minimizing Bycatch

    Bycatch rates average about 30 percent for the Pacific groundfish 
trawl fleet. Many groundfish are long-lived and can support only low 
harvest rates, yet they often mix with shorter-lived species. Managers 
face the challenge of devising controls that protect low productivity 
species, while allowing full catch of high productivity ones. The 
current high rates of bycatch intensify the pressure on vulnerable 
species, while measures that reward clean fishing and reduce bycatch 
rates can help relieve that pressure.
    Mandatory observer programs are a first critical step toward 
obtaining accurate assessments of bycatch. Such programs should provide 
representative coverage of the whole fleet, while spreading the 
industry share of the cost proportionally to revenue generated. To 
minimize bycatch, as required by Magnuson-Stevens, the current system 
that spreads fishing throughout the year may need to be modified, since 
the resulting low trip limits encourage unacceptably high rates of 
bycatch. Other bycatch reduction options include time and area 
restrictions, gear modifications, and incentives for clean fishing. The 
Council should encourage efforts like Oregon's voluntary program to 
reduce bycatch of rockfish in the shrimp fishery through the use of 
fish excluder devices.
    Requirements that all bycatch be retained, when coupled with an 
observer program, can be an incentive to reduce unintended catch. But 
to avoid institutionalizing bycatch, full retention should be required, 
not just retention of the marketable portion of the catch. There may be 
potential to generate funds in the short-term by processing retained 
bycatch, but minimizing the bycatch must be the primary goal. The focus 
of the program should be on rewarding vessel operators who achieve 
consistently low bycatch levels, through revocable exemptions from 
observer coverage, extended fishing seasons, or other means.

Habitat Protection

    Another challenge facing the Council is the need to protect 
essential habitat for groundfish. Of particular concern on the West 
Coast is the long-term effects of recently introduced roller gear. This 
gear allows trawl nets to maneuver in formerly inaccessible rocky ocean 
floor, and is believed to pose a threat to valuable rockfish habitat. 
NMFS has proposed a range of measures to address these issues, 
including the development of a framework fish management plan amendment 
that could include the use of marine ecological reserves. We urge 
Congress to support the use of innovative strategies by the Council and 
NMFS to protect spawning and breeding grounds and other essential 
habitat for groundfish.

Year of the Ocean Recommendations

    We urge you to consider and support the steps summarized below:

        1. Review America's efforts to conserve its ocean waters and 
        wildlife.
        2. Protect and restore America's ocean waters.
        3. Expand marine protected areas.
        4. Protect America's coral reefs.
        5. Invest in the future of America's oceans.
        6. Revitalize America's marine fisheries.
        7. Protect endangered marine wildlife.
        8. Take stock of America's marine wildlife and ocean waters.
        9. Promote ocean stewardship and education.
        10. Spur international efforts to protect the oceans.

Conclusion

    The declines of Pacific groundfish present West Coast fishery 
managers with a major challenge. We commend the Council and NMFS for 
taking the first important step toward meeting that challenge last 
year, by promptly cutting catches for most of the depleted populations 
and securing additional funds to improve data collection.
    We urge Congress to support a number of additional steps we believe 
will help avoid similar surprises in the future, and lay the groundwork 
for rebuilding these fisheries. Information-related measures include: 
additional funding for groundfish data collection and assessment; an 
intensified effort to assess the status of groundfish stocks (of known 
and unknown status); a strong commitment to the precautionary approach 
in interpreting the data and applying it in management decisions; and 
development of a mandatory observer program to assess bycatch levels.
    Conservation measures will also be essential. They should include 
the development of a buy-back proposal that removes vessels and serves 
a conservation as well as an economic purpose; adoption of bycatch 
minimization measures; and creation of pilot marine reserves aimed at 
protecting groundfish habitat, providing baseline information, and 
helping rebuild depleted fish populations. Thank you for the 
opportunity to testify.
                                 ______
                                 
  Statement of Chris Blackburn, Director, Alaska Groundfish Data Bank
    Thank you for the opportunity to comment on West Coast Groundfish 
issues. The Alaska Groundfish Data Bank (AGDB), located in Kodiak, 
Alaska, represents groundfish fishermen and processors operating 
primarily in the central Gulf of Alaska. A central mission of the AGDB 
is improvements in stock assessment and applied fishery science.
    Our comments will address issues germane to Alaska resource surveys 
and stock assessments, research vessel needs, and resource utilization. 
Adequate funding levels and research efforts in each of these areas are 
necessary to meet requirements under the Magnuson-Stevens Act, and to 
provide an effective, comprehensive management program for northwest 
marine resources.

Surveys and Stock Assessments

    Currently, NMFS annually surveys in March one pollock spawning 
biomass (the Shelikof Strait pollock spawning aggregation) in the Gulf 
of Alaska using hydroacoustic technology to determine stock size. 
During alternating years, NMFS expands the survey to more closely 
examine biomass in a single spawning aggregation in the Western Gulf. 
However, there are additional spawning aggregations in the Eastern Gulf 
and the East Side of Kodiak Island, the size of which remain 
unquantifiable.
    The health of these additional aggregations could be determined by 
expanding the survey to include one new area each year. Thus, each 
aggregation would be surveyed every third year while the Shelikof 
survey would continue on an annual basis. These additional surveys are 
essential to developing a comprehensive understanding of pollock 
biomass.
    Furthermore, NMFS surveys Gulf Groundfish via a summer triennial 
bottom trawl survey. Unfortunately, the survey has suffered long term 
attrition under fiscal constraints, sampling fewer stations at more 
inshore locations. This has resulted in surveys that are not sufficient 
to monitor the populations status of pollock, cod, rockfish and other 
groundfish in the near shore and deep water areas.
    In the Bering Sea/Aleutians (BSA) area, NMFS currently conducts 
annual summer hydroacoustic surveys on pollock spawning biomass, along 
with an annual bottom trawl survey targeting crab stocks. In addition, 
NMFS conducts groundfish surveys once every three years, a protocol 
similar to the Gulf area. Likewise, AGDB remains concerned that 
triennial surveys are not sufficient to facilitate a sound management 
program. We also suggest increasing the groundfish survey periodicity 
to a biennial program to improve our conservation potential.
    We urge the Subcommittee to recognize the lack of stock status 
information and long term implications on groundfish fisheries and take 
steps necessary to address these concerns. AGDB is seeking to improve 
fish stock assessment programs by increasing the frequency of the 
surveys from once every three years (``triennial'') to once every two 
years (``biennial''), and adding information from locations not 
currently being surveyed. We believe that improved stock assessments 
will reduce the potential of overfishing and, for some poorly assessed 
species, increase the allowable quotas, increasing economic activities 
for fishing communities throughout the GOA.

Research Vessels

    NMFS employs the Research Vessel (RV) Miller Freeman for 
hydroacoustic surveys in the GOA. The vessel is uniquely suited for 
this type of research compared to commercial fishing vessels which lack 
the appropriate equipment or design to conduct sonar surveys. Hence, 
the RV Miller Freeman is a critical component of the fisheries research 
program off Alaska.
    Currently, the RV Miller Freeman is in need of shipyard repairs. It 
is essential that funding be available to ensure this vessel, or one 
with similar capabilities, is continually available to conduct the 
necessary pollock surveys in the GOA. We urge the Subcommittee to 
recognize the value of maintaining this vessel.
    In addition, NMFS actively charters commercial fishing vessels to 
conduct groundfish bottom trawl surveys in the GOA. The AGDB recognizes 
NMFS' efforts in this regard and encourages this cooperative activity 
as it provides employment opportunity and brings fishermen directly 
into the management process. We believe NMFS should aggressively use 
the competitive procurement process to supplement the West Coast 
fisheries research activities.

Resource Utilization

    In the past, NMFS staff in the northwest and Alaska regions were 
very active in the area of utilization, devoting considerable effort 
into improving fish waste systems, product stability, and increasing 
the value of fish meal. However, research and development in the area 
of utilization has received short shrift during the recent period of 
shrinking budgets.
    Ironically, utilization has become more of an issue subsequent to 
the reauthorization of the Magnuson-Stevens Act which is clear in 
requiring reduced bycatch and efficient utilization of marine 
resources. Accordingly, NMFS has issued regulations mandating increased 
efficiency in the area of utilization. AGDB is concerned that reduced 
Federal funding will impede the industry's ability to develop new ways 
to meet increased these increased demands.
    The industry has stepped in to fill the void left by NMFS and is 
working proactively to address improved utilization. Recently, the 
National Fisheries Institute, filed a petition with the Food and Drug 
Administration (FDA) to allow processors to carry just one type of 
packaging for multi-species use in the formulation of surimi. If 
successful, processors would increase their efficiency by using several 
finfish species to make surimi, rather than using just one species and 
then having to process others differently. We understand the FDA is 
moving very slowly if at all, and any support the Subcommittee can 
provide to move this issue along will be extremely helpful.
    Furthermore, AGDB is supporting the efforts of the Fishery 
Industrial Technology Center at the University of Alaska Fairbanks to 
improve industry's utilization of fish resources. The Center currently 
has funding requests into the Department of Agriculture for several 
projects designed to efficiently handle fish-byproducts and develop new 
value-added products. Here again, the industry could use the help of 
this Subcommittee to ensure these proposals are given due 
consideration.
    Thank you for the opportunity to comment on these critical 
programs. Please do not hesitate to contact the Alaska Groundfish Data 
Bank should you our the members of the Subcommittee have any questions.

[GRAPHIC] [TIFF OMITTED] T8663.002

[GRAPHIC] [TIFF OMITTED] T8663.003

[GRAPHIC] [TIFF OMITTED] T8663.004

[GRAPHIC] [TIFF OMITTED] T8663.005

[GRAPHIC] [TIFF OMITTED] T8663.006

[GRAPHIC] [TIFF OMITTED] T8663.007

[GRAPHIC] [TIFF OMITTED] T8663.008

[GRAPHIC] [TIFF OMITTED] T8663.009

[GRAPHIC] [TIFF OMITTED] T8663.010

[GRAPHIC] [TIFF OMITTED] T8663.011

[GRAPHIC] [TIFF OMITTED] T8663.012

[GRAPHIC] [TIFF OMITTED] T8663.013

[GRAPHIC] [TIFF OMITTED] T8663.014

[GRAPHIC] [TIFF OMITTED] T8663.015

[GRAPHIC] [TIFF OMITTED] T8663.016

[GRAPHIC] [TIFF OMITTED] T8663.017

[GRAPHIC] [TIFF OMITTED] T8663.018

[GRAPHIC] [TIFF OMITTED] T8663.019

[GRAPHIC] [TIFF OMITTED] T8663.020

[GRAPHIC] [TIFF OMITTED] T8663.021


</pre></body></html>
